<html>
<title> - AVIATION SAFETY: FAA'S PROGRESS ON KEY SAFETY INITIATIVES</title>
<body><pre>[Senate Hearing 113-652]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 113-652
 
                AVIATION SAFETY: FAA'S PROGRESS ON KEY 
                           SAFETY INITIATIVES

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 16, 2013

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                             


       
                       U.S. GOVERNMENT PUBLISHING OFFICE
94-798 PDF                 WASHINGTON : 2015                       
       
________________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="385f4857785b4d4b4c505d5448165b575516">[email&#160;protected]</a>  
     
       
       
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
FRANK R. LAUTENBERG, New Jersey      MARCO RUBIO, Florida
MARK PRYOR, Arkansas                 KELLY AYOTTE, New Hampshire
CLAIRE McCASKILL, Missouri           DEAN HELLER, Nevada
AMY KLOBUCHAR, Minnesota             DAN COATS, Indiana
MARK WARNER, Virginia                TIM SCOTT, South Carolina
MARK BEGICH, Alaska                  TED CRUZ, Texas
RICHARD BLUMENTHAL, Connecticut      DEB FISCHER, Nebraska
BRIAN SCHATZ, Hawaii                 RON JOHNSON, Wisconsin
WILLIAM COWAN, Massachusetts
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 16, 2013...................................     1
Statement of Senator Rockefeller.................................     1
    Prepared statement...........................................     3
Statement of Senator Thune.......................................     4
    Prepared statement...........................................     6
Statement of Senator Cantwell....................................     7
Statement of Senator Ayotte......................................     9
Statement of Senator Blunt.......................................    52
Statement of Senator Nelson......................................    59
Statement of Senator Pryor.......................................    60
Statement of Senator McCaskill...................................    62
Statement of Senator Coats.......................................    66

                               Witnesses

Hon. Michael P. Huerta, Administrator, Federal Aviation 
  Administration.................................................    11
    Prepared statement...........................................    12
Hon. Deborah A.P. Hersman, Chairman, National Transportation 
  Safety Board...................................................    18
    Prepared statement...........................................    19
Gerald L. Dillingham, Ph.D., Director, Physical Infrastructure 
  Issues, U.S. Government Accountability Office..................    28
    Prepared statement...........................................    30
Jeffrey B. Guzzetti, Assistant Inspector General, Office of the 
  Inspector General, U.S. Department of Transportation...........    35
    Prepared statement...........................................    37

                                Appendix

Hon. Frank R. Lautenberg, U.S. Senator from New Jersey, prepared 
  statement......................................................    75
Hon. Amy Klobuchar, U.S. Senator from Minnesota, prepared 
  statement......................................................    75
Hon. Charles E. Schumer, U.S. Senator from New York, prepared 
  statement......................................................    76
Letter dated April 12, 2013 to Hon. John D. Rockefeller IV from 
  Rhonda Sivarajah, Chair, Anoka County Board of Commissioners...    76
Letter dated April 12, 2013 to Hon. John D. Rockefeller IV from 
  Jack Hilbert, Douglas County Commissioner, Board of Douglas 
  County Commissioners...........................................    78
Letter dated April 12, 2013 to Hon. John D. Rockefeller IV from 
  Marty Marchun, Douglas County Business Alliance................    79
Letter dated April 15, 2013 to Hon. John D. Rockefeller IV from 
  Jack A. Hilbert, Chair, National Association of Counties 
  Airports Subcommittee..........................................    80
Letter dated April 15, 2013 to Hon. John D. Rockefeller IV from 
  Mike Fitzgerald, President & CEO, Denver South Economic 
  Development Partnership........................................    81
Letter dated April 15, 2013 to Hon. John D. Rockefeller IV from 
  Mayor Mike Waid, Town of Parker Colorado.......................    81
Response to written questions submitted to Hon. Michael P. Huerta 
  by:
    Hon. Barbara Boxer...........................................    83
    Hon. Maria Cantwell..........................................    83
    Hon. Amy Klobuchar...........................................    88
    Hon. Roy Blunt...............................................    90
    Hon. Kelly Ayotte............................................    91
Response to written questions submitted to Hon. Deborah A.P. 
  Hersman by:
    Hon. Barbara Boxer...........................................    91
    Hon. Bill Nelson.............................................    92
    Hon. Maria Cantwell..........................................    92
    Hon. Frank R. Lautenberg.....................................    93
    Hon. Dan Coats...............................................    98
Response to written questions submitted to Gerald L. Dillingham, 
  Ph.D. by:
    Hon. Maria Cantwell..........................................   103
    Hon. Dan Coats...............................................   104
Response to written questions submitted to Jeffrey B. Guzzetti 
  by:
    Hon. Maria Cantwell..........................................   105
    Hon. Frank R. Lautenberg.....................................   106
    Hon. Amy Klobuchar...........................................   107


       AVIATION SAFETY: FAA'S PROGRESS ON KEY SAFETY INITIATIVES

                              ----------                              


                        TUESDAY, APRIL 16, 2013

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m., in 
room SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. Good afternoon, ladies and gentlemen, this 
hearing will come to order. And hopefully, there'll be some 
Senators who arrive, but you've got the two best ones right 
here.
    [Laughter.]
    The Chairman. Let me make my statement.
    Americans take the safety of their aviation system for 
granted. And they should. Given that, all too often, air travel 
is a difficult experience, safety is the last thing passengers 
need to worry about. There are certain expectations built into 
modern air travel. Airline passengers expect their pilot is 
experienced and rested, that their aircraft has been properly 
maintained and the air traffic controllers will guide their 
planes safely through the skies. But, the industry and 
regulators should never take the safety of the system for 
granted, nor should we. I know that none of us in this room 
take it for granted. Everyone here today is deeply committed to 
aviation safety. That's the job of many of you, and the 
interest of all of us.
    Our strong aviation record did not happen overnight. 
Everyone involved has worked hard to cultivate a strong safety 
culture. The FAA, the aircraft manufacturers, and airline 
employees all hold safety as their number one priority, as do 
we.
    Congress has spent a considerable amount of time in the 
last few years strengthening the FAA, really battling to 
strengthen it, financially and substantively. It was not easy, 
but we got it done. And the aviation system will become even 
safer because of the FAA Modernization Reform Act, that we did, 
in fact, pass last year, and the Airline Safety Act, which we 
did, in fact, pass in 2010.
    As you are well aware, our goal was to make certain our 
aviation system continues to be the safest, most efficient and 
modern in the world. The FAA has made considerable progress 
implementing many of the safety initiatives in those bills, and 
the agency is to be commended for that effort. But, now all of 
the progress that the FAA has made is at risk.
    Sequestration is not our friend, and it's affecting every 
aspect of the FAA's operations, or perceived operations, as 
people try to figure out what's going to happen. I also share 
my colleagues' frustration with the lack of transparency, 
frankly, on how the agency made this decision, and how it 
intends to implement budget cuts. A great deal of attention has 
been placed on the potential closure of 149 air traffic control 
towers, including four in West Virginia. I've expressed my 
concerns about the impact of closing those towers, on the 
airports and the communities, and they've expressed their 
concern to me, clearly. I know my colleagues share these 
concerns, and we will likely be discussing that today.
    But, again, there is frustration from some of us about the 
lack of transparency on how the agency made this decision, how 
it intends to implement, generally, the budget cuts. We need to 
have a better understanding of the specifics. What I do know is 
that if we fail to reverse the decrease in FAA's budget, we 
will not have an aviation system that we need to compete in a 
global economy. I made that speech last week, and I'll probably 
make it again today. Why is it that we are so directly 
destroying our infrastructure and our possibilities of growth 
and modernization? It's incomprehensible, but there it is.
    The hard choices that the FAA has to make to implement the 
sequester will only be magnified this October, when the next 
fiscal year begins. I know that the agency will never sacrifice 
safety, but it will be forced to limit every aspect of the 
system's operations. The implementation of NextGen will be 
delayed. That's awful, and dangerous. But, it's going to be 
delayed. Our aerospace industry will suffer as certification of 
new technology and equipment is slowed. More towers could be 
forced to close, and critical safety rulemaking, such as pilot 
training and qualification standards, will take longer.
    One of the reasons I have so aggressively advocated for 
moving to a digital satellite-based system with the NextGen 
program is that it will make the system safer. I know that the 
FAA will never compromise safety. But, the erosion of FAA's 
budget directly impacts our ability to complete NextGen and 
other safety initiatives. Something has to give, somewhere. Our 
problem is, we don't know what that's going to be. It threatens 
our ability to make the continuous improvement to aviation 
safety that we have made since the Wright Brothers.
    Unlike other transportation systems, we have a 
comprehensive plan to move our aviation system into the 21st 
century, but our unwillingness to raise sufficient revenues to 
pay for it means that we will fall further and further behind. 
You fight hard like we did last year and the year before, to 
move ahead. A bill passes, just barely; you get ahead. And 
then, all of a sudden, we're falling behind. We face difficult 
budgetary situations. We need to make the necessary investments 
in our transportation networks. I don't think anybody would 
dispute that. But, is it happening? No. Is there a possibility 
of this happening? Maybe. But not likely.
    The United States has been the world's aviation leader for 
over 100 years. We risk that global leadership position if 
we're unwilling to continue to invest in it. You can't invest 
in something with goodwill, good wishes. It's called 
``revenue.'' It's called ``money.''
    The situation with the lithium battery on the Boeing 787 is 
a perfect example of where the regulators identified a serious 
safety problem and acted swiftly to address it. The company and 
the FAA are evaluating solutions that I hope will soon be 
proven workable. Although the situation with the Boeing 787 has 
dominated the news, the FAA is currently working with the 
aviation community to actively identify and address potential 
risks before they result in an accident. The agency is working 
with controllers and pilots to increase reporting of errors so 
we can learn from our mistakes. We're putting the future safety 
of the system at risk if we're unwilling to sustain our 
commitment, if we are in the condition, that we are not willing 
to sustain our commitment to these critical effects.
    Everyone agrees that these are vital programs, that they 
will directly improve the safety of the system. Do we really 
want to slow down these initiatives? I'm not willing to settle 
for the status quo on aviation safety. Maybe we'll have to. 
It's a terrible situation.
    I will seek to maintain the necessary level of funding for 
the FAA and its critical missions as we continue our efforts to 
address our broader fiscal issues. I appreciate the budgetary 
situation is forcing the Federal Government to make difficult 
choices, but those choices still must be smart, driven by good 
policy and not damage our long-term economic competitiveness. 
It's a continued commitment to safety that makes the U.S. 
aviation system the safest in the world. We've seen that in 
recent months. Safety has to come above all else. There is no 
number two. There's only number one. And I'm confident, 
somehow--for what reason, I can't explain--that this is going 
to continue.
    [The prepared statement of Senator Rockefeller follows:]

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    Americans take the safety of their aviation system for granted. 
And, they should--given that all too often air travel is a difficult 
experience, safety is the last thing passengers need to worry about. 
There are certain expectations built into modern air travel. Airline 
passengers expect that their pilot is experienced and rested; that 
their aircraft has been properly maintained; and that air traffic 
controllers will guide their plane safely through the skies. But, the 
industry and regulators should never take the safety of the system for 
granted. I know that none of us in this room do; everyone here today is 
deeply committed to aviation safety.
    Our strong aviation record did not happen overnight. Everyone 
involved has worked hard to cultivate a strong safety culture. The FAA, 
aircraft manufacturers, and airline employees all hold safety as their 
number one priority, as I do. Congress has spent a considerable amount 
of time in the last few years strengthening the FAA. It wasn't easy, 
but we got it done. And, the aviation system will become even safer 
because of the FAA Modernization and Reform Act we passed last year and 
the Airline Safety Act we passed in 2010.
    As you are well-aware, our goal was to make certain our aviation 
system continues to be the safest, most efficient, and modern in the 
world. The FAA has made considerable progress implementing many of the 
safety initiatives in those bills, and the agency is to be commended 
for their effort. But, now all of the progress the FAA has made is at 
risk. Sequestration is affecting every aspect of the FAA's operations.
    A great deal of attention has been placed on the potential closure 
of 149 air traffic control towers, including four in West Virginia. I 
have expressed my concerns about the impact of closing these towers on 
the airports and the communities that depend on them. I know my 
colleagues share these concerns and we will likely discuss this issue 
in detail here today. I also share my colleagues' frustration with the 
lack of transparency on how the agency made this decision and how it 
intends to implement the budget cuts. We need to have a better 
understanding of the specifics. What I do know is that if we fail to 
reverse the decrease in the FAA's budget we will not have the aviation 
system that we need to compete in the global economy.
    The hard choices that the FAA has to make to implement the 
sequester will only be magnified this October when the next fiscal year 
begins. I know that the agency will never sacrifice safety, but it be 
forced to limit every aspect of the system's operations. The 
implementation of Next Gen will be delayed, our aerospace industry will 
suffer as certification of new technology and equipment is slowed, more 
towers could be forced to close, and critical safety rulemakings such 
as pilot training and qualification standards will take longer. One of 
the reasons I have so aggressively advocated for moving to a digital 
satellite-based system with the NextGen program is that it will make 
the system safer.
    I know that the FAA will never compromise safety. But, the erosion 
of FAA's budget directly impacts our ability to complete NextGen and 
other safety initiatives. It threatens our ability to make the 
continuous improvement to aviation safety we have made since the Wright 
Brothers. Unlike other transportation systems, we have a comprehensive 
plan to move our aviation system into the 21st Century--but our 
unwillingness to raise sufficient revenues to pay for it means that we 
will fall further and further behind.
    We face difficult budgetary decisions. We need to make the 
necessary investments in our transportation networks. The United States 
has been the world's aviation leader for over 100 years--we risk that 
global leadership position if we are unwilling to continue to invest in 
it. The situation with the lithium battery on the Boeing 787 is a 
perfect example of where the regulators identified and acted swiftly to 
address a serious safety problem. The company and FAA are evaluating 
solutions that I hope will soon be proven workable.
    It is also a perfect example of why the FAA and the industry cannot 
take safety for granted. With the ever-increasing complexity of 
aircraft and the air traffic control system, we need to make sure that 
our safety systems are advancing with the same speed of our 
technological innovation.
    Although the situation with the Boeing 787 has dominated the news, 
the FAA is currently working with the aviation community to actively 
identify and address potential risks before they result in an accident. 
The agency is working with controllers and pilots to increase the 
reporting of errors, so we can learn from our mistakes. We are putting 
the future safety of the system at risk if we are unwilling to sustain 
our commitment to these critical efforts.
    Everyone agrees that these are vital programs that will directly 
improve the safety of the system. Do we really want to slow down these 
initiatives? I am not willing to settle for the status quo on aviation 
safety. I will seek to maintain the necessary level of funding for the 
FAA and its critical missions as we continue our efforts to address our 
broader fiscal issues.
    I appreciate our budgetary situation is forcing every the Federal 
Government to make difficult choices, but those choices still must be 
smart, driven by good policy, and not damage our long-term economic 
competitiveness. It's a continued commitment to safety that makes the 
U.S. aviation system the safest in the world. We've seen that in recent 
months--safety has to come above all else. And I am confident that this 
will continue.

    The Chairman. I call upon my distinguished Ranking Member 
and good friend, John Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman. And thank you for 
holding this important hearing.
    Aviation safety has to be the FAA's top priority, and it's 
certainly a top priority of this committee. Today's hearing is 
a good opportunity to review the FAA's progress on a host of 
aviation safety issues, including mandates from both the 
Airline Safety and FAA Extension Act of 2010 and the FAA 
Modernization and Reform Act of 2012.
    The first of these laws, enacted in response to the tragic 
loss of life related to Colgan flight 3407, included several 
safety reforms for the airline industry. The FAA has made 
progress in implementing some of these reforms; most notably, 
the issuance of the flight and duty time rule for airline 
pilots. However, several initiatives are either behind schedule 
or otherwise incomplete.
    In particular, I hope that Administrator Huerta will be 
able to give the Committee an update on the pilot 
qualifications rulemaking, as well as a progress report on the 
agency's effort to develop the pilot records database, as 
directed by the law. I also look forward to hearing from the 
Department of Transportation's Office of Inspector General, 
which has been tracking the FAA's efforts to meet the 
requirements of the Airline Safety Act.
    Most recently, Congress enacted the FAA Modernization and 
Reform Act of 2012, which included additional provisions to 
improve safety. Among other things, the law directed the FAA to 
develop a strategic plan to address runway safety. The 
Government Accountability Office has found that the rate of 
runway incursions has trended steadily upwards in recent years, 
and the National Transportation Safety Board has again placed 
improving the safety of airport surface operations on its 
``Most Wanted List.'' I look forward to hearing from all of our 
witnesses about ongoing efforts to increase the safety of our 
runways and what remains to be done.
    Of course, we cannot examine aviation safety without 
discussing the recent incidents involving the Boeing 787 
Dreamliner. While the NTSB continues searching for the root 
cause of the battery failures that led to a grounding of the 
jets, the FAA has now approved Boeing's proposed certification 
plan that will, hopefully, address factors that likely 
contributed to the failures. I understand testing of the design 
changes have been completed, and FAA is analyzing the results. 
I'm eager to hear about the current status of the two ongoing 
efforts, as well as an assessment of what this case says about 
how the two entities work together.
    Finally, much has been made and said in recent months 
regarding the potential impact of the sequestration spending 
reductions on aviation. While this is no surprise to many at 
today's hearing, I'm concerned that, rather than sharpening 
their pencils and finding budget reductions that inflict as 
little pain as possible on the traveling public, the 
administration has threatened to close air traffic control 
towers, slow down air traffic, and furlough employees.
    The President, the Secretary of Transportation, and the 
Administrator have all issued dire warnings about the possible 
impacts of the sequester. Now that the cuts are a reality, it 
is my hope that agency leaders will take a second look at plans 
to implement budget reductions in a way that minimizes impacts 
on the traveling public and the economy. Airspace users have 
paid billions in taxes and fees that support FAA operations, 
and they deserve better management of services provided.
    This issue did not sneak up on anyone. During Administrator 
Huerta's confirmation process, the FAA failed to provide 
requested information to Congress and the American public about 
plans to carry out sequestration. This was true even after the 
President signed legislation into law last August that I 
authored, the Sequestration Transparency Act. And along with 
House Transportation Infrastructure Committee Chairman 
Schuster, I've sent three letters to the Department of 
Transportation over the past 6 weeks to get detailed 
information about their sequestration plans. Last Thursday, 
Chairman Rockefeller and I sent a letter, also signed by 
Aviation Subcommittee Chairwoman Cantwell and Ranking Member 
Ayotte and our counterparts in the House, urging the FAA to 
target lower priority spending to avoid contract tower 
closures. Yet, despite my efforts and those of my colleagues, 
to get straightforward information on the administration's plan 
for sequester, here we are with a lack of clarity and very low 
confidence that the proposed actions--widespread furloughs and 
tower closures--are the best or only way forward.
    A letter from Secretary LaHood, in response to only one of 
the letters, delivered late last night, leaves much to be 
desired in our efforts to gain more clarity on the decisions to 
close contract towers and the safety analysis conducted before 
administration officials decided to oppose closure of so many 
air traffic facilities. I hope Administrator Huerta will take 
today as an opportunity to directly answer questions on this 
important topic and to work with Committee members on the best 
way forward to implement the sequester reductions, which amount 
to only 2.4 percent of overall Federal spending for Fiscal Year 
2013.
    Again, I want to thank you, Mr. Chairman, for calling this 
hearing, and I thank all of our witnesses for their part in 
ensuring the highest level of safety for the traveling public. 
I look forward to your testimony.
    [The prepared statement of Senator Thune follows:]

 Prepared Statement of Hon. John Thune, U.S. Senator from South Dakota
    Mr. Chairman, thank you for holding this important hearing. 
Aviation safety has to be the FAA's top priority, and it is certainly a 
top priority of this Committee.
    Today's hearing is a good opportunity to review the FAA's progress 
on a host of aviation safety issues, including mandates from both the 
Airline Safety and FAA Extension Act of 2010, and the FAA Modernization 
and Reform Act of 2012.
    The first of these laws, enacted in response to the tragic loss of 
life related to Colgan flight 3407, included several safety reforms for 
the airline industry. The FAA has made progress in implementing some of 
these reforms, most notably the issuance of the Flight and Duty Time 
rule for airline pilots. However, several initiatives are either behind 
schedule or otherwise incomplete.
    In particular, I hope that Administrator Huerta will be able to 
give the Committee an update on the Pilot Qualifications rulemaking, as 
well as a progress report on the agency's effort to develop the pilot 
records database, as directed by the law. I also look forward to 
hearing from the Department of Transportation's Office of Inspector 
General, which has been tracking the FAA's efforts to meet the 
requirements of the Airline Safety Act.
    More recently, Congress enacted the FAA Modernization and Reform 
Act of 2012, which included additional provisions to improve safety. 
Among other things, the law directed the FAA to develop a strategic 
plan to address runway safety. The Government Accountability Office has 
found that the rate of runway incursions has trended steadily upwards 
in recent years, and the National Transportation Safety Board has again 
placed improving the safety of airport surface operations on its ``Most 
Wanted List.'' I look forward to hearing from all of our witnesses 
about ongoing efforts to increase the safety of our runways and what 
remains to be done.
    Of course, we cannot examine aviation safety without discussing the 
recent incidents involving the Boeing 787 Dreamliner. While the NTSB 
continues searching for the root cause of the battery failures that led 
to a grounding of the jets, the FAA has now approved Boeing's proposed 
certification plan that will hopefully address factors that likely 
contributed to the failures. I understand testing of the design changes 
has been completed and FAA is analyzing the results. I am eager to hear 
about the current status of the two on-going efforts, as well as an 
assessment of what this case says about how the two entities work 
together.
    Finally, much has been said in recent months regarding the 
potential impact of the sequestration spending reductions on aviation. 
While this is no surprise to many at today's hearing, I am concerned 
that, rather than sharpening their pencils and finding budget 
reductions that inflict as little pain as possible on the traveling 
public, the Administration has threatened to close air traffic control 
towers, slow down air traffic, and furlough employees. The President, 
the Secretary of Transportation, and the Administrator have all issued 
dire warnings about the possible impacts of sequester.
    Now that the cuts are a reality, it is my hope that agency leaders 
will take a second look at plans to implement budget reductions in a 
way that minimizes impacts on the traveling public and the economy. 
Airspace users have paid billions in taxes and fees that support FAA 
operations, and they deserve better management of services provided.
    This issue did not sneak up on anyone. During Administrator 
Huerta's confirmation process, the FAA failed to provide requested 
information to Congress and the American public about plans to carry 
out sequestration. This was true even after the President signed 
legislation into law last August that I authored--the Sequestration 
Transparency Act. And, along with House Transportation and 
Infrastructure Committee Chairman Shuster, I have sent three letters to 
the Department of Transportation over the past six weeks to get 
detailed information about their sequestration plans.
    Last Thursday, Chairman Rockefeller and I sent a letter also signed 
by Aviation Subcommittee Chairwoman Cantwell, and Ranking Member Ayotte 
and our counterparts in the House, urging the FAA to target lower 
priority spending to avoid contract towers closures. Yet, despite my 
efforts and those of my colleagues to get straightforward information 
on the Administration's plans for sequester, here we are with a lack of 
clarity and very little confidence that the proposed actions--
widespread furloughs and tower closures--are the best or only way 
forward. A letter from Secretary LaHood in response to only one of the 
letters, delivered late last night, leaves much to be desired in our 
efforts to gain more clarity on the decisions to close contract towers, 
and the safety analysis conducted before Administration officials 
decided to propose closure of so many air traffic control facilities.
    I hope Administrator Huerta will take today as an opportunity to 
directly answer questions on this important topic and work with 
Committee Members on the best way forward to implement the sequester 
reductions which amount to only 2.4 percent of overall Federal spending 
for FY 2013.
    Again, I thank the Chairman for calling this hearing, and I thank 
all of the witnesses for their part in ensuring the highest level of 
safety for the traveling public. I look forward to your testimony.

    The Chairman. Thank you, Senator Thune.
    I would like to call, now, on Senator Cantwell and also on 
Senator Ayotte, in sequence, because they're both Chairman and 
Ranking Member of the Aviation Subcommittee, which is so 
important.
    Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    Before I get started, I just want to honor the victims of 
the horrific incident that happened in Boston. And I know that 
all Washingtonians, my Washingtonians, but all Americans, also 
stand with our friends in Massachusetts. Our thoughts and 
prayers go out to the victims of this senseless tragedy, and we 
honor the first responders, who helped protect the lives of 
innocent Americans.
    And I want to thank you, Secretary Huerta, for the FAA's 
rapid response in quickly securing Boston's airspace, 
establishing temporary flight restrictions over the immediate 
vicinity of the explosion.
    Mr. Chairman, thank you for holding this important hearing. 
And it has just been over a year since we passed the FAA 
Modernization Reform Act, and there is a lot to do and talk 
about when it comes to safety.
    I want to thank the witnesses today, especially 
Administrator Huerta and Chairwoman Hersman, for updating me 
constantly on the FAA and the NTSB's review of the 787 battery 
issue. I appreciate the intensity and focus that both of your 
agencies have provided for the important aviation issues, and I 
look forward to continuing being updated on this issue.
    I also want to thank Mr. Guzzetti for his technical 
assistance on the medical safety legislation, when you were at 
NTSB, several years ago, and Mr. Dillingham, for your 
institutional knowledge on aviation issues. They're very 
welcome.
    While we're here today to talk about key safety 
initiatives, there is also a lot to talk about when it comes to 
sequestration and the impacts on safety and operations of over 
200 air traffic towers slated for closure. I appreciate my 
colleague's effort, Senator Moran, to try to restore funding. 
In my home state, eight towers are on the closure list, and 
these closures cause major disruptions. For example, at Felts 
Field, in Spokane, which is an area that serves both air 
medical services for four states, and also Paine Field, in 
Everett, which is the hub of a large aerospace manufacturer, 
these tower closures would have an impact. So, I hope, Mr. 
Chairman, we can resolve these issues.
    Mr. Chairman, prior to your chairmanship, you were the 
Chairman and Ranking Member of the Aviation Subcommittee for 
more than a decade. And, during that time period, you left a 
legacy of achievements on aviation safety. As a testament to 
the work of this Committee and the work of key agencies and 
industry players, there have been no major domestic crashes of 
major airlines in more than a decade. And, in response to the 
smaller Colgan crash that has been referred to by my 
colleagues, your Committee held nine hearings, and passed 
meaningful reform legislation in 2010. Some of that has been 
implemented, but other parts require final action. For one, the 
FAA must implement the rules required by your legislation, 
including pilot qualifications, pilot training, pilot mentoring 
and professionalism, database issues, and other safety aviation 
issues, including ensuring that regional carriers meet the same 
safety standards as major airlines, addressing the air traffic 
controller fatigue issues, reducing operational errors, and 
including runway incursions, improving general aviation safety, 
completing the medical safety rules, integrating unmanned 
aerial vehicles, and improving the voluntary reporting system. 
And we also must remember that there are a number of safety 
initiatives in the NextGen system, so as we move forward on 
that.
    But, last month, the NTSB released its interim factual 
report on a key issue, the lithium ion battery incident aboard 
the Boeing 787, at Logan Airport, operated by Japan Airlines. 
And next week, the NTSB will be holding a symposium on that 
issue. The FAA has been performing a comprehensive review of 
the 787's critical systems, focusing on the electrical system. 
And, since April 8, the FAA has been evaluating Boeing's test 
results on the modified battery. So, the NTSB ongoing 
investigation is important, and the interim factual report 
provides information regarding the incident at Logan Airport, 
including descriptions of the damage and components, and 
planned ongoing investigations.
    So, Mr. Chairman, I look forward to receiving these final 
reports and recommendations by all entities. And, like everyone 
else, we want these planes to return safely to flight. And yes, 
there are many people in the State of Washington--over 85,000 
people, directly and indirect--thousands of others, indirectly, 
a part of the supply chain. I can guarantee you, they want to 
get it right.
    The FAA and NTSB are doing their respective jobs on this 
issue, and I thank them for that, and the many hours that both 
of the agencies have put forth.
    Mr. Chairman, I look forward to working with you on the 
myriad of these aviation issues over the next several months, 
but we both know and have talked about this--we want to 
continue to hold hearings on NextGen oversight, the proposed 
American Airlines/U.S. Airways merger, competitiveness in the 
aerospace manufacturing, development of airline strategies to 
foster industry growth, and maintaining and upgrading our 
important airport infrastructure. All of these issues are a 
part of our safety mechanisms, as well.
    So, I thank you for holding this important hearing. I look 
forward to the witnesses' testimony today.
    Thank you.
    The Chairman. Thank you, Senator, very much.
    Senator Ayotte.

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Thank you, Chairman Rockefeller. And I want 
to thank you for the opportunity to deliver an opening 
statement today.
    I'm pleased that you decided to hold this hearing, and I 
want to thank all of our witnesses for being here.
    And I would echo the sentiments of my colleague, Senator 
Cantwell, for the important work that you've done in the light 
of what's happened in Boston. And certainly, my thoughts and 
prayers are with all the victims in Boston and all those who, 
unfortunately, were there for a very positive event that was 
interrupted by such a horrific tragedy.
    I want to begin my remarks, certainly, by expressing my 
excitement to serve as the Ranking Member on the Aviation 
Subcommittee, and I certainly look forward to working with 
Senator Cantwell as we have hearings on the topics that you've 
raised.
    And I look forward to working with you, Senator Cantwell.
    In this role, I certainly look forward, also, to working 
with Ranking Member Thune in making sure that we develop--and 
as well as the Chairman of the Committee--to develop sound 
policy prescriptions for many of the important issues that come 
before this subcommittee.
    As everyone in the room understands, there are a number of 
significant safety issues facing both the industry and the 
traveling public, including, number one, which has already been 
mentioned, the impacts of sequestration. I will also be 
particularly interested to hear from Administrator Huerta on 
the FAA's response to the sequester, including its decision to 
close the airports, that has already been discussed--excuse 
me--the air traffic control towers, like the one in at 
Warfield, in my hometown of Nashua, New Hampshire. I am also a 
cosponsor of legislation that would keep those towers open, the 
Protect Our Skies Act, but I have to wonder if whether--why we 
had to bring legislation to do this. And I would very much like 
to hear what the reasoning was for closing these control towers 
versus other areas of the budget, and finding savings to 
address sequestration, particularly the safety impact. I've 
already heard from those that are on the ground in Nashua, New 
Hampshire, of the potential impact of--if we were to close that 
control tower in my hometown.
    The other issues that I think are very important for us to 
talk about today are the simultaneous investigations by the FAA 
and the NTSB into the Boeing 787 program. And I know we're all 
interested in learning about the status of these investigations 
by the NTSB and the FAA, and want to make sure that we 
understand what the path forward is to make sure that these--
the Boeing 787 program can go forward safely. So, I appreciate 
hearing about that today.
    As well as the FAA's implementation of several safety 
rules, including rules relating to pilot duty and rest and 
pilot training, while I was not a member of this body during 
the consideration of the Safety Act of 2010, I've certainly 
heard a fair amount of input from interested parties about the 
implementation of this Act. So, I look forward to hearing from 
the FAA about the implementation and status of its pending 
rulemakings.
    After I was sworn in, just over 2 years ago, the first 
major piece of legislation on the Senate floor was the FAA 
reauthorization bill. Looking back, that was an important 
exercise in this body, in the sense that we thoroughly debated 
a major piece of legislation, considered amendments on both 
sides, and ultimately passed a reauthorization bill that was 
important to the safety of the American public. I hope, over 
the course of this Congress, with my colleagues, that we will 
find common ground to advance an aviation agenda that continues 
to keep our airports and carriers healthy and our airspace and 
the traveling public safe.
    Thank you, Mr. Chairman. I look forward to hearing from our 
witnesses.
    And I want to thank all of you for being here and for what 
you do for our country.
    The Chairman. Thank you, Senator.
    The four witnesses we have are the Honorable Michael 
Huerta, who's Administrator of something called the Federal 
Aviation Administration. It's a wonderful job. No stress 
whatsoever.
    [Laughter.]
    The Chairman. The Honorable Deborah Hersman, who is 
Chairman of the National Transportation Safety Board; Dr. 
Gerald Dillingham, Director of Civil Aviation Issues, the U.S. 
Government Accountability Office; and Mr. Jeffrey Guzzetti, 
Assistant Inspector General, Office of the Inspector General, 
United States Department of Transportation. I hope that was 
accurate.
    Mr. Administrator, we're going to start with you.

  STATEMENT OF HON. MICHAEL P. HUERTA, ADMINISTRATOR, FEDERAL 
                    AVIATION ADMINISTRATION

    Mr. Huerta. Thank you.
    The Chairman. Welcome. Welcome, welcome, welcome.
    Mr. Huerta. Thank you. Good afternoon, Chairman 
Rockefeller, Ranking Member Thune, members of the Committee. 
Thank you for the opportunity to be here today to discuss the 
FAA's progress on key safety initiatives.
    As you are aware, this is my first appearance before you as 
Administrator of the FAA. I appreciate the work of this 
Committee, and of the full Senate, in moving my confirmation 
forward. We have a great number of challenges and opportunities 
ahead, and I look forward to enhancing our productive working 
relationship.
    The FAA's number one priority is safety. It's our mission, 
and we focus on it 24 hours a day.
    First, let me briefly address the Boeing 787. The company 
has redesigned the internal battery components and conducted 
extensive testing. This includes limited test flights, without 
passengers, using the redesigned battery prototype. The FAA is 
currently reviewing these test reports and analysis to make 
sure that the 787's new battery system ensures the safety of 
the aircraft and its passengers.
    Turning next to broader safety considerations, while 
aviation safety encompasses many technical issues, we cannot 
overlook the role of human beings in aviation, and how they 
interact with sophisticated technology. In the last few years, 
Congress has given us much guidance on how to advance aviation 
safety, and we have accomplished a great deal. The FAA 
overhauled flight and duty rules to guarantee that airline 
pilots have the opportunity to get the rest they need to 
operate safely, and we're increasing the required hours of 
experience a pilot must have before operating the controls of 
any airline flight. We're also finalizing a rule that requires 
more realistic training so that flight crews can better handle 
rare but serious scenarios.
    The best way to enhance safety across the board is to 
improve the safety culture of an organization. Part of this 
effort involves self-reporting, by our own employees, on safety 
issues. We've put programs in place for air traffic controllers 
and aviation technicians to report a problem or even a mistake 
they may have made, and not fear retribution. This makes the 
system even safer.
    We're taking many other actions to enhance safety across 
the board, including promoting safety management systems and 
sharing more data between industry and the FAA. By analyzing 
this data, we're able to identify trends and hazards across the 
airspace system and mitigate issues before something happens.
    As you know, we're in a very uncertain and unpredictable 
fiscal environment. The sequester is requiring the FAA to make 
significant cuts in services and in investments. These cuts 
will impact air traffic control, NextGen implementation, and 
our certification services. We're exercising all options to 
reduce costs: a hiring freeze, cutting contracts, cutting 
travel, and other items not related to day-to-day operations.
    One of our largest contracts is the Federal Contract Tower 
Program. We've notified 149 airports across the country that 
Federal funding for their air traffic control towers will end 
in mid-June. These airports have lower activity levels; and, 
together, these contract towers handle less than 3 percent of 
the commercial operations nationally, and less than 1 percent 
of the passengers. Communities still have the option to keep 
their tower open if they're able to providing the funding, and 
the FAA stands ready to help them with that transition.
    I want to emphasize that, as we undergo the difficult 
process of implementing the deep cuts required by the 
sequester, we refuse to sacrifice safety, even if this means 
less efficient operations. In addition to contract towers, 
large facilities will also be affected. To reach the figure we 
need to cut from our payroll, which is our largest operating 
cost, we have to furlough 47,000 of our employees for up to 11 
days between now and September. The furloughs will reduce 
controller work hours at all airports with FAA towers, but also 
at radar facilities across the country. Again, safety is our 
number one concern. We will only allow the amount of air 
traffic that we can handle safely to takeoff and land. This 
means that travelers will need to expect delays. Today, we are 
meeting with air carriers to go over specific operational 
impacts related to the furloughs, facility by facility.
    Furthermore, our aviation safety inspectors will have to 
focus their attention on the most pressing priorities, and will 
devote their time to overseeing current activities to ensure 
continued operational safety of the existing fleet. These 
activities will take precedence over new projects.
    Our overarching principle in making these difficult 
decisions is to maintain safety and to offer the best air 
traffic services to the largest number of people, both now and 
in the future. It's my hope, and the hope of everyone at the 
Department of Transportation, that our leaders can work 
together to rally around our Nation's air transportation system 
and protect the great contribution that civil aviation makes to 
our economy.
    Mr. Chairman, this concludes my prepared remarks, and I 
will be pleased to answer any questions you may have.
    [The prepared statement of Mr. Huerta follows:]

     Prepared Statement of Hon. Michael P. Huerta, Administrator, 
                    Federal Aviation Administration
    Chairman Rockefeller, Senator Thune, members of the Committee:

    Thank you for the opportunity to speak to you today. This is the 
first time I am testifying before you as the confirmed Administrator of 
the Federal Aviation Administration (FAA). I appreciate your support 
for my candidacy. It is a privilege to hold this position and I welcome 
the challenges that will come with it. I hope to enjoy a long and 
effective relationship with you and this Committee.
    There are a number of important ongoing aviation safety-related 
initiatives that I know are of interest to this Committee. We are 
working hard to meet the future demands of aviation. From transitioning 
to the Next Generation of Air Transportation System (NextGen) to 
integrating Unmanned Aircraft Systems (UAS) into the national airspace 
system (NAS), the goals we are striving to meet are challenging, 
especially in light of the existing fiscal constraints. But our 
workforce is dedicated and very aware that achieving these goals are 
vital to FAA's ability to continue leading the world in aviation safety 
and innovation.
    Just over a year ago, Congress passed and the President signed the 
Federal Aviation Reauthorization Modernization and Reform Act of 2012 
(Reauthorization). As the returning members of this Committee may 
recall, passage of the bill followed a long odyssey that involved 23 
extensions before a comprehensive bill was passed. During that period, 
I spoke with Members individually about the impact the short-term 
extensions were having on our programs. The Airport Improvement Program 
(AIP) was adversely impacted without the stability of a long-term 
authorization. Airports across the country delayed the start of 
important capital projects due to the concern that funding was being 
authorized in very small amounts because of the short length of the 
extensions. As a consequence, during extension periods, airports were 
uncertain about committing to projects of all sizes, ranging from 
safety improvements to crucial infrastructure preservation to 
environmental impact mitigation, including sound insulation projects. 
Another impact to airport projects, as a result of multiple extensions 
was the inability of engineers, construction contractors, and material 
and equipment suppliers to place orders and conduct work. Reduced 
amounts of funding were made available in accordance with the short-
term extensions, so committing to long-term investments was 
problematic. We very much appreciated the passage of a comprehensive 
authorization that promised important stability and predictability.
Sequestration
    Now, just over one year later, the benefits of reauthorization are 
in jeopardy due to the budget reductions imposed by sequestration. It 
is essential to the effective management of FAA's programs to have 
stability and predictability that can be relied upon. Sequestration 
places us in the position of even greater uncertainty than the days of 
multiple extensions. Our agency has been working hard to plan for and 
implement the required cuts in a way that does not materially 
jeopardize our ability to ensure the highest levels of safety. Seventy 
percent of FAA's Operations budget is dedicated to employee salaries 
and benefits, so they will bear a significant portion of the cuts. I 
can assure you that safety is the FAA's top priority. If sequestration 
means fewer flights can be safely accommodated in the NAS, then there 
will be fewer flights.
    On April 10, I issued final furlough decision letters to over 
47,000 employees. The furloughs generally will be on discontinuous 
days, approximately one day per bi-weekly pay period, for a maximum of 
11 days between April 21 and September 30. We are also planning to 
eliminate midnight shifts in over 60 towers across the country starting 
this summer; cease Federal funding at 149 air traffic control towers at 
airports with fewer than 150,000 flight operations or 10,000 commercial 
operations per year starting June 15, and reduce preventative 
maintenance and equipment provisioning and support for all NAS 
equipment. All of these changes will be finalized as to scope and 
details through collaborative discussions with our users and our 
unions.
    As a result of employee furloughs and prolonged equipment outages 
resulting from lower parts inventories and fewer technicians, travelers 
should expect significant delays. We are aware that these service 
reductions will adversely affect commercial, corporate, and general 
aviation operators and the travelling public.
    Beyond the impacts to air traffic, aviation safety employees will 
also experience furloughs that will impact airlines, aviation 
manufacturers, and individual pilots who need FAA safety approvals and 
certifications. While the agency will continue to address identified 
safety risks, slowed aircraft certification and operations approval 
processes due to furloughs could negatively affect all segments of the 
aviation industry.
    It is unfortunate that many of the positive benefits of the long-
term reauthorization are being undermined by sequestration.
FY 2014 Budget
    The President released his FY 2014 Budget last week. The FAA's FY 
2014 Budget request of $15.6 billion strikes a balance between 
maintaining current infrastructure while deploying key NextGen benefits 
to our stakeholders, upholding our critical safety programs, and 
modernizing our aviation infrastructure. Our request is $351 million 
lower than FY 2012. This 2.2 percent decrease supports the President's 
effort to reduce the deficit. Approximately half of our funding request 
is devoted to maintaining and improving the agency's safety programs. 
This includes the ability to perform safety inspections and carry out 
rulemaking and certification activities to move NextGen and commercial 
space initiatives forward.
    The budget requests $9.7 billion to provide the operation, 
maintenance, and support of our air traffic control and air navigation 
systems, ensure the safe operation of the airlines and certify new 
aviation products, ensure the safety of the commercial space 
transportation industry, and provide overall policy oversight and 
management. This represents an increase of just 0.6 percent from the FY 
2012 enacted level. This includes $1.2 billion to continue to promote 
aviation safety by regulating and overseeing the civil aviation 
industry and continued airworthiness of aircraft, as well as 
certification of pilots, mechanics, and others in safety management 
positions. The $2.8 billion Facilities & Equipment (F&E) request 
enables FAA to meet the challenge of both maintaining the capacity and 
safety of the current national airspace while keeping a comprehensive 
asset modernization and transformation effort on track. The $166 
million requested for Research, Engineering, and Development (RE&D) 
supports the continuation of work in both NextGen and other research 
areas such as environmental research, safety research in areas such as 
fire research, propulsion and fuel systems, unmanned aircraft, advanced 
materials research, and weather research. And the $2.9 billion request 
for Grants-in-Aid for Airports focuses Federal grant funding on smaller 
commercial and general aviation airports that do not have access to 
additional revenue or other outside sources of capital. This is coupled 
with a proposed increase to Passenger Facility Charges, from the 
current maximum of $4.50 to $8.00, thereby giving commercial service 
airports greater flexibility to generate their own revenue. Finally, in 
the Operations, F&E and RE&D requested amounts, we have included $1.002 
billion for the NextGen portfolio, an increase of $67.2 million, or 
approximately 7 percent, above the FY 2012 enacted level. This level of 
program funding enables the FAA to continue to support near-term 
NextGen commitments in a budget-constrained environment.
Boeing 787
    Turning to another matter that has received a great deal of 
attention, I would like to update you on the status of the review of 
Boeing 787's lithium batteries. On March 12, FAA approved Boeing's 
certification plan for the 787 battery system redesign. This was done 
after a thorough review of the proposed modifications, as well as the 
company's plan to demonstrate that the modified system will meet FAA 
requirements. Approval of the certification plan was the first step in 
the process to evaluate the 787's readiness for return to flight. It 
required Boeing to conduct extensive testing and analysis to 
demonstrate compliance with the applicable safety regulations.
    The battery system improvements include a redesign of the internal 
battery components to minimize risk of a short circuit within the 
battery, better insulation of the cells, and the addition of a new 
containment and venting system. These added protections are expected to 
help prevent and contain smoke and fumes in the event that a battery 
does malfunction.
    Boeing flew limited non-passenger test flights of two aircraft that 
had the prototype versions of the new battery containment system 
installed. The purpose of the test flights included validation of the 
aircraft instrumentation for the battery and testing of the battery 
enclosure, in addition to product improvements for other systems. 
Boeing completed all required tests and analysis to demonstrate that 
the new design complies with FAA requirements. The FAA is reviewing the 
test reports and analysis and will approve the redesign once we are 
satisfied Boeing has shown the redesigned battery system meets FAA 
requirements.
    Aviation, from its very beginning, has stretched technological 
boundaries. Technological change in aviation comes in waves. For more 
than five decades, the FAA has compiled a proven track record of safely 
introducing new technology and new aircraft. As we continue to do this, 
I want to make one thing crystal clear. The FAA takes very seriously 
its responsibility to establish aircraft safety standards and certify 
new products and technologies.
    As you know, we are moving forward with a review of the critical 
systems of the Boeing 787. When we have a concern, we will analyze it 
until we are satisfied. I am confident that the FAA has the expertise 
needed to oversee the Dreamliner's cutting edge technology. We have the 
ability to establish rigorous safety standards and to make sure that 
aircraft meet them. The best way to do this is to bring together the 
best minds and technical experts in aviation to work on understanding 
how these new systems work and how to establish and meet appropriate 
safety standards.
    We enhance safety by keeping the lines of communication open 
between industry and government--by fostering the ability and 
willingness to share information about any challenges we might be 
facing. We want to create an atmosphere where people feel they can 
share what they know, all in the pursuit of safety.
    We all want the same outcome. We want to harness advances in 
technology to produce safe aircraft. We will never lose sight of our 
respective roles, but that does not mean that there is not a seat at 
the table for bright minds from industry to help inform the best way to 
navigate the complex technological issues we encounter. It would be 
short-sighted to overlook anyone's valuable expertise.
Reauthorization
    As noted above, we were very happy when a comprehensive FAA 
reauthorization was passed last year. Reauthorization required over 200 
separate deliverables, nearly half of which were due within the first 
year of enactment. FAA is on track to meet or has met approximately 80 
percent of those action items. We have fully completed about half of 
the deliverables in the law. Now, as I'm sure you can appreciate, all 
action items are not created equal. Some are very complex and require a 
good deal of input from our workforce and industry partners. I believe 
that meaningful collaboration is the only way to achieve a workable 
path forward. Doing what we need to do to get the most effective work 
product is our goal, even if it means that certain deadlines are not 
met.
Safety
    Safety is FAA's number one mission. Nothing is more important. Our 
system has never been safer. There has not been a fatal commercial 
passenger accident in the United States since 2009. I am proud of the 
hard work that has gone into providing a basis for achieving this level 
of safety. We need to make aviation safer and smarter through risk 
based approaches. The only way to prevent accidents before they happen 
is to accurately identify risk areas and work to mitigate them. That is 
the reason we are working hard to improve runway safety areas (RSAs) at 
commercial service airports. Some of the RSA improvements include the 
installation of the Engineered Materials Arrest System (EMAS). This 
soft concrete block system has been installed in RSAs at 45 airports in 
the U.S. These EMAS systems have already stopped eight overrunning 
aircraft with no fatalities or serious injuries to passengers. 
Voluntary reporting for both FAA and industry employees, safety 
management systems (for both FAA and industry) and the creation of the 
Aviation Safety Whistleblower Investigation Office have also helped to 
prevent accidents. All of these efforts have been providing the agency 
with data and information to which we have never before had access. 
More information results in FAA being able to see trends and take 
action to mitigate the associated risks. Adjusting the safety culture 
to ensure employees that they can provide information without fear of 
reprisal is a cornerstone of our approach to safety.
    Prior to Reauthorization, we had been working on the requirements 
of the Airline Safety and Federal Aviation Administration Extension Act 
of 2010. That act mandated rulemakings to revamp flight and duty time 
regulations to better address the issue of pilot fatigue, to increase 
the required number of hours of flight experience before a pilot can 
qualify to be a commercial pilot, and to revise pilot training to 
better simulate challenging conditions so that pilots can better handle 
serious, but rare situations. We completed the flight and duty time 
rulemaking just over a year ago, and plan to complete our work on the 
final pilot qualification rulemaking (the ``New Pilot Certification and 
Qualification Requirements Final Rule'') by August 2013 and pilot 
training (the ``Qualification, Service, and Use of Crewmembers and 
Aircraft Dispatchers Final Rule'') by October 2013. Reauthorization has 
since added a number of rulemaking requirements that we are also 
pursuing.
    With respect to other safety directives in Reauthorization, FAA 
commissioned an Aviation Rulemaking Committee (ARC) to develop 
recommendations to improve our aircraft certification process: we 
delivered our Report to Congress on that effort in August of last year 
and have begun implementation of the report's recommendations. We also 
established an ARC consisting of government and industry experts to 
develop recommendations on improving the consistency of regulatory 
interpretations. We are in the process of finalizing a report informing 
Congress of the recommendations presented to the FAA.
    Reauthorization also required a number of safety-related reports. 
We have delivered the report required on runway safety alert systems 
and the first annual report of the Aviation Safety Whistleblower 
Investigation Office summarizing the disclosures the office has 
received and how they were handled. In the upcoming weeks, we expect to 
issue reports on the National Service Air Carrier Evaluation Program, 
night vision goggles for helicopter pilots, improved pilot licenses, 
and limiting access to the cockpits in all cargo aircraft. We are also 
finalizing a report to Congress on common sources of distraction on the 
flight deck.
    Pursuant to Congressional direction, we have also worked with the 
Occupational Health and Safety Administration (OSHA) to draft a 
statement of policy which permits some OSHA standards to be applied to 
improve workplace safety for aircraft cabin crew. We published a draft 
policy statement in the Federal Register in December of 2012 for 
comment, and are in the process of reviewing those comments.
    Also in accordance with reauthorization, in October of last year, 
the FAA, in conjunction with the Department of State, issued a cable 
regarding international drug and alcohol standards for foreign repair 
stations. An advanced notice of proposed rulemaking (ANPRM) is 
currently in executive review.
Delivering Technology
    Our goal in the area of delivering technology is to efficiently and 
sustainably deliver benefits to our stakeholders and society. One of 
the responsibilities of the Deputy Administrator is to serve as our 
Chief NextGen Officer, so that is one of many reasons I hope to appoint 
a Deputy relatively quickly.
    Throughout Title II of the Reauthorization, there is a theme that 
modernization of the system must be done in collaboration with our 
industry partners. FAA wholeheartedly agrees with this concept. 
Imposing technological changes without the input of the users would be 
a recipe for failure. We continue to engage through our work with 
Optimization of Airspace and Procedures (OAPM) initiatives, which are 
being done in close collaboration with industry and stakeholders. OAPM 
is actively working in nine of the 13 metroplexes identified in Phase 1 
of the program. Of these, one of the metroplexes (Houston) is currently 
in the implementation phase with two additional sites (Washington, 
D.C., and North Texas) planned to start implementation of the new 
procedures later this summer, depending on how sequestration impacts 
this plan. The metroplex initiative optimizes procedures in a 
geographic area where there are a number of airports, rather than 
focusing on each airport separately. Through this initiative, we are 
untangling our busiest airspace and creating more direct routes, 
cutting fuel, and becoming more environmentally friendly. In the 
congested airspace in the skies above our busiest metropolitan areas, 
these new modifications are being put in place in three years, much 
more quickly than the five to ten years it had taken previously. We are 
also actively engaged with our industry and government partners in the 
development of NextGen through the NextGen Advisory Committee (NAC). 
This group is helping to guide many aspects of our air traffic 
modernization work. The NAC also works with FAA on developing and 
tracking performance metrics and advising on the technical challenges 
of one of the new categorical exclusion provisions included in 
Reauthorization.
    Reauthorization also provides FAA with the ability to consider 
using operational and financial incentives for commercial and general 
aviation operators to equip their aircraft with NextGen technology. We 
are actively engaging aircraft operators and potential private partners 
to assess interest and receive feedback on equipage incentive programs 
and how use of this authority could attract additional investment in 
NextGen technologies and training.
    FAA has completed a departure queue management pilot program that 
was required in the statute in order to continue to advance plans to 
enhance surface management at airports. Also, in accordance with 
Reauthorization, we have issued guidance for AIP funding eligibility 
that supports the importance of sustainability initiatives in the way 
that airports do business, and we expect to issue further guidance in 
2013. We have also initiated a new study on the National Plan of 
Integrated Airport Systems, which is a long-established process for 
identifying strategic investments. The new study will ensure we are 
making the best use of available data in supporting our decisions to 
advance safety, capacity, efficiency, and sustainability initiatives.
    Finally, in February, pursuant to Reauthorization, the FAA 
requested proposals for interested state and local governments, 
eligible universities, and other public entities to develop six 
Unmanned Aircraft Systems (UAS) test sites around the country, which 
will gather information to help inform research, development, 
operational and privacy issues. We expect to select the six sites by 
the end of the year. These sites will conduct critical research that 
will help determine how best to integrate UAS into the NAS. Once the 
sites are operational, we expect to learn how UAS operate in different 
environments and how they impact air traffic operations. I know this 
Committee is very interested in UAS integration. Use of the six sites 
will provide us with essential information to facilitate integration of 
UAS into the NAS and to address outstanding issues, such as privacy. 
Prior to finalizing the FAA's UAS five-year ``Roadmap'', the FAA is 
coordinating the roadmap with other UAS stakeholder agencies and 
ensuring alignment of that roadmap with the Joint Planning and 
Development Office's Interagency Comprehensive UAS Plan.
Empower and Innovate FAA's Workforce
    In the current fiscal climate, we have to find a way for FAA's 
employees to work smarter and enhance our productivity. You tasked us 
to undertake a thorough review of each program, office, and 
organization within the agency. Our report on FAA Review and Reform 
highlights 36 initiatives to improve and update processes, eliminate 
duplication and waste, and make the agency more efficient and 
effective. The initiatives identified cover many aspects of our 
operations and include improvements to cost analysis, governance, 
acquisition processes, standard operating procedures, and human 
resources. Of the 36 initiatives, 16 have been implemented and 20 are 
in progress. In addition, we are actively engaging our employees in the 
development of recommendations for facilities consolidation and 
realignment.
    At your direction, we are looking closely at improvements to 
staffing and training for our employees. Four studies are underway 
looking at frontline manager staffing, technical training and staffing, 
air traffic controller staffing and air traffic training and 
scheduling. Due to the requirement to produce the plan by March 31, 
2013, the interim workforce plans we submitted last month do not 
reflect the potential effects of sequestration. The FAA will adjust the 
actual staffing and hiring forecasts to reflect future funding levels 
as they become available. Finally, in accordance with Reauthorization, 
we developed staffing standards and scheduling plans for New York City 
and Newark air traffic control facilities. We are in the process of 
considering impacts of sequestration to staffing concerns.
Develop and Fund the Efficient FAA of the Future
    FAA must not only meet our day to day responsibilities, we must 
also look to the future and figure out how to shape the agency to meet 
the demands and opportunities of the future. As noted earlier, the U.S. 
aviation system is going through significant, even revolutionary 
changes. NextGen is a major transformation which will increase our 
efficiency and safety, reduce delays and reduce fuel consumption. UAS 
have the potential to change the face of aviation. In the midst of 
these changes, budget pressures are making us ask hard questions about 
what the FAA needs to deliver in the coming years to ensure the safety 
and efficiency of the NAS and how to do it most cost-effectively.
    In addition, we will face major changes in our workforce in the 
coming years. About one third of FAA employees will be eligible to 
retire starting in 2014. So for us, succession planning remains a 
crucial aspect of the agency's focus, and we realize that we will begin 
to lose a vast amount of corporate knowledge in the coming years. To 
prepare for that, we must impart this knowledge to today's emerging 
leaders and experts to ensure a successful agency in the 21st century. 
We need to embrace innovation and to work efficiently.
    Efficiencies are not just for the future. Given the economic 
challenges we are facing, FAA has worked very hard to find cost savings 
and we have been quite successful. In Fiscal Year 2012, FAA 
efficiencies and cost cutting resulted in $81 million in savings.
    Prior to sequestration, we have set a target of $91 million in cost 
savings for Fiscal Year 2013. We recognize that the status quo is not 
an option and we will continue to strive to achieve additional 
efficiencies moving forward.
    Finally, we must chart innovative and collaborative ways to engage 
with all segments of the aviation sector, from airlines to association 
groups, to general aviation, to unions. We must embrace the opportunity 
to make long-lasting changes together that ensure a vital and vibrant 
aviation industry that serves the needs of this Nation.
Advance Global Collaboration
    The world is increasingly interdependent, so international 
collaboration is essential if we want to move forward effectively. FAA 
needs to continue to work with international partners to improve global 
aviation safety and sustainability. This effort will require us to 
improve the harmonization and interoperability of new technology with 
international aviation standards and procedures to improve safety on a 
global basis. We need to work to ensure the roadmaps agreed to by the 
International Civil Aviation Organization (ICAO) to advance 
communications, navigation, and surveillance improvements for global 
air navigation are compatible with our NextGen concepts and 
implementation and our domestic regulatory plan. We are working at ICAO 
to find practical and collaborative solutions to address aviation's 
greenhouse gas emissions and are encouraged by the European Union 
decision to ``stop the clock'' on application of their emissions 
trading system on foreign airlines. Our international partnership will 
require us to develop and begin to implement a strategic plan for 
technical assistance, training, and other activities to maximize the 
value of FAA's expertise and United States resources. The FAA is 
committed to working proactively with countries around the world to 
create the initiatives and achieve the outcomes we need in the areas of 
safety, air traffic management, and the environment to foster a safe, 
efficient and sustainable global aviation sector.
Conclusion
    Let me conclude by saying that it is essential to the effective 
management of FAA's programs to have stability and predictability that 
can be relied upon. The many extensions over the last few years took a 
toll on FAA's work in certain areas. Now we face an even more extreme 
uncertainty under sequestration. All of us in this room want the same 
things. We want to get better at what we do, think smarter, improve 
safety, streamline processes, and remain the agency that can work 
collaboratively with the world to develop safer and more efficient 
practices. Sequestration will not stop us from trying to attain these 
goals, but it will make it much, much harder.
    Mr. Chairman, this concludes my statement. I will be happy to take 
questions at this time.

    The Chairman. Thank you, Mr. Administrator.
    And now, the Chair of NTSB, Deborah Hersman.

  STATEMENT OF HON. DEBORAH A.P. HERSMAN, CHAIRMAN, NATIONAL 
                  TRANSPORTATION SAFETY BOARD

    Ms. Hersman. Good afternoon, Chairman Rockefeller, Ranking 
Member Thune, and members of the Committee.
    I appear before you today during one of the safest periods 
in the history of U.S. commercial aviation. Since the 2009 
Colgan air crash near Buffalo that killed 50 people, some 3 
billion passengers have traveled safely on U.S. airlines.
    Despite the lack of accidents in U.S. commercial aviation, 
we cannot be complacent. Today, the NTSB continues to 
investigate the January 7 Japan Airlines 787 battery fire at 
Boston's Logan International Airport. In the more than 3 months 
since that incident, the NTSB has dedicated significant 
resources to the investigation. Here is what we know:
    There were multiple internal short circuits in cell 6 of 
the battery that initiated a thermal runaway, which progressed 
to neighboring cells.
    On March 7, the NTSB published an interim factual report 
and released hundreds of pages of investigative material.
    Last week, we held a forum to explore the use of lithium 
ion battery technology across all modes of transportation. We 
learned that these batteries are everywhere, and that they can 
be very safe. But, risks must be managed and mitigated.
    Next week, we will be holding an investigative hearing to 
focus on the design and certification of the 787 battery 
system. We will continue to provide factual updates on the 
progress of our work.
    My full testimony provides more detail on needed safety 
improvements regarding pilot training, distraction, and airport 
surface operations, but let me highlight for you this afternoon 
two areas of civil aviation that have not realized the safety 
gains of the air carriers, and discuss the use of data, an 
invaluable safety tool.
    The first area: Helicopter Emergency Medical Services, or 
HEMS. Currently, we are investigating 11 HEMS accidents. Six of 
those have occurred since December. HEMS operations are high-
pressure. Lives are on the line, and decisions about whether to 
launch, or not, must be made quickly. Conducting a thorough 
risk assessment, improving training, weather monitoring, and 
adding additional safety equipment can help ensure the safety 
of these flights.
    A second area of concern is general aviation, which 
accounts for nearly 1,500 accidents per year, and results in 
nearly 500 fatalities annually. What is especially tragic is 
that we see the same types of accidents over and over again, 
and so many of them are entirely preventable. Improving the 
safety of GA is on the NTSB's most-wanted list of 
transportation safety improvements. As part of our education 
and outreach to decrease these accidents, the Board met last 
month to examine chronic problems that we see in general 
aviation. We've developed five safety alerts to pinpoint 
hazards and provide practical remedies. These safety alerts 
have been provided to you with my testimony.
    Finally, at the NTSB, we continue to use and encourage the 
development of new sources of data and information to support 
our safety analysis. We have seen a very positive trend in 
collaborative efforts between regulators and the aviation 
community to generate and share data and information which can 
improve safety.
    But, let me be clear, the absence of accidents does not 
mean that our work is done. Safely defying gravity thousands of 
time each day requires constant vigilance.
    I look forward to answering your questions.
    [The prepared statement of Ms. Hersman follows:]

      Prepared Statement of Hon. Deborah A.P. Hersman, Chairman, 
                  National Transportation Safety Board
    Good afternoon Chairman Rockefeller, Ranking Member Thune and 
Members of the Committee. I appear before you today during the safest 
period of U.S. commercial aviation history. Although significant 
technological advances, new and important statutory mandates and 
regulatory changes, and more comprehensive crew training have greatly 
contributed to aviation safety, it was not that long ago--36 years ago 
last month--that the world's most deadly aviation accident occurred in 
Tenerife, Canary Islands, when two jumbo jets collided on the airport 
runway, killing a total of 583 passengers and crewmembers. Since that 
disaster, the aviation industry has made steady progress in improving 
safety and advancing technology quickly. There have been significant 
technological advances, new and important statutory mandates and 
regulatory changes, and more comprehensive crew training--all greatly 
contributing to the current level of aviation safety.
    Yet, also at this time the National Transportation Safety Board 
(NTSB) is investigating a battery incident that led to the grounding of 
the 787 fleet by the Federal Aviation Administration (FAA). (The FAA 
has not grounded a fleet since 1979.) Concurrent investigations of two 
separate, but similar incidents involving 787 batteries are occurring 
in the United States and Japan--the coordination and sharing of 
information with our international investigative partners is going 
well.
    Today, I will discuss current aviation safety issues being 
addressed by the NTSB, including our continuing investigation of the 
Boeing 787 battery smoke and fire event in Boston, airport surface 
operations, general aviation safety, helicopter emergency medical 
service (HEMS) operations, pilot training and distraction, flight and 
duty time, and the recent Memorandum of Understanding between the NTSB, 
FAA, and various aviation industry organizations to share deidentified 
aggregate safety information to help prevent accidents.
The NTSB's Most Wanted List and Aviation Safety
    The annual Most Wanted List identifies the NTSB's top advocacy 
priorities for improving transportation safety. The current list 
identifies the following five aviation safety-related issues:

  <bullet> Improve Safety of Airport Surface Operations, discussed 
        further below

  <bullet> Improve General Aviation Safety, also discussed below

  <bullet> Improve Fire Safety in Transportation

  <bullet> Preserving the Integrity of Transportation Infrastructure

  <bullet> Eliminate Distraction in Transportation, also discussed 
        below

    For the aviation safety issues identified in its Most Wanted List, 
the NTSB continues to work with the FAA, manufacturers, operators, 
labor organizations, airports, and aviation safety organizations to 
reduce the safety risks to the traveling public, crewmembers, and 
others. Also, although NTSB data show that it has classified 113 of its 
Recommendations to the FAA regarding safety issues identified in 
various NTSB Most Wanted Lists as ``Open-Unacceptable Response,'' the 
FAA has made steady progress in reducing the number of its overall open 
safety recommendations. During calendar year 2012, the FAA reduced by 
7.7 percent its total number of NTSB open safety recommendations, and 
during the first three months of 2013 the FAA has further reduced the 
number of open safety recommendations by 4.5 percent compared to end of 
2012. I am also heartened that Administrator Huerta has made the FAA's 
reduction in the number of open NTSB safety recommendations a major 
priority for the agency.
Boeing 787 Battery Fire and Smoke Incident at Boston's Logan 
        International Airport
    On January 7, 2013, a Japan Airlines (JAL) Boeing 787 was parked at 
the gate at Boston's Logan International Airport after completing a 
flight from Narita, Japan, when a member of the cleaning crew 
discovered smoke in the rear of the cabin. At about the same time, a 
maintenance manager in the cockpit observed the automatic shut down of 
the auxiliary power unit (APU), which was providing power to the 
aircraft at the time. A mechanic opened the rear electronic equipment 
bay, which is only accessible from outside the aircraft, and reported 
finding heavy smoke in the compartment and flames coming from the front 
of the APU battery case which housed a lithium ion battery. Airport 
firefighters were called to the plane and worked to contain the heat 
generated by the battery for 1 hour and 40 minutes.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 1. Smoke emanating from the aft electronic equipment bay. 
Source: Boston Herald.

    As indicated above, fire safety was placed on the NTSB's Most 
Wanted List of transportation safety improvements in November 2012. For 
that reason, among others, the NTSB responded to the JAL event by 
sending investigators to evaluate the aircraft in Boston. About a week 
later, a similar event occurred while an All Nippon Airways 787 was in 
flight over Japan. The NTSB is investigating the JAL event and the 
Japan Transport Safety Board (JTSB) is investigating the ANA event, 
however both agencies are cooperating and sharing investigative 
information.
    The lithium ion battery is comprised of 8 cells, and the nominal 
charge of each cell is 3.7 volts. Flight data recorder data show that 
about 36 seconds before the APU shut down, the voltage began to 
fluctuate and dropped from a full charge of 32 volts to 28 volts 7 
seconds before the shutdown.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 2. 787 Exemplar battery.

    In the JAL event, each of the 8 cells experienced some thermal 
damage, and investigators believe there were multiple short circuits in 
battery cell 6 that started a thermal runaway that progressed 
throughout the battery. The side of the battery where cell 6 is located 
had the most extensive damage. All 8 cells have vent discs, which 
rupture when the internal pressure in a cell increases to a 
predetermined level. Seven of the eight discs ruptured, and the cell 
with the unopened vent disc lost electrolyte liquid.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 3. Damaged APU battery highlighting cell 6, the source of 
the short circuit.

    In its notice of proposed Special Conditions for the Boeing 787 
airplane issued in 2007, the FAA indicated that large, high capacity, 
rechargeable lithium ion batteries were a novel or unusual design 
feature in transport category airplanes. The FAA noted that this type 
of battery has certain failure, operational, and maintenance 
characteristics that differ from those of the nickel-cadmium and lead-
acid rechargeable batteries approved at that time for installation on 
large transport category airplanes. As such, the FAA approved the use 
of these batteries by issuing nine special conditions to provide a 
level of safety equivalent to existing airworthiness regulations. 
Boeing performed a series of tests to demonstrate that the battery 
complied with the conditions and would not pose a higher safety risk. 
It was determined that the probability of a smoke event was once in 
every 10 million flight hours. However, as of January 16, 2013, when 
the FAA issued its airworthiness directive grounding the 787 fleet, the 
fleet had accumulated less than 52,000 in-service flight hours and had 
two smoke events involving its lithium ion batteries.
    The NTSB continues to devote significant resources to its 
investigation of the Boston incident. We continue to serve as the 
accredited representative to the JTSB investigation of the January 15, 
787 battery incident in Japan. Recently, NTSB has tested exemplar 
batteries and cells. Also, investigators travelled to the battery 
manufacturer to observe the manufacturing process and interview 
personnel, and staff has met with Thales Avionics Electrical System of 
France, the company with which Boeing contracted to design and 
manufacture the 787 electrical power conversion subsystem.
    Last week, the NTSB held a public forum on lithium ion batteries in 
transportation. We learned that lithium ion batteries are becoming more 
prevalent in the various transportation modes, national defense, and 
space exploration. Panelists stated that because of their high energy 
density and light weight, these batteries are natural choices for 
energy. These benefits, however, also are the source of safety risks. 
We also heard about manufacturing auditing, robust testing, and 
monitoring and protection mechanisms to prevent a catastrophic event. 
Next week, we will hold an investigative hearing on the design, 
certification, and manufacturing process for the 787 lithium ion 
battery system. We will continue to provide factual updates as our 
investigation of the Boeing 787 battery fire incident proceeds.
Airport Surface Operations
    While we have seen a reduction in airborne accidents, surface 
operations remain problematic, and this is the reason that Airport 
Surface Operations is on the NTSB's Most Wanted List. Safety of Airport 
Surface Operations includes runway incursions, runway excursions, 
runway confusion, and collisions with other aircraft and/or airport 
vehicles.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 4. Southwest Airlines Flight 1248, Runway excursion and 
collision during landing at Chicago, Midway International Airport, 
December 8, 2005.

    The NTSB has over 20 open safety recommendations to the FAA 
addressing airport surface safety, including 6 that we have classified 
as ``Open-Unacceptable Response.'' These recommendations are as recent 
as September 2012 as well as dating back to 2000 and address a myriad 
of subjects that include ground safety movement systems for flight 
crews, wing tip clearance safety systems, enhanced wind dissemination 
information to flight crews, and pre-landing distance assessments.
General Aviation Safety
    As I stated earlier, the U.S. commercial aviation system is 
experiencing an unprecedented level of safety. General aviation (GA) 
fatality rates have shown little movement in spite of efforts to 
improve safety. There have been about 1,500 GA accidents per year for 
the past decade. Although GA represents about 51 percent of the 
estimated total flight time of all U.S. civil aviation, it accounted 
for 97 percent of fatal accidents in 2010.\1\ The NTSB determines the 
probable cause of all 1,500 of these accidents, and one thing we have 
learned is that unfortunately, the same factors continue to cause most 
of the accidents.
---------------------------------------------------------------------------
    \1\ http://www.ntsb.gov/doclib/reports/2012/ARA1201.pdf
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Figure 5. Sioux Falls, SD general aviation accident, December 9, 
---------------------------------------------------------------------------
2011.

    The leading causes of GA accidents are loss of control, engine 
failure, flying in conditions that are beyond the pilot or aircraft's 
abilities, and collision with terrain. GA is essentially an airline or 
maintenance operation of one, which means the entire aviation community 
must work harder to reach each pilot or mechanic who populates this 
community to address these issues and ensure this deadly cycle is 
broken. GA Safety is on the NTSB's Most Wanted List for the second year 
in a row in order to bring attention to the issue.
    Within the last year, the Board has issued a number of safety 
alerts as a way to reach the GA community to highlight many of these 
high risk issue areas. For example, to address the risks associated 
with flight into severe weather, the NTSB issued a safety alert to 
raise awareness in the GA community about the latency of NEXRAD weather 
images; that the age of the actual data used to generate the weather 
images on the display could differ significantly from the age indicated 
on the display screen. Just last week, we held a Board meeting to 
discuss GA safety and issued 5 new safety alerts, which are included 
with my testimony. The NTSB's purpose in issuing these safety alerts is 
to increase awareness, education, and training for private pilots and 
aviation maintenance technicians. The alerts are brief information 
bulletins that pinpoint particular safety hazards and offer practical 
remedies to address these risks. They will also serve to focus the 
NTSB's GA outreach efforts during the coming year. The specific alerts 
are:

        ``Reduced Visual References Require Vigilance''

        ``Prevent Aerodynamic Stalls at Low Altitude''

        ``Is Your Aircraft Talking to you? Listen!''

        ``Mechanics: Manage Risks to Ensure Safety''

        ``Pilots: Manage Risks to Ensure Safety''

    Additionally, over the past several years, the NTSB has conducted 
several GA safety studies. In 2012, we examined experimental aircraft, 
which represents about 10 percent of the GA fleet but represent a 
higher proportion of GA accidents. The NTSB recommended expansion of 
documentation requirements for initial aircraft airworthiness 
certification, verification of the completion of Phase I flight 
testing, improvement of pilots' access to transition training, 
encouragement of the use of recorded data during flight testing, 
ensuring that buyers of used experimental aircraft receive necessary 
operating and performance documentation, and improvement of aircraft 
identification in registry records. In a study of airbag restraints in 
GA aircraft, the NTSB concluded that aviation airbags can mitigate 
occupant injuries in some severe but survivable crashes. In 2010, the 
NTSB looked at ``glass cockpits'' in GA, which are the newer electronic 
displays in some planes. The results of this study suggest that the 
introduction of glass cockpits has not yet resulted in a measurable 
improvement in safety when compared to similar aircraft with 
conventional instruments. There is a need to ensure pilots have system 
specific knowledge to safety operate aircraft with glass cockpit 
avionics and to capture maintenance and operational information to 
assess the reliability of glass cockpit avionics.
    We will continue our efforts to improve the safety record of 
general aviation and look forward to finding new and innovative ways to 
communicate this message to more pilots and mechanics.
Helicopter Emergency Medical Service (HEMS)
    Helicopter EMS operations provide an important service to the 
public by transporting seriously ill patients or donor organs to 
emergency care facilities. The pressure to safely and quickly conduct 
these operations in various environmental conditions (for example, 
inclement weather, at night, and unfamiliar landing sites for 
helicopter operations) has the potential to create more risk for HEMS 
than other passenger operations.
    The NTSB has issued more than 20 safety recommendations during the 
past 13 years to the FAA to improve the safety of these operations and 
conducted a 4-day public hearing on HEMS safety in February 2009. In 
2010, the FAA issued a notice of proposed rulemaking (NPRM) to address 
many of the NTSB's recommendations, such as the carriage of safety 
related equipment, flight data recorders, operational requirements, 
better weather monitoring and reporting, development and implementation 
of safety management systems and flight-risk evaluation programs, 
including training, and amendments to load manifest requirements for 
single-engine Part 135 operations.
    Section 306(a) of the FAA Modernization and Reform Act of 2012 
(Pub. L. 112-95) required the FAA to complete this rulemaking by June 1 
of last year. Unfortunately, that rulemaking has stalled.
    Last week, on April 9, the NTSB held a Sunshine Act public meeting 
to discuss the crash of an EMS helicopter on August 26, 2011, near 
Mosby, Missouri that resulted in the deaths of the pilot, flight nurse, 
flight paramedic, and the patient. The NTSB determined that the 
probable causes of this accident were the pilot's failure to confirm 
that the helicopter had adequate fuel onboard to complete the mission 
before departing on the mission's first leg, his improper decision to 
continue the mission and make a second departure after he became aware 
of a critically low fuel level, and his failure to successfully enter 
an autorotation when the engine lost power due to fuel exhaustion. 
Contributing to the accident were (1) the pilot's distracted attention 
due to personal texting during safety-critical ground and flight 
operations, (2) his degraded performance due to fatigue, (3) the 
operator's lack of a policy requiring that an operational control 
center specialist be notified of abnormal fuel situations, and (4) the 
lack of practice representative of an actual engine failure at cruise 
airspeed in the pilot's autorotation training in the accident make and 
model helicopter.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 6. HEMS accident in Mosby, MO, August 26, 2011.

    Currently, the NTSB is investigating 12 HEMS accidents, including 6 
that have occurred since December. We see the same problems in our 
accident investigations and believe that if the following 
recommendations are incorporated in to HEMS operations, they will be 
safer.

  <bullet> Operate under Part 135 rules

  <bullet> Establish Operations Control Centers (OCC)

  <bullet> Perform recurrent training and testing of OCC personnel

  <bullet> Improve HEMS pilot training

  <bullet> Perform more stringent weather evaluations

  <bullet> Require flight risk evaluation programs

  <bullet> Install safety equipment on HEMS helicopters (terrain 
        awareness and warning systems, night vision imaging equipment, 
        autopilots, recorders, radio altimeters, 406 MHz emergency 
        locator transmitter, water safety equipment)

  <bullet> Receive regular instrument flight training

  <bullet> Establishment of Safety Management Systems for HEMS 
        operators

  <bullet> Better airspace infrastructure for low altitude helicopter 
        operations
Pilot Training and Distraction
    The last U.S. commercial aviation accident occurred on February 12, 
2009, while Colgan Air flight 3407 crashed on approach to the Buffalo 
Niagara International Airport in Buffalo, NY. As a result of that 
accident investigation, the NTSB made pilot training recommendations, 
some of which Congress included in the Airline Safety and Federal 
Aviation Administration Extension Act of 2010 (Pub. L. 111-216). The 
NTSB called for crew training requirements, establishment of mentoring 
and professionalism programs, and a pilots' records database. In the 
Colgan Air flight 3407 accident investigation, we found that industry 
changes--including two-pilot cockpits and the advent of regional 
carriers-had resulted in opportunities for pilots to upgrade to captain 
without having accumulated significant experience as a first officer in 
a Part 121 operation. Without these important opportunities for 
mentoring and observational learning, which characterize time spent in 
journeyman pilot positions, it was difficult for a pilot to acquire 
effective leadership skills to manage a multicrew airplane.
    Also as a result of the NTSB's investigation of both Northwest 
Flight 188 that overflew their destination of Minneapolis because they 
were distracted by their laptops and the Colgan Air Flight 3407, we 
issued a safety recommendation to the FAA to amend the Federal Aviation 
Regulations to require Part 121, 135, and 91 subpart K operators to 
incorporate explicit guidance to pilots prohibiting the use of personal 
portable electronic devices on the flight deck. The Congress mandated 
that the FAA promulgate a rule which would prohibit the use of personal 
wireless communications devices and laptop computers by flight 
crewmembers during all phases of flight in Part 121 operations. The FAA 
is required by the statute to issue a final rule implementing the 
prohibition no later than February 2014. I would note that the FAA 
issued an NPRM for this requirement this past January. The NTSB 
recently submitted comments to the docket in support of the proposed 
rule but recommended that the final rule incorporate the broader scope 
of its February 2010 safety recommendation by expanding the proposed 
rule to Part 135 and 91 subpart K operators.
Flight and Duty Time
    For more than 20 years, the issue of reducing accidents caused by 
fatigue was on the NTSB's Most Wanted List of safety improvements. We 
removed fatigue from our Most Wanted List in November 2012 to 
acknowledge the new flight and duty time rules enacted by the FAA. For 
the first time, the new rule recognizes the universal factors that lead 
to human fatigue such as time of day, length of duty day, workload, 
whether an individual is acclimated to a new time zone and the 
likelihood of being able to sleep under different circumstances. 
However, we remain concerned that the new rule does not apply to cargo 
pilots. Fatigue is fatigue, whether you transport passengers or 
pallets; it degrades every aspect of human capability. Another fatigue 
issue not addressed by the new rules is pilot commuting; a concern 
identified in the Colgan Air accident.
    We have seen the effects of fatigue in too many of our accident 
investigations. We will continue working toward one level of safety 
throughout the industry.
Aviation Safety Information Analysis and Sharing (ASIAS) System
    Aviation has experienced great improvements in safety due in part 
to embracing and understanding data. As I have pointed out in speeches 
over the past several years, ``data saves lives . . . and, in this era 
of dynamic growth and greater complexity, data is more important than 
ever.'' Also, data collection, analysis, and dissemination are 
important international aviation safety issues. For example, the Safety 
Information Protection Task Force of the International Civil Aviation 
Organization (ICAO) has been looking at the various sources of safety 
information, the diverse requirements of member states regarding public 
transparency and personal privacy, and the different civil and criminal 
justice systems. The willingness of the FAA and the aviation industry 
to share data with the NTSB will have a direct positive effect on 
aviation safety and is consistent with a provision in the FAA 
Modernization and Reform Act of 2012 concerning public disclosure of 
aggregate, de-identified aviation safety information.
    As a result of almost two years of discussions, the NTSB and the 
FAA and industry ASIAS Executive Board Co-Chairs signed a Memorandum of 
Understanding last November that outlines the procedures, guidelines, 
and roles and responsibilities for the ASIAS Executive Board to address 
specific written NTSB requests for ASIAS information.\2\ The NTSB will 
initiate written requests for ASIAS information related to aircraft 
accidents involving U.S. air carriers that occur in the United States 
and address safety issues that both the NTSB and the ASIAS board 
determine are significant. The NTSB will not publicly disclose ASIAS 
information it receives via the process unless the ASIAS Executive 
Board agrees. In addition, the MOU requires the NTSB to share with 
ASIAS its archived air carrier accident and incident flight data 
recorder information related to a request.
---------------------------------------------------------------------------
    \2\ ASIAS began in 2007 and now has 44 airline members and receives 
voluntary data representing 95 percent of all commercial air carrier 
operations. It connects 131 data and information sources across the 
industry and is integrated into the Commercial Aviation Safety Team 
(CAST) process. CAST is a joint government and industry effort that 
uses a data-driven strategy to reduce the risk of commercial aviation 
fatalities. ASIAS uses aggregate, protected data from industry and 
government voluntary reporting programs, without identifying the source 
of the data, to proactively determine safety issues, identify safety 
enhancements, and measure the effectiveness of solutions. ASIAS is 
managed by an Executive Board and consists of representatives of 
various FAA offices, the National Aeronautics and Space Administration, 
U.S. military safety organizations (the latest membership summary shows 
USAF Safety Center and Naval Air Force Atlantic as government 
participants), commercial airlines, manufacturers, and labor 
organizations.
---------------------------------------------------------------------------
Closing
    I appreciate the opportunity to appear before you today to discuss 
aviation safety and I am prepared to answer your questions.

    The Chairman. Thank you very much, Chairwoman Hersman.
    And now, Dr. Gerald Dillingham, Director of Civil Aviation 
Issues, U.S. Government Accountability Office.

      STATEMENT OF GERALD L. DILLINGHAM, Ph.D., DIRECTOR,

        PHYSICAL INFRASTRUCTURE ISSUES, U.S. GOVERNMENT

                     ACCOUNTABILITY OFFICE

    Dr. Dillingham. Thank you, Chairman Rockefeller, Ranking 
Member Thune, and members of the Committee.
    First, I would also like to acknowledge that we are in the 
safest period of the modern aviation era. This outstanding 
achievement is attributable to the dedicated and skilled men 
and women at FAA working together with other key stakeholders, 
including manufacturers, operators, and the oversight of the 
Congress.
    To build on this historic record, FAA is moving toward a 
greater reliance on proactive risk-based safety approach, with 
less reliance on a reactive or after-the-accident analysis of 
events. This afternoon, my statement focuses on the progress 
and challenges that FAA faces as it makes this shift.
    The first is adapting its certification process to an ever-
evolving aviation industry. And second is the collection and 
analysis of data that is critical for proactive risk 
management.
    With regard to FAA certification processes, from our work 
we've found that, overall, FAA does an excellent job of 
following its processes. However, FAA must continue to address 
longstanding concerns, as well as emerging issues, about its 
certification processes. For example, industry has long 
expressed concerns about the variation in FAA inspectors' and 
designees' interpretation of standards of certification and 
approval decisions. This situation could be exacerbated in the 
future by factors such as the fiscal constraints on the 
government spending and the agency's ability to provide in-
service training and attract the talent necessary to maintain 
up-to-date knowledge of industry changes.
    For example, as aviation technology evolves, FAA will need 
new skills and tools to understand new aircraft or equipment 
during certification. The absence of these skills and tools 
could lead to delays in certification or misinterpretation of a 
regulation or a standard.
    In addition, while FAA has worked to manage the 
certification workload with the use of designees, there have 
been some concern expressed about whether there is adequate 
oversight of the designees, particularly for the new 
Organizational Designation Authorities, or ODAs.
    With regard to FAA's data collection and analysis for risk-
management purposes, our studies have identified a number of 
areas where FAA's risk-based oversight could be improved. For 
example, our research has shown that adequate data about runway 
excursions are not being collected. Runway excursion can be 
just as dangerous as runway incursions. But, without these 
data, FAA cannot assess or mitigate the potential risk.
    Similarly, the lack of complete data for incidents that 
occur in the ramp area, general aviation operations, and the 
inspection of initial pilot training activities limits FAA's 
oversight and ability to target its scarce resources and to 
understand the impact of its efforts to mitigate risk in these 
areas. For example, the rate and number of operational errors 
appears to have increased considerably in recent years. 
However, because of multiple changes in reporting policies and 
processes during that same time period, it makes it very 
difficult to know the extent to which the apparent increase in 
operational errors are due to more accurate reporting, an 
increase in the occurrence of incidents, or both.
    In response to our recommendation, congressional mandates, 
in--on its own volition, FAA has efforts underway, or planned, 
to address each of the areas that I've identified, as well as 
others listed in our written statement.
    I want to emphasize that these efforts will require 
sustained attention and oversight to ensure that the agency's 
ability to comprehensively and accurately assess and manage 
risk is not impaired.
    In closing, Mr. Chairman, I would urge all stakeholders not 
to become complacent with the extraordinary safety record that 
has been achieved to date, and continue to do whatever may be 
necessary to make a safe system even safer.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Dillingham follows:]

Why GAO Did This Study
    Even with nearly 80,000 flights each day within the national 
airspace system, there has not been a fatal commercial aviation 
accident in more than 4 years. The U.S. airspace system is arguably one 
of the safest in the world, with key aviation stakeholders--the FAA, 
airlines, airports, aircraft manufacturers, and the National 
Transportation Safety Board (NTSB)--working together to ensure these 
results.
    As the Federal agency responsible for regulating the safety of 
civil aviation in the United States, FAA is responsible for, among 
other things: setting aircraft certification standards, collecting 
fleet and flight activity data, conducting safety oversight of pilot 
training and general aviation operations, and safely integrating 
aircraft into the national airspace. As the aviation industry evolves, 
FAA must remain diligent in its efforts to ensure the continued safety 
of aviation. In 2010, Congress passed the Airline Safety and Federal 
Aviation Administration Extension Act, which, in part, called for FAA 
to better manage safety risks.
    This testimony focuses on (1) FAA's aircraft certification process 
and (2) FAA's use of data to enhance safety and improve aviation 
oversight. The testimony is based on GAO's previous work and updated 
with industry reports and information provided by FAA officials.
    GAO has previously recommended that FAA address several data 
quality weaknesses. FAA concurred with most of these recommendations 
and has taken steps toward addressing some.
Aviation Safety

  FAA Efforts Have Improved Safety, but Challenges Remain in Key Areas

What GAO Found
    The Federal Aviation Administration (FAA) is responsible for 
approving the design and airworthiness of new aircraft and equipment 
before they are introduced into service. FAA approves changes to 
aircraft and equipment based on evaluation of industry submissions 
against standards set forth in Federal aviation regulations and related 
guidance documents. In September 2011, we reported that, overall, FAA 
did a good job following its certification processes in assessing the 
composite fuselage and wings of Boeing's 787 against its airworthiness 
standards. However, the approval process--referred to as 
certification--presents challenges for FAA in terms of resources and 
maintaining up-to-date knowledge of industry practices, two issues that 
may hinder FAA's efforts to conduct certifications in an efficient and 
timely manner. FAA is currently assessing its certification process and 
identifying opportunities to streamline it.
    FAA plans to continue analyzing data reactively to understand the 
causes of accidents and incidents, and to augment this approach through 
implementation of a safety management system (SMS). SMS is a proactive 
approach that includes continually monitoring all aspects of aviation 
operations and collecting and analyzing appropriate data to identify 
emerging safety problems before they result in death, injury, or 
significant property damage. FAA has put in place various quality 
controls for its data; however, GAO has identified a number of areas 
where FAA does not have comprehensive risk-based data or methods of 
reporting that capture all incidents. The following are among the key 
areas GAO identified as needing improved data collection and analysis.

  <bullet> Runway and ramp safety. Additional information about surface 
        incidents could help improve safety in the airport terminal 
        area, as data collection is currently limited to certain types 
        of incidents, notably runway incursions, which involve the 
        incorrect presence of an aircraft, vehicle, or person on a 
        runway and certain airborne incidents, and does not include 
        runway overruns, which occur when an aircraft veers off a 
        runway or incidents in ramp areas, which can involve aircraft 
        and airport vehicles.

  <bullet> Airborne operational errors. FAA's metric for airborne 
        losses of separation--a type of operational error--is too 
        narrow to account for all potential risk.

  <bullet> General aviation. FAA estimates of annual flight hours for 
        the general aviation sector, which includes all forms of 
        aviation except commercial and military, may not be reliable.

  <bullet> Pilot training. FAA does not have a comprehensive system in 
        place to measure its performance in meeting its annual pilot 
        school inspection requirements.

    FAA has taken steps to address safety oversight issues and data 
challenges in many of these areas. For example, FAA is planning to 
develop a program to collect and analyze data on runway overruns, but 
it will be several years before FAA has obtained enough information 
about these incidents to assess risks. Sustained attention to these 
data collection and analysis issues will be necessary to ensure that 
FAA can more comprehensively and accurately assess and manage risk.
                                 ______
                                 
 Prepared Statement of Gerald L. Dillingham, Ph.D. Director, Physical 
      Infrastructure Issues, U.S. Government Accountability Office
    Chairman Rockefeller, Ranking Member Thune, and Members of the 
Committee:

    I appreciate the opportunity to testify today on the Federal 
Aviation Administration's (FAA) efforts to oversee aviation safety. 
Even with nearly 80,000 flights each day within the national airspace 
system (NAS), there has not been a fatal commercial aviation accident 
in more than 4 years, and although hundreds of fatalities continue to 
occur each year in general aviation,\1\ the number of overall general 
aviation accidents has trended downward. The U.S. airspace system is 
arguably one of the safest in the world, with key aviation 
stakeholders--FAA, the airlines and other aircraft operators, airports, 
aircraft manufacturers, and the National Transportation Safety Board 
(NTSB)--working together to achieve these results. Nevertheless, we 
must not become complacent because of the extraordinary safety record 
that has been achieved to date. Congress, FAA, and other stakeholders 
must remain diligent in their oversight of aviation safety.
---------------------------------------------------------------------------
    \1\ General aviation includes all forms of aviation except 
scheduled air carriers and military.
---------------------------------------------------------------------------
    As the Federal agency responsible for regulating the safety of 
civil aviation in the United States, FAA is responsible for, among 
other things, setting aircraft certification standards and ensuring 
that manufacturers and suppliers meet those standards, collecting fleet 
and flight activity data, conducting safety oversight of pilot training 
and general aviation operations, and safely integrating aircraft and 
equipment into the national airspace. With air travel projected to 
increase over the next 20 years and agencies governmentwide 
experiencing budget reductions as part of the 2013 sequestration, it 
will be critical for FAA to apply its limited resources in a manner 
that will allow it to maintain and enhance the safety of the NAS. In 
2010, Congress passed the Airline Safety and Federal Aviation 
Administration Extension Act (Airline Safety Act),\2\ which, in part, 
called for FAA to better manage safety risks. While FAA and other 
stakeholders continue to address safety concerns in a reactive fashion 
by analyzing and investigating accidents and incidents, they have also 
begun to address safety issues in a more proactive fashion--before 
accidents or incidents occur. This proactive approach involves 
identifying, analyzing, and managing safety risks that are inherent 
throughout the system, and is being undertaken by FAA as part of its 
implementation of safety management systems (SMS). This risk-based 
oversight approach is becoming the standard throughout the global 
aviation industry and is recognized by aviation leaders, such as the 
International Civil Aviation Organization (ICAO), as the next step in 
the evolution of safety. In addition to SMS, FAA's certification 
process attempts to ensure that safety is built into the aircraft and 
equipment used in the NAS.\3\ While the agency has taken steps to 
improve its oversight approach, challenges remain in key areas.
---------------------------------------------------------------------------
    \2\ Pub. L. No. 111-216, 124 Stat. 2348 (2010).
    \3\ FAA issues certificates for new air operators, new aircraft, 
and aircraft parts and equipment, and approvals, based on the 
evaluation of aviation industry submissions against standards set forth 
in Federal aviation regulations and related FAA guidance documents.
---------------------------------------------------------------------------
    My statement today highlights two areas that are important to FAA's 
safety efforts: the certification process and the collection and 
analysis of risk-based data as part of SMS. This statement is drawn 
from a body of work that we have completed from June 2009 to October 
2012 regarding FAA's safety oversight efforts. We have updated this 
information through a review of FAA documents and interviews with FAA 
officials. A list of related GAO products is included at the end of 
this statement, along with footnoted references to these products 
throughout the statement. The reports and testimonies cited in this 
statement contain more detailed explanations of the methods used to 
conduct our work. This body of work was conducted in accordance with 
generally accepted government auditing standards. Those standards 
require that we plan and perform the audit to obtain sufficient, 
appropriate evidence to provide a reasonable basis for our findings and 
conclusions based on our audit objectives. We believe that the evidence 
obtained provides a reasonable basis for our findings and conclusions 
based on our audit objectives.
Certification is a Key Component of FAA's Aviation Safety Oversight
    Among its responsibilities for aviation safety, FAA issues 
certificates that approve the design and production of new aircraft and 
equipment before they are introduced into service; these certificates 
demonstrate that the aircraft and equipment meet FAA's airworthiness 
requirements. FAA also grants approvals for such things as changes to 
air operations and equipment. Certificates indicate that the aircraft, 
equipment, and new air operators are safe for use or flight in the NAS. 
While industry stakeholders have expressed concerns about variation in 
FAA's interpretation of standards for certification and approval 
decisions, stakeholders and experts that we interviewed for our 2010 
report indicated that serious problems occur infrequently.\4\ In 
addition, in September 2011 we reported that FAA did a good job 
following its certification processes in assessing the composite 
fuselage and wings of Boeing's 787 against its airworthiness 
standards.\5\
---------------------------------------------------------------------------
    \4\ See GAO, Aviation Safety: Certification and Approval Processes 
Are Generally Viewed as Working Well, but Better Evaluative Information 
Needed to Improve Efficiency, GAO-11-14 (Washington, D.C.: October 7, 
2010).
    \5\ See GAO, Aviation Safety: Status of Action to Oversee the 
Safety of Composite Airplanes, GAO-11-849 (Washington, D.C.: September 
21, 2011).
---------------------------------------------------------------------------
    The certification process also provides an example of how FAA is 
attempting to use a more proactive approach in finding solutions to a 
potential problem. In the case of flammability regulations that govern 
transport type aircraft, FAA has primarily developed its regulations on 
a reactive basis. That is, as accidents and incidents have occurred, 
their causes have been investigated, and the findings used to develop 
regulations designed to prevent the future occurrence of similar 
incidents or accidents. To supplement this oversight method, FAA has 
proposed a new, threat-based approach for flammability regulations that 
will base the flammability performance for different parts of the 
aircraft upon realistic threats that could occur in-flight or in a 
post-crash environment.
    FAA recognizes the value of certification as a safety tool, however 
the agency faces some significant challenges, including resources and 
maintaining up-to-date knowledge of industry changes. According to a 
report from the Aircraft Certification Process Review and Reform 
Aviation Rulemaking Committee,\6\ these certification challenges will 
become increasingly difficult to overcome, as industry activity is 
expected to continue growing and government spending for certification 
resources remains relatively flat. As one means of responding to its 
certification workload, FAA relies on designees,\7\ however, our prior 
work has shown that there are concerns that designee oversight is 
lacking, particularly with the new organizational designation 
authorities in which companies rather than individuals are granted 
designee status. There are also concerns that, when faced with 
certification of new aircraft or equipment, FAA staff have not been 
able to keep pace with industry changes and, thus, may struggle to 
understand the aircraft or equipment they are tasked with 
certificating.\8\ SMS implementation within FAA should reduce 
certification delays and increase available resources to facilitate the 
introduction of advanced technologies. In response to a provision in 
the 2012 FAA Reauthorization, FAA is assessing the certification 
process and identifying opportunities to streamline the process.
---------------------------------------------------------------------------
    \6\ ``A Report from the Aircraft Certification Process Review and 
Reform Aviation Rulemaking Committee to the Federal Aviation 
Administration: Recommendations on the Assessment of the Certification 
and Approval Process,'' May 22, 2012.
    \7\ FAA delegates many certification activities to FAA-approved 
individuals and organizations (called designees) to better leverage its 
resources. FAA's designees perform more than 90 percent of FAA's 
certification activities.
    \8\ GAO-11-849.
---------------------------------------------------------------------------
Better Quality and More Complete Data Could Help FAA Further Improve 
        Safety Oversight
    As we stated above, FAA plans to continue using data reactively to 
understand the causes of accidents and incidents, and is implementing a 
proactive approach--called an SMS approach--in which it analyzes data 
to identify and mitigate risks before they result in accidents. FAA is 
also overseeing SMS implementation throughout the aviation industry.\9\ 
Safety management systems are intended to continually monitor all 
aspects of aviation operations and collect appropriate data to identify 
emerging safety problems before they result in death, injury, or 
significant property damage. Under SMS, which FAA began implementing in 
2005, the agency will analyze the aviation safety data it collects to 
identify conditions that could lead to aviation accidents or incidents 
and to address such conditions through changes to FAA's organization, 
processes, management, and culture. As we reported in September 2012, 
according to FAA, the overarching goal of SMS is to improve safety by 
helping ensure that the outcomes of any management or system activity 
incorporate informed, risk-based decision making. FAA's business lines, 
such as the Air Traffic Organization and the Aviation Safety 
Organization, are currently at different stages of SMS implementation 
and it is likely that full SMS implementation will take many more 
years.\10\
---------------------------------------------------------------------------
    \9\ FAA is undertaking the transition to SMS in coordination with 
the international aviation community, working with the ICAO, an agency 
of the United Nations that promotes the safe and orderly development of 
international civil aviation worldwide, to adopt applicable global 
standards for safety management. ICAO requires SMS for the management 
of safety risk in air operations, maintenance organization, air traffic 
services, and airports as well as certain flight training operations 
and for organizations that design or manufacture aircraft within its 
member states.
    \10\ See GAO, Aviation Safety: Additional FAA Efforts Could Enhance 
Safety Risk Management, GAO-12-898 (Washington D.C.: September 21, 
2012).
---------------------------------------------------------------------------
    SMS relies heavily on data analysis and, while FAA has put in place 
various data quality controls, it continues to experience data 
challenges including limitations with some of its analyses and 
limitations to or the absence of data in some areas.\11\ Data 
limitations and the lack of data may inhibit FAA's ability to manage 
safety risks. For example, we found that some FAA data used in risk 
assessments may not be complete, meaningful, or available to decision 
makers. We have also reported that the agency currently does not have 
comprehensive risk-based data, sophisticated databases to perform 
queries and model data, methods of reporting that capture all 
incidents, or a level of coordination that facilitates the comparison 
of incidents across data systems. Furthermore, technologies aimed at 
improving reporting have not been fully implemented.\12\ As a result, 
aviation officials managing risk using SMS have limited access to 
robust FAA incident data. Implementing systems and processes that 
capture accurate and complete data are critical for FAA to determine 
the magnitude of safety issues, assess their potential impacts, 
identify their root causes, and effectively address and mitigate them.
---------------------------------------------------------------------------
    \11\ On November 8, 2012, FAA signed a memorandum of agreement with 
NTSB that will allow for greater sharing of safety data between the two 
organizations.
    \12\ See GAO, Aviation Safety: Enhanced Oversight and Improved 
Availability of Risk-Based Data Could Further Improve Safety, GAO-12-24 
(Washington, D.C.: Oct 5, 2011).
---------------------------------------------------------------------------
    Our recent work on aviation safety and FAA oversight issues has 
identified a number of specific areas where FAA's risk-based oversight 
could be improved through improved data collection and analysis, 
including: runway and ramp safety, airborne operational errors, general 
aviation, pilot training, unmanned aircraft systems, and commercial 
space. FAA has taken steps to address safety oversight issues in many 
of these areas, including making changes to or committing to make 
changes to its data collection practices in response to our 
recommendations in most of these areas. Nonetheless, sustained FAA 
attention will be necessary to ensure that the agency's ability to 
comprehensively and accurately assess and manage risk is not impaired.

  <bullet> Runway and ramp safety. Takeoffs, landings, and movement 
        around the surface areas of airports (the terminal area) are 
        critical to the safe and efficient movement of air traffic. In 
        a June 2011 incident at John F. Kennedy International Airport 
        in New York, for example, a jumbo jet carrying 286 passengers 
        and crew almost collided with another jumbo jet, which 
        reportedly missed a turn and failed to stop where it should 
        have to avoid the occupied runway. Safety in the terminal area 
        could be improved by additional information about surface 
        incidents, which is currently limited to certain types of 
        incidents, notably runway incursions and certain airborne 
        incidents, but does not include runway overruns or incidents in 
        ramp areas. Without a process to track and assess these 
        overruns or ramp area incidents, FAA cannot assess trends in 
        those areas and the risks posed to aircraft or passengers in 
        the terminal area. FAA is planning to develop a program to 
        collect and analyze data on runway overruns, something we 
        recommended in 2011, but it will be several years before FAA 
        has obtained sufficient information about these incidents to be 
        able to assess risks.\13\ FAA still collects no comprehensive 
        data on ramp area incidents and NTSB does not routinely collect 
        data on ramp accidents unless they result in serious injury or 
        substantial aircraft damage. In 2011, we recommended that FAA 
        extend its oversight to ramp safety and FAA concurred.
---------------------------------------------------------------------------
    \13\ GAO-12-24.

  <bullet> Airborne operational errors. Operational errors --also 
        referred to as losses of separation--occur when two aircraft 
        fly closer together than safety standards permit due to an air 
        traffic controller error. We reported that FAA's risk-based 
        process for assessing airborne losses of separation is too 
        narrow to account for all potential risk and changes in how 
        errors are reported affect FAA's ability to identify trends. 
        For example, FAA's current process for analyzing losses of 
        separation assesses only those incidents that occur between two 
        or more radar-tracked aircraft. By excluding incidents such as 
        those that occur between aircraft and terrain or aircraft and 
        protected airspace, FAA is not considering the systemic risks 
        that may be associated with many other airborne incidents. FAA 
        has stated that it is planning to include these incidents in 
        its risk assessment process before the end of 2013, something 
        we recommended in 2011.\14\ In addition, FAA's changes to 
        reporting policies affect its ability to accurately determine 
        safety trends. For instance, we reported in October 2011 that 
        the rate and number of reported airborne operational errors in 
        the terminal area increased considerably since 2007.\15\ 
        However, multiple changes to reporting policies and processes 
        in 2009 and 2010 make it difficult to know the extent to which 
        the recent increases in reported operational errors are due to 
        more accurate data, an actual increase in the occurrence of 
        incidents, or both.
---------------------------------------------------------------------------
    \14\ GAO-12-24.
    \15\ The terminal area is the area around an airport extending from 
the airfield or surface to about 10,000 feet vertically and out to 
about 40 miles in any direction.

  <bullet> General aviation. General aviation is characterized by a 
        diverse fleet of aircraft flown for a variety of purposes. In 
        2010, FAA estimated that there were more than 220,000 aircraft 
        in the active general aviation fleet, comprising more than 90 
        percent of the U.S. civil aircraft fleet. The number of 
        nonfatal and fatal general aviation accidents decreased from 
        1999 through 2011; however, more than 200 fatal accidents 
        occurred in each of those years. In October 2012, we reported 
        that general aviation flight activity data limitations impede 
        FAA's ability to assess general aviation safety and thereby 
        target risk mitigation efforts.\16\ For example, FAA estimates 
        of annual general aviation flight hours may not be reliable 
        because of methodological and conceptual limitations with the 
        survey upon which flight activity estimates are based. These 
        limitations include survey response rates below 50 percent. 
        Without more comprehensive reporting of general aviation flight 
        activity, such as requiring the reporting of flight hours at 
        certain intervals, FAA lacks assurance that it is basing its 
        policy decisions on an accurate measure of general aviation 
        trends, and NTSB lacks assurance that its calculations of 
        accident and fatality rates accurately represent the state of 
        general aviation safety.
---------------------------------------------------------------------------
    \16\ See GAO, General Aviation Safety: Additional FAA Efforts Could 
Help Identify and Mitigate Safety Risks, GAO-13-36 (Washington, D.C.: 
October 4, 2012).

    Lack of comprehensive flight hour data is an issue we have also 
        identified in other segments of the aviation industry, 
        including helicopter emergency medical services (HEMS) and air 
        cargo transportation. We recommended in 2007 and 2009 
        respectively that FAA take action to collect comprehensive and 
        accurate data for HEMS and general aviation operations.\17\ In 
        2011, we confirmed that FAA now annually surveys all helicopter 
        operators and requests, among other things, information on the 
        total flying hours and the percentage of hours that were flown 
        in air ambulance operations. Our recommendations to FAA for air 
        cargo and general aviation data remain unaddressed.
---------------------------------------------------------------------------
    \17\ See GAO, Aviation Safety: Better Data and Targeted FAA Efforts 
Needed to Identify and Address Safety Issues of Small Air Cargo 
Carriers, GAO-09-614 (Washington, D.C.: June 24, 2009); GAO, Aviation 
Safety: Improved Data Collection Needed for Effective Oversight of Air 
Ambulance Industry, GAO-07-353 (Washington, D.C.: February 21, 2007); 
and GAO-13-36.

    FAA's ability to further reduce the number of fatal general 
        aviation accidents is hindered by a lack of key data on pilots. 
        For instance, we reported in October 2012 that FAA does not 
        maintain certain key information about general aviation pilots, 
        including how many are actively flying each year and whether 
        they participate in recurrent training in addition to FAA's 
        voluntary training program. Without this information, FAA 
        cannot determine the potential effect of the various sources 
        and types of training on pilot behavior, competence, and link 
        this to the likelihood of an accident. The lack of pilot data 
        also makes it difficult to identify the root causes of 
        accidents attributed to pilot error and determine how to 
        mitigate risks. We recommended in 2012 that FAA expand the data 
        available for root cause analyses of general aviation accidents 
        by collecting and maintaining data on each certificated pilot's 
        recurrent training and also that FAA should require the 
        collection of general aviation flight hours.\18\ FAA partially 
        concurred with both of these recommendations and stated that it 
        anticipates addressing these and other data collection concerns 
        by September 30, 2014.
---------------------------------------------------------------------------
    \18\ GAO-13-36.

  <bullet> Pilot training. There are about 3,400 pilot training 
        organizations in the United States. For the most part, all 
        pilot schools must provide training that includes both 
        classroom and flight training. FAA has an annual inspection 
        program that includes the oversight of pilot schools, pilot 
        examiners, and flight instructors--gatekeepers for the initial 
        pilot training process. Our 2011 analysis of FAA data indicated 
        that FAA completed the large majority of the required 
        inspections for the pilot schools that are certified by FAA, 
        which generally supply most of the pilots that fly for 
        scheduled commercial airlines.\19\ However, the extent to which 
        FAA undertakes required inspections for the thousands of 
        remaining pilot training organizations, which may provide 
        training to recreational pilots, is unclear. Our 2011 analysis 
        of FAA inspection data found that, while FAA requires its 
        inspectors to conduct on-site inspections of each of these 
        schools and their pilot examiners at least once per year, the 
        agency does not have a comprehensive system in place to 
        adequately measure its performance in meeting its annual 
        inspection requirements. Without complete data on active pilot 
        schools and pilot examiners, it is difficult to ensure that 
        regulatory compliance and safety standards are being met. In 
        addition, it is unclear whether required inspections for pilot 
        examiners were completed because FAA's data system lacks 
        historical information. One potential implication is the 
        quality of training that recreational pilot candidates receive, 
        which could contribute to the many general aviation accidents 
        in which pilot error is cited as a contributing factor.\20\ In 
        2011, we recommended that FAA develop a comprehensive system to 
        measure performance of pilot school inspections and noted that 
        this recommendation may require modifying or improving existing 
        data systems. In responding to our recommendation, FAA 
        officials said they agreed that improvements in oversight data 
        were needed and indicated that they believe efforts already in 
        existence or under way address our recommendations.
---------------------------------------------------------------------------
    \19\ See GAO, Initial Pilot Training: Better Management Controls 
Are Needed to Improve FAA Oversight, GAO-12-117 (Washington, D.C.: 
November 4, 2011).
    \20\ According to our 2012 analysis of NTSB data, the pilot was a 
cause in more than 60 percent of the general aviation accidents from 
2008 through 2010.

  <bullet> Unmanned aircraft systems (UAS). FAA and the National 
        Aeronautics and Space Administration (NASA) are taking steps to 
        ensure the reliability of both small and large UAS by working 
        on certification standards specific to UAS and undertaking 
        research and development efforts to mitigate obstacles to the 
        safe and routine integration of UAS into the national airspace. 
        Some of these obstacles include vulnerabilities in UAS 
        operation that will require technical solutions.\21\ However, 
        we found that these research and development efforts related to 
        overcoming these obstacles cannot be completed and validated 
        without safety, reliability, and performance standards for UAS 
        operations, which FAA has not developed due to data 
        limitations.\22\ Standards for UAS operations are a key step in 
        the process of safely integrating regular UAS operations into 
        the national airspace.\23\ Once standards are developed, FAA 
        has indicated that it will begin to use them in UAS 
        regulations; until then, UAS will continue to operate as 
        exceptions to the regulatory framework rather than being 
        governed by it.
---------------------------------------------------------------------------
    \21\ These obstacles include the inability for UAS to sense and 
avoid other aircraft and airborne objects in a manner similar to manned 
aircraft and vulnerabilities in the command and control of UAS 
operations.
    \22\ See GAO, Unmanned Aircraft Systems: Measuring Progress and 
Addressing Potential Privacy Concerns Would Facilitate Integration Into 
the National Airspace System, GAO-12-891 (Washington, D.C.: September 
14, 2012).
    \23\ FAA is required to issue a final rule for small UAS by August 
of 2014 at the latest under the FAA Modernization and Reform Act of 
2012, Pub. L. No. 112-95, Sec. 332(b) (2012).

  <bullet> Commercial space. FAA also oversees the safety of commercial 
        space launches that can carry cargo and eventually humans into 
        space. FAA is responsible for licensing and monitoring the 
        safety of such launches and of spaceports (sites for launching 
        spacecraft).\24\ However, FAA is prohibited by statute from 
        regulating commercial space crew and passenger safety before 
        2015 except in response to a serious injury or fatality or an 
        event that poses a high risk of causing a serious injury or 
        fatality.\25\ FAA has interpreted this limited authority as 
        allowing it to regulate crew safety in certain circumstances 
        and has been proactive in issuing a regulation concerning 
        emergency training for crews and passengers. However, FAA has 
        not identified data that would allow it to monitor the safety 
        of the developing space tourism sector and determine when to 
        regulate human space flight. To allow the agency to be 
        proactive about safety, rather than responding only after a 
        fatality or serious incident occurs, we recommended in 2006 
        that FAA identify and continually monitor indicators of space 
        tourism industry safety that might trigger the need to regulate 
        crew and passenger safety before 2015 and use it to determine 
        if the regulations should be revised.\26\ According to agency 
        officials, FAA is working with its industry advisory group, the 
        Commercial Space Transportation Advisory Committee, to develop 
        guidelines for human spaceflight.
---------------------------------------------------------------------------
    \24\ The National Aeronautics and Space Administration expects to 
procure from private launch companies two manned launches per year to 
the International Space Station from 2017 to 2020. To date, FAA has not 
licensed any commercial space launches carrying humans.
    \25\ Sec. 827, Pub. L. No. 112-95.
    \26\ See GAO, Commercial Space Launches: FAA Needs Continued 
Planning and Monitoring to Oversee the Safety of the Emerging Space 
Tourism Industry, GAO-07-16 (Washington, D.C.: October 2006).
---------------------------------------------------------------------------
    Chairman Rockefeller, Ranking Member Thune, and Members of the 
Committee, this concludes my written statement. I would be pleased to 
answer any questions that you may have at this time.

    The Chairman. Thank you very much, Dr. Dillingham.
    And now, Mr. Jeffrey Guzzetti, Assistant Inspector General, 
Office of the Inspector General, United States Department of 
Transportation.

     STATEMENT OF JEFFREY B. GUZZETTI, ASSISTANT INSPECTOR

           GENERAL, OFFICE OF THE INSPECTOR GENERAL,

               U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Guzzetti. Chairman Rockefeller, Ranking Member Thune, 
and members of the Committee, thank you for inviting me to 
testify on FAA's safety oversight efforts.
    Like the other witnesses have just indicated, FAA operates 
the world's safest air transportation system. However, our 
audit work continues to identify opportunities for FAA to 
improve safety.
    My testimony today is going to focus on three areas: One, 
the need for improved air traffic safety data collection and 
use; the need to strengthen risk-based oversight; and last, 
progress and challenges with implementing mandated safety 
requirements.
    First, FAA has recently taken steps to enhance the data 
collection on air traffic safety risks, including controller 
and pilot errors that result in separation losses between 
aircraft. However, better data collection and analysis are 
needed before the agency can establish an accurate baseline of 
errors, identify the trends and root causes of those errors, 
and initiate strategies to prevent those errors. For example, 
we found that FAA does not analyze all separation losses that 
are obtained from their automated detection systems. FAA also 
does not validate the losses that are reported through its 
nonpunitive self-reporting system, known as ATSAP. Addressing 
these challenges will become even more critical as FAA 
integrates unmanned aircraft into the airspace system.
    Second, FAA faces challenges to maximize the safety 
inspector resources that it needs to focus its oversight on the 
greatest risks. One challenge is for FAA to overhaul its 
staffing model so that the agency can accurately identify the 
number of inspectors it needs, and determine where they are 
needed most. Currently, their model is unreliable, due to a 
number of shortcomings with the data that it uses.
    FAA also needs to ensure that inspectors are trained and 
equipped with effective tools to perform risk assessments of 
repair stations. In 2007, FAA implemented an oversight system 
to target higher-risk repair stations; however, our recent 
review indicates that inspectors do not always use the risk 
assessment process.
    FAA also needs to ensure strong oversight of its program 
that delegates to private companies the authority to certify 
aircraft and components. Under this program, company 
representatives appoint individuals to perform this 
certification work on FAA's behalf, without FAA's concurrence. 
This delegation of authority reduces FAA's oversight role and 
could diminish the agency's awareness of appointees' 
qualifications and their performance history.
    Finally, FAA has made important progress implementing 
mandated safety initiatives since the tragic Colgan accident. 
This includes advancing air carriers' use of voluntary safety 
programs. For example, as of January 2012, FAA data showed that 
70 percent of Part 121 air carriers participated in at least 
one voluntary safety program, and that figure is rising. 
However, work remains to implement these programs at the 
smaller carriers. For example, only 12 percent of the carriers 
with fewer than 15 aircraft have flight data recording programs 
that monitor aircraft performance.
    FAA also met an important congressional mandate by issuing 
a rule that imposes stricter rest periods for pilots. However, 
the new regulation does not address pilot commuting, a 
potential contributing factor to fatigue, which we recommended 
FAA thoroughly explore.
    FAA has also encountered delays in issuing rules related to 
pilot qualifications, crew training, and mentoring programs. In 
addition, the agency must overcome obstacles to establish a 
pilot records database so that air carriers will have better 
background information on the pilots that they intend to hire.
    Concerns also remain regarding implementation of safety 
management systems by small carriers, and information sharing 
between codeshare partners.
    In conclusion, we will continue our reviews of FAA 
programs, and work with the FAA and the Department to ensure 
intended safety improvements are realized. While FAA has made 
significant progress in many areas, we remain concerned that 
serious controller errors, runway incursions, and other 
incidents are on the rise. To maintain a safe airspace system, 
FAA must improve its use of safety data, establish effective 
risk-based approaches for oversight, and fully address 
congressional mandates.
    This concludes my statement. I would be happy to address 
any questions you or any other members have.
    [The prepared statement of Mr. Guzzetti follows:]

    Prepared Statement of Jeffrey B. Guzzetti, Assistant Inspector 
     Generalfor Aviation and Special Programs, U.S. Department of 
                             Transportation
    Mr. Chairman and Members of the Committee:

    Thank you for inviting me to testify on the Federal Aviation 
Administration's (FAA) progress on safety oversight initiatives. At the 
outset, let me state unequivocally that FAA operates the world's safest 
air transportation system. In addition, FAA has a number of initiatives 
under way to enhance safety in the National Airspace System (NAS). 
However, new legislated requirements and the need to improve how the 
Agency collects and uses safety data have created significant 
challenges for FAA. Our completed and ongoing work has identified 
opportunities for FAA to improve its safety oversight.
    My testimony today will focus on FAA's (1) need for comprehensive 
data collection and analysis to enhance the safety of air traffic 
operations; (2) need to strengthen its risk-based oversight approach 
for repair stations and manufacturers; and (3) progress and challenges 
with implementing mandated safety requirements.
In Summary
    Through voluntary safety programs such as the Air Traffic Safety 
Analysis Program (ATSAP), FAA has taken important steps to collect 
safety data on air traffic operations, including data on controller and 
pilot errors that create in-flight and ground collision risks. However, 
to accurately identify all safety incidents, analyze trends in safety 
risks, and address their root causes, FAA needs to refine its data 
collection approach by expanding and enhancing the reliability of its 
key data sources. FAA faces similar challenges with establishing an 
effective risk-based oversight system for repair stations and aircraft 
manufacturers. To target its surveillance to the highest-risk areas, 
FAA needs to better determine the number of inspectors it needs and 
where to place them, and ensure risk assessments are performed. 
Finally, despite commendable progress on implementing key elements of 
the Airline Safety and FAA Extension Act of 2010,\1\ FAA continues to 
be challenged with meeting provisions for improved pilot training, 
qualification, and screening requirements, as well as advancing safety 
initiatives at smaller carriers.
---------------------------------------------------------------------------
    \1\ Airline Safety and Federal Aviation Administration Extension 
Act of 2010, Pub. L. No. 111-216, August 1, 2010.
---------------------------------------------------------------------------
A Lack of Integrated Data Collection and Analysis Hinders FAA's Efforts 
        to Enhance Air Traffic Safety
    Over the past several years, FAA has rolled out numerous 
initiatives to enhance the safety of air traffic control operations, 
but significant challenges continue to hinder these efforts. A top 
priority for FAA is to accurately count and identify trends that 
contribute to operational errors--events where controllers do not 
maintain safe separation between aircraft. FAA's ATSAP program--a 
voluntary, non-punitive system through which controllers can report 
safety incidents--has the potential to enhance safety, but system 
improvements are needed before the Agency can realize expected 
benefits. Other priorities that FAA must continue to address are 
controller fatigue, runway incursions,\2\ and wildlife hazards. Two 
significant safety-related challenges also remain: (1) FAA's progress 
in developing a safety data analysis system to proactively identify 
risk, and (2) introducing Unmanned Aircraft Systems (UAS) into U.S. 
airspace.
---------------------------------------------------------------------------
    \2\ FAA defines a runway incursion as any incident involving an 
unauthorized aircraft, vehicle, or person on a runway. Runway 
incursions are classified into three categories: (1) operational errors 
(when the actions of a controller cause an incident); (2) pilot 
deviations (when the actions of a pilot cause an incident); and (3) 
vehicle/pedestrian deviations (when the actions of a vehicle operator 
or pedestrian cause an incident). Serious runway incursions are those 
in which a collision was barely avoided.
---------------------------------------------------------------------------
Data Collection and Analysis Enhancements Are Needed To Identify and 
        Mitigate the Root Causes of Separation Losses
    FAA statistics indicate that reported operational errors \3\--when 
required separation is lost due to a controller error--rose by 53 
percent between Fiscal Years 2009 and 2010 (see figure 1). While total 
operational errors remained at these levels in 2010 and 2011, the most 
serious reported errors, those in which a collision was barely avoided, 
continued to increase, from 37 in Fiscal Year 2009, to 43 in Fiscal 
Year 2010, and 55 in Fiscal Year 2011. Further, since the beginning of 
Fiscal Year 2012, both the total and most serious number of reported 
operational errors appears to have increased.\4\
---------------------------------------------------------------------------
    \3\ As of Jan 30, 2012, FAA no longer uses the term ``operational 
errors'' but instead tracks losses of separation as ``occurrences.'' 
Occurrences might not be an exact replacement for operational errors. 
Occurrences may include other types of losses of separation besides 
operational errors.
    \4\ We have calculated, based on FAA data, that the total number of 
operational errors may have increased up to 2,509 for Fiscal Year 2012, 
with the most serious errors increasing up to 275, but we are unable to 
state this is 100 percent accurate due to limitations in FAA data. 
Specifically, FAA stopped using the term ``operational errors'' in 
2012.
---------------------------------------------------------------------------
Figure 1. Operational Errors for Fiscal Years 2006 Through 2011
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: OIG analysis of FAA data.

    However, the reason these increases occurred is unknown. According 
to FAA, the increases are the result, in part, of its increased use of 
data in the Traffic Analysis and Review Program (TARP)--an automated 
system for detecting loss of separation incidents at terminal 
locations. However, as we reported in February 2013,\5\ operational 
errors at the high altitude en route centers--which have had an 
automated system for detecting loss of separation incidents in place 
for years--have also increased from 353 in Fiscal Year 2009 to 489 in 
Fiscal Year 2010, suggesting that the increase in reported errors 
during this period was linked in part to a rise in actual errors.
---------------------------------------------------------------------------
    \5\ FAA's Efforts To Track and Mitigate Air Traffic Losses of 
Separation Are Limited by Data Collection and Implementation Challenges 
(OIG Report No. AV-2013-046), February 27, 2013. OIG reports and 
testimonies are available on our website at http://www.oig.dot.gov/.
---------------------------------------------------------------------------
    In January 2012, FAA issued new policies and procedures for 
collecting, investigating, and reporting all separation losses. 
However, their effectiveness is limited by incomplete data and the lack 
of an accurate baseline on the number of separation losses. At the time 
of our ATSAP review last year,\6\ approximately 50 percent of all ATSAP 
event reports \7\ were classified as ``unknown,'' meaning they were not 
included in FAA's Quality Assurance database when they were reviewed, 
and therefore may have been excluded.\8\ Likewise, as we reported in 
February, FAA does not analyze and report all separation losses 
automatically flagged by TARP. Instead, FAA investigates only those 
losses of separation that are within less than 70 percent of the 
required separation distance.
---------------------------------------------------------------------------
    \6\ Long Term Success of ATSAP Will Require Improvements in 
Oversight, Accountability, and Transparency (OIG Report No. AV-2012-
152), July 19, 2012.
    \7\ Event reports identify actual or potential losses of 
separation, including operational errors, or other situations that may 
degrade air traffic safety.
    \8\ FAA changed how it categorizes event reports in January 2012. 
However, the committees that review ATSAP reports still do not contact 
facilities if they believe an event is unknown to management.
---------------------------------------------------------------------------
Significant Improvements to ATSAP Are Needed To Achieve Expected 
        Program 
        Benefits
    FAA implemented ATSAP reporting at all air traffic control 
facilities in October 2010 and continues to make needed improvements to 
the program. As of December 31, 2012, more than 58,000 reports have 
been collected through ATSAP. However, FAA's methods for analyzing the 
data may not accurately identify root causes and safety trends. For 
example, causal factors are reported quarterly under ATSAP using 
general terms such as ``actions or plans poorly executed'' or 
``training in progress during event,'' which are too broad to identify 
root causes and develop specific actions to mitigate them.
    We identified other weaknesses in the ATSAP program. Improvements 
in these areas would enhance the Agency's ability to identify and 
address risks through ATSAP. For example:

  <bullet> FAA has not finalized the process to effectively communicate 
        ATSAP data to air traffic facility managers so that safety 
        improvements can be made at the facility level. By December 31, 
        2013, FAA plans to deploy a nationwide rollout of a pilot 
        program to provide personnel at FAA facilities and offices 
        access to ATSAP data.

  <bullet> At the time of our review, FAA had not effectively 
        communicated and implemented changes to performance management 
        under ATSAP.

  <bullet> Event Review Committees (ERC)\9\ have accepted reports for 
        ATSAP that do not adhere to ATSAP reporting criteria, and FAA 
        lacks a process to review ERC decisions. For example, ERCs have 
        accepted reports that concern air traffic controller conduct--
        rather than specific performance issues--such as a controller 
        watching a personal video player while on duty. These types of 
        conduct issues are inappropriate for inclusion in a 
        confidential safety program such as ATSAP, and failure to 
        adhere to the program's reporting criteria may lead to the 
        incorrect perception that ATSAP is an amnesty program.
---------------------------------------------------------------------------
    \9\ ERCs consist of a member from the Air Traffic Organization, a 
controller union representative, and a member of FAA's Air Traffic 
Safety Oversight Service. ERCs evaluate each report submitted to the 
program to determine whether it meets the established criteria for 
inclusion in the database. If so, the ERC accepts the report into 
ATSAP.

  <bullet> ERCs can refer reports that include conduct issues to FAA's 
        Professional Standards Program (PSP)\10\ for peer counseling. 
        However, the PSP does not require documenting corrective 
        actions for accountability, transparency, and resolution. More 
        importantly, final decisions regarding matters referred to the 
        PSP are made, in many cases, by bargaining unit employees at 
        the facility level rather than FAA management.
---------------------------------------------------------------------------
    \10\ PSP is defined in Article 52 of FAA's 2009 Collective 
Bargaining Agreement with the National Air Traffic Controllers 
Association. It is designed to allow bargaining unit employees to 
address conduct and/or performance issues of their peers before such 
issues rise to a level requiring corrective action by the Agency.
---------------------------------------------------------------------------
FAA Is Making Changes to Its Scheduling Practices But Continues To Face 

        Challenges in Mitigating Controller Fatigue
    A series of high-profile incidents in early 2011 involving 
controllers who were sleeping while on duty sparked public concern 
about controller fatigue and prompted FAA to institute a series of 
policy changes. These include placing an additional air traffic 
controller on the midnight shift at certain facilities and mandating a 
minimum of 9 hours off between evening and day shifts.
    As directed by the FAA Modernization and Reform Act of 2012,\11\ we 
are assessing these new controller scheduling practices with a focus on 
safety considerations during schedule development, the cost 
effectiveness of scheduling practices, and the impact of scheduling 
practices on air traffic controller performance.
---------------------------------------------------------------------------
    \11\ Pub. L. No. 112-95 (2012).
---------------------------------------------------------------------------
Sustained Focus on Efforts To Reduce Serious Runway Incursions Is 
        Needed
    Reducing runway incursions--potential ground collisions--is a key 
performance goal for FAA that requires heightened attention at all 
levels of the Agency. As we noted in our report to this Committee in 
July 2010,\12\ the number of the most serious runway incursions--
incidents in which a collision was barely avoided--decreased after 
runway safety initiatives detailed in FAA's August 2007 Call to Action 
plan were implemented.\13\ However, between Fiscal Years 2010 and 2012, 
reported serious runway incursions tripled from 6 in Fiscal Year 2010 
to 18 in Fiscal Year 2012.
---------------------------------------------------------------------------
    \12\ Review of FAA's Call to Action Plan for Runway Safety (OIG 
Report No. AV-2010-071), July 21, 2010.
    \13\ Specifically, these incidents declined from 25 reported in 
Fiscal Year 2008 to 6 reported in Fiscal Year 2010.
---------------------------------------------------------------------------
    Additionally, the total number of all runway incursions increased 
21 percent between Fiscal Years 2011 and 2012, from 954 to 1,150, and 
the total number of incidents continues to increase. For the period of 
October through December 2012, total incursions increased by 
approximately 20 percent compared to the same period in 2011. (See 
figure 2.)
Figure 2. Runway Incursions, Fiscal Year 2006 Through Fiscal Year 2012
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: OIG analysis of FAA data.

    More concerning is that this increase occurred during a period when 
total air traffic operations declined by 1 percent (between Fiscal 
Years 2011 and 2012). As a result of these concerns, we plan to 
initiate another review of FAA's Runway Safety Program next month.
    Over the past several years, FAA has worked to deploy technology 
that could help prevent runway incursions. For example, in Fiscal Year 
2011, FAA deployed the Airport Surface Detection Equipment-Model X 
(ASDE-X) system at 35 major airports. ASDE-X enhances runway safety by 
providing detailed information to air traffic controllers regarding 
aircraft operations on runways and taxiways. However, while ASDE-X is a 
step in the right direction, it does not provide alerts directly to 
pilots, which has been a longstanding recommendation by the National 
Transportation Safety Board (NTSB). To address this shortcoming, FAA is 
planning to integrate the use of ASDE-X with two other systems--Runway 
Status Lights (RWSL) and Automatic Dependent Surveillance-Broadcast 
(ADS-B)--to provide simultaneous alerts to controllers and pilots of 
potential ground collisions. Progress in achieving these enhancements 
will be impacted by a number of issues, such as establishing 
requirements for technical upgrades, testing to verify system 
integrity, and determining whether the ASDE-X capabilities will meet 
FAA's goals of increasing capacity while improving safety. We have 
initiated an audit into this area to assess FAA's progress in 
integrating ASDE-X with other technologies such as RWSL and ADS-B to 
improve runway safety.
FAA Must Step Up Its Efforts To Reduce Wildlife Hazards at or Near 
        Airports
    The threat of wildlife hazards to aviation safety was evident in 
the January 2009 wildlife strike involving U.S. Airways Flight 1549 
shortly after takeoff from LaGuardia Airport, which forced the flight 
crew to land the airplane in the Hudson River. In addition to creating 
major safety risks, strikes can cause significant downtime and damage 
to aircraft--estimated to be over 600,000 hours of aircraft downtime 
and $625 million in damages annually. Over the past 2 decades, reported 
wildlife-aircraft strikes have quadrupled from 1,770 in 1990 to 9,463 
in 2012.\14\
---------------------------------------------------------------------------
    \14\ These totals exclude wildlife strike reports from military 
operations and foreign or unknown states.
---------------------------------------------------------------------------
    While FAA's Wildlife Hazard Mitigation Program seeks to reduce 
wildlife hazards, we recently reported that the Agency cannot fully 
assess how effective its policies and guidance are at reducing the 
number and severity of wildlife strikes because reporting wildlife 
strikes is voluntary.\15\ A 2009 study commissioned by FAA concluded 
that only 39 percent of actual strikes were reported. Consequently, it 
is unclear whether increases in reported strikes are due to increases 
in actual strikes or increased reporting. Similarly, it is unclear 
whether any decreases in strike reports are a result of achieving 
program goals or a lack of industry reporting.
---------------------------------------------------------------------------
    \15\ FAA Has Not Effectively Implemented Its Wildlife Hazard 
Mitigation Program (OIG Report No. AV-2012-170), August 22, 2012.
---------------------------------------------------------------------------
    Without full reporting and complete data on wildlife strikes, it is 
difficult to fully analyze the magnitude of safety issues, the nature 
of the problems, and the economic cost of wildlife strikes. FAA 
reported that wildlife strikes are probably one of the most pressing 
issues facing air traffic in the vicinity of airports and concluded 
that the lack of good data is one of the biggest challenges that 
managers at airports face.\16\ Accordingly, it is incumbent on FAA to 
address the gaps in strike data by improving oversight and enforcement 
of its Wildlife Hazard Mitigation Program requirements. Otherwise, the 
Agency will not be able to ensure that the $366 million in increased 
program spending over the next 20 years will be used effectively to 
track and analyze trends in wildlife strikes, identify potential new 
hazards, and mitigate their risk.
---------------------------------------------------------------------------
    \16\ FAA Safety Briefing, `` `Accidental' Meetings Between 
Airplanes and Wildlife,'' November/December 2011.
---------------------------------------------------------------------------
FAA Faces Challenges With Developing a Comprehensive Safety Data 
        Collection and Analysis System for Proactive Identification of 
        Risk
    To help maintain our Nation's aviation safety record and further 
reduce the number of aviation accidents, FAA has been moving toward a 
data-driven approach for airline safety oversight. In 2007, FAA 
implemented the Aviation Safety Information Analysis and Sharing 
(ASIAS) system, a tool that collects and analyzes data from multiple 
databases to proactively identify and address risks that may lead to 
accidents. ASIAS enables authorized users to obtain data from 
confidential databases--including voluntary safety programs such as the 
Flight Operational Quality Assurance (FOQA) program and the Aviation 
Safety Action Program (ASAP)--as well as from publicly available data 
sources such as NTSB's Accident and Incident Reports database. Although 
ASIAS was never intended as a surveillance tool, it can still play a 
role in air carrier risk identification and mitigation. However, access 
to the confidential ASIAS data for FAA and industry representatives has 
been limited due to airline proprietary concerns.
    In the Airline Safety and FAA Extension Act of 2010, Congress 
directed our office to assess FAA's ability to establish a 
comprehensive information repository that can accommodate multiple data 
sources and be accessible to FAA aviation safety inspectors and 
analysts who oversee air carriers. Accordingly, we are currently 
assessing FAA's progress in implementing ASIAS, its process and plan 
for allowing system access at both field and headquarters levels, and 
its use of ASIAS data to assist in commercial air carrier risk 
identification and mitigation. We expect to issue our report later this 
year.
Introducing UAS Within U.S. Airspace Presents Significant New 
        Challenges in FAA's Safety Oversight
    FAA predicts there will be roughly 10,000 active UAS in the United 
States in 5 years, with more than $89 billion in worldwide UAS spending 
over the next 10 years. However, FAA has approved these operations only 
on a limited, case-by-case basis, due in part to the safety risks 
associated with UAS integration into the NAS. While the capabilities of 
unmanned aircraft have significantly improved, they have a limited 
ability to detect, sense, and avoid other air traffic. Given the 
growing interest and potential safety issues associated with UAS 
flights, Congress recently directed the Secretary of Transportation, in 
the FAA Modernization and Reform Act of 2012, to develop a 
comprehensive plan for integrating UAS into the NAS no later than 
September 30, 2015. At the request of the Chairmen and Ranking Members 
of this Committee and the House Committee on Transportation and 
Infrastructure, as well as their Aviation Subcommittees, we are 
currently assessing FAA's progress on integrating UAS into the NAS. We 
expect to issue a report later this year.
Implementing Risk-Based Oversight is Critical to Ensure Safety in the 
        Aviation Industry
    To maximize its safety inspector resources, FAA needs to target its 
oversight of the aviation industry, including repair stations, air 
carriers, and manufacturers, to address the greatest risks. However, 
shifting to risk-based oversight of the aviation industry continues to 
be a challenge for FAA. FAA deployed a new oversight system for repair 
stations in 2007, but it lacks the data and full implementation needed 
to be a true risk-based system. FAA is also increasingly delegating 
certain functions, such as approving new aircraft designs, to aircraft 
manufacturers and other private companies but has not fully addressed 
weaknesses in its delegation program. Further, the Agency has not fully 
implemented a risk-based tool used to identify which aircraft 
certification projects represent the highest risk.
FAA Lacks a Reliable Model for Determining How Many Inspectors It Needs
    To effectively oversee a dynamic aviation industry, it is critical 
that FAA place its approximately 4,300 safety inspectors where they are 
most needed. A 2006 National Research Council (NRC) study,\17\ 
conducted at the direction of Congress, found that FAA's methodology 
for allocating aviation safety inspector resources was ineffective. NRC 
determined this was partially because FAA's method (1) did not predict 
the consequences of staffing shortfalls (that is, what inspections are 
not being accomplished due to staffing); (2) failed to account for some 
important factors affecting inspector workload, such as designee 
oversight; and (3) relied on expert judgment rather than validated data 
to reach conclusions. NRC recommended that FAA develop a new approach, 
and, in response, FAA introduced a new staffing model in October 2009.
---------------------------------------------------------------------------
    \17\ ``Staffing Standards for Aviation Safety Inspectors,'' 
September 20, 2006.
---------------------------------------------------------------------------
    We have evaluated the model as part of an ongoing audit of 
inspector staffing, as requested by Congress.\18\ Thus far, FAA 
officials are not confident in the accuracy of the model's staffing 
projections and therefore have not fully relied on the number projected 
by the model when requesting additional inspectors during the annual 
budget process. As of January 2013, FAA reported the results of its 
staffing model six times, with each iteration showing very different 
nationwide employee shortages (see figure 3).\19\
---------------------------------------------------------------------------
    \18\ Congress directed our office to review inspector and analyst 
staffing issues in Section 205 of the Airline Safety and FAA Extension 
Act of 2010, Pub. L. No. 111-216, enacted August 1, 2010.
    \19\ Based on our analysis of FAA data, these fluctuations appear 
to be caused by a number of underlying issues such as inaccurate and 
outdated data.
---------------------------------------------------------------------------
    FAA is working to further refine the model so that it more 
effectively identifies the number of inspectors needed and where they 
should be placed to address the greatest safety risks. We expect to 
issue our report on inspector staffing later this year.
Figure 3. FAA's Model-Projected Safety Employee Shortfalls
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: OIG analysis of FAA data.
Oversight of Repair Stations Remains a Concern
    FAA's oversight of aircraft repair stations has been a longstanding 
concern. According to FAA, there are nearly 4,800 FAA-certificated 
repair stations worldwide that perform maintenance for U.S.-registered 
aircraft. Since 2003, we have recommended that FAA strengthen its 
oversight of air carriers' contracted maintenance providers by 
developing a comprehensive, standardized approach to repair station 
oversight and targeting inspector resources based on risk assessments. 
In response, FAA implemented a new risk-based system in 2007 to target 
surveillance efforts to facilities based on risk.
    However, our review indicates that the system continues to rely on 
inspectors completing mandatory inspections rather than inspections 
based on risk. Additionally, some inspectors do not use the risk 
assessment process at all; those that do are hindered in their ability 
to assess risk due in part to limitations in data availability and 
quality. As a result, FAA has been ineffective at conducting risk-based 
oversight.
    FAA's surveillance at foreign and domestic repair stations also 
lacks the rigor needed to identify deficiencies and verify they have 
been addressed. Systemic problems we identified during our 2003 
review--such as inadequate mechanic training, outdated tool calibration 
checks, and inaccurate work order documentation--persist at the repair 
stations we recently visited. FAA guidance requires inspectors to 
review these specific areas during repair station inspections, but 
inspectors overlooked these types of deficiencies. Given U.S. air 
carriers' continued reliance on repair stations to perform their 
aircraft maintenance domestically and abroad, it is imperative that FAA 
improve its risk-based system to provide more rigorous oversight of 
this industry. We plan to issue our report on FAA's oversight of repair 
stations later this month.
Ineffective Oversight of Organizations With Designated Authority 
        Weakens FAA's Role in Aircraft Certification
    Through its Organization Designation Authorization (ODA) program, 
implemented in 2009, FAA delegates to aircraft manufacturers and other 
private companies the approval of individuals to certify aircraft or 
components on FAA's behalf. Once FAA approves the company's selection 
process,\20\ ODA company representatives appoint personnel who perform 
work on FAA's behalf without FAA concurrence, significantly reducing 
FAA's role in approving these personnel. While FAA maintains some 
involvement with the selection process during an ODA holder's first 2 
years, it is unclear how FAA is involved beyond that timeframe.
---------------------------------------------------------------------------
    \20\ If ODAs fail to comply with regulations or fail to pass an FAA 
audit, FAA can remove them from the program.
---------------------------------------------------------------------------
    FAA has not yet provided its certification offices with clear, 
written guidance on how to oversee ODAs' personnel appointments. As a 
result, certification offices are currently left to define FAA's role 
in tracking these personnel and to determine how companies select them. 
For example, only three of the five FAA certification offices we 
visited consulted an FAA database to pre-screen prospective ODA 
employees' performance histories, and FAA's certification engineers in 
the field expressed confusion about whether this check would continue 
beyond an ODA's first 2 years. With less FAA involvement in the 
selection process, there is the risk that an ODA company could appoint 
certification responsibilities to individuals whose qualifications are 
inadequate or who have a history of poor performance. We identified 
instances of FAA engineers experiencing pushback from ODA companies 
when trying to take corrective actions against appointed personnel. 
This has led to individuals with performance problems continuing to 
perform important certification functions. In response to our June 2011 
report,\21\ FAA is developing and implementing policies, procedures, 
guidance, and training to address the deficiencies we identified with 
the Agency's oversight of ODA.
---------------------------------------------------------------------------
    \21\ FAA Needs To Strengthen Its Risk Assessment and Oversight 
Approach for Organization Designation Authorization and Risk-Based 
Resource Targeting Programs (OIG Report No. AV-2011-136), June 29, 
2011.
---------------------------------------------------------------------------
    In September 2007, as another way to leverage limited FAA 
engineering resources, FAA implemented use of the Risk-Based Resource 
Targeting (RBRT) system, which is designed to identify higher risk 
aircraft certification projects. However, RBRT has not effectively 
measured risk because it relies primarily on subjective input from FAA 
certification engineers, does not contain detailed data, and has 
experienced repeated technical difficulties. For example, engineers 
reported numerous problems with the system, including a tendency to 
identify projects as low risk regardless of inputs that suggested 
higher risk factors, such as a company's lack of experience with the 
design of aircraft to which they have assigned personnel to certify. In 
response to our June 2011 report, FAA is developing processes to 
incrementally improve the RBRT system.
FAA Has Made Progress in Implementing Mandated Safety Initiatives, But 
        Significant Challenges Remain
    Since the Airline Safety Act was passed in 2010, FAA has improved 
pilot rest requirements and made strides in advancing voluntary safety 
programs. However, challenges remain for enhancing pilot qualification 
standards and training, establishing mentoring programs, and developing 
a pilot records database to improve the screening process for pilot 
applicants.
FAA Met Requirements to Address Pilot Fatigue and Improve Participation 
        in 
        Voluntary Safety Programs
    FAA has made important progress in meeting key elements of the Act, 
including issuing a final rule on pilot rest requirements and 
increasing air carrier use of voluntary safety programs. We have some 
concerns regarding pilot commuting, however, as detailed below.
    In January 2012, FAA updated its flight and duty time regulations 
for Part 121 \22\ air carrier pilots to better ensure pilots are well 
rested when they fly. This is a significant achievement for the Agency 
given that these were the first modifications to the regulations since 
1985 and that the proposed rule received over 8,000 comments from the 
aviation industry, mostly opposing the proposed requirements. Under the 
new regulations, pilots are required to affirmatively state that they 
are fit to fly and are prohibited from flying during a scheduled duty 
period when they report fatigue. Other key changes include requiring a 
10-hour minimum rest period prior to duty--a 2-hour increase over the 
previous rule--and 30 consecutive hours free from duty per week--an 
increase of 25 percent over the previous requirements.
---------------------------------------------------------------------------
    \22\ 14 CFR Part 121, Operating Requirements: Domestic, Flag, and 
Supplemental Operations.
---------------------------------------------------------------------------
    While these changes could substantially enhance safety, the 
regulations do not address pilot commuting--a factor that may 
significantly contribute to fatigue, as many pilots in the industry 
reside hundreds or even thousands of miles from their duty locations. 
In September 2011, we recommended that FAA collect and analyze 
information on pilot domicile and commuting to better target solutions 
to reduce pilot fatigue.\23\ The Agency agreed to complete by February 
2013 a ``scan of available data'' on pilot commuting and determine 
whether additional data could offer significant safety benefits. 
However, FAA recently updated its response stating that it had 
determined that collecting and analyzing data on pilot commuting was 
not warranted because pilots have an obligation to be fit for duty. 
Despite this stance, FAA indicated that our recommendation has now been 
substantially addressed. The Agency also cited a September 2012 study 
by its Civil Aerospace Medical Institute regarding flight attendant 
commuting that found ``no significant relationship between commute 
times and flight attendant performance.'' While we are currently 
evaluating FAA's response, we remain concerned that the Agency is not 
adequately addressing pilot commuting.
---------------------------------------------------------------------------
    \23\ FAA and Industry Are Taking Action To Address Pilot Fatigue, 
but More Information on Pilot Commuting Is Needed (OIG Report No. AV-
2011-176), September 2011.
---------------------------------------------------------------------------
    In addition to its rule on pilot fatigue, FAA has made commendable 
progress in advancing voluntary safety programs at air carriers, 
another key component of the Act. For example, as required by the Act, 
FAA provided Congress with a report \24\ on air carrier use of three 
voluntary safety programs that the Agency oversees. Data gathered 
through these voluntary programs can be used to identify the trends and 
patterns that represent safety risks:
---------------------------------------------------------------------------
    \24\ Voluntary Safety Programs, Response to P.L. 111-216, Sec. 213, 
January 28, 2011.

  <bullet> Aviation Safety Action Program (ASAP)--A joint FAA/industry 
        program that allows aviation employees to self-report safety 
        violations to air carriers and FAA without fear of reprisal 
---------------------------------------------------------------------------
        through legal or disciplinary actions.

  <bullet> Flight Operational Quality Assurance (FOQA)--A program for 
        the routine collection and analysis of digital flight data 
        generated during aircraft operations.

  <bullet> Advanced Qualification Program (AQP)--A voluntary 
        alternative to traditional pilot training regulations that 
        replaces programmed hours with proficiency-based training, and 
        incorporates data-driven processes enabling air carriers to 
        refine training based on identified individual needs.

    As of January 2012, FAA data showed that 70 percent \25\ of Part 
121 air carriers participated in at least one voluntary safety program 
and just under half of those carriers used more than one. The highest 
concentration of new growth for these air carriers has been with the 
ASAP and FOQA programs.
---------------------------------------------------------------------------
    \25\ FAA recently reported that air carrier participation in 
voluntary safety programs continues to increase.
---------------------------------------------------------------------------
    However, work remains to implement these programs at smaller 
carriers. While all carriers with more than 50 aircraft in their fleet 
have implemented ASAP, only 41 percent of carriers with 15 or fewer 
aircraft have adopted the system (see table 1). Similarly, just 12 
percent of these small carriers have FOQA, and only 7 percent have 
advanced qualification programs for pilot training.

                          Table 1.--Air Carrier Voluntary Safety Program Participation
----------------------------------------------------------------------------------------------------------------
                     Number of
    Program          Carriers         Large Carriers  (more    Medium Carriers  (16 to   Small Carriers  (15 or
                   Participating       than 50  aircraft)           50 aircraft)             fewer aircraft)
----------------------------------------------------------------------------------------------------------------
ASAP                     60 of 88                  24 of 24                  19 of 23                  17 of 41
                            (68%)                    (100%)                     (83%)                     (41%)
----------------------------------------------------------------------------------------------------------------
FOQA                     38 of 88                  22 of 24                  11 of 23                   5 of 41
                            (43%)                     (92%)                     (48%)                     (12%)
----------------------------------------------------------------------------------------------------------------
AQP                      19 of 88                  13 of 24                   3 of 23                   3 of 41
                            (22%)                     (54%)                     (13%)                      (7%)
----------------------------------------------------------------------------------------------------------------
Source: OIG analysis of FAA data as of January 2012.

Challenges Remain in Meeting Key Pilot-Related Provisions and Ensuring 
        Air 
        Carriers Meet Safety Standards
    Despite the important progress FAA has made in implementing the 
Act's requirements, the Agency has encountered delays in issuing key 
rules impacting pilots--specifically those addressing new screening and 
qualification enhancements, air carrier training standards, and 
mentoring and leadership programs. The Agency also faces challenges in 
establishing a new centralized, electronic pilot records database to 
provide air carriers with better background information on pilots they 
intend to hire. Finally, FAA will need to address concerns regarding 
establishing safety management systems and information sharing and 
mentoring between code share partners.
    Pilot Qualifications. FAA is behind schedule in meeting the Act's 
requirement to substantially raise airline pilot qualifications. FAA 
expects to issue a final rule by August 2013--1 year after the Act's 
deadline. As mandated by the Act, FAA's proposed rule (issued in 
February 2012) would require all Part 121 pilots to hold an Airline 
Transport Pilot (ATP) certificate,\26\ which is currently required only 
for Pilots-in-Command. First Officers would need 1,500 hours of flight 
time to obtain an ATP certificate--six times the current minimum of 250 
hours needed for a commercial pilot's certificate. Although FAA's 
proposed rule would provide some flexibility in meeting these 
requirements for pilots with relevant degrees or military flight 
experience, air carrier representatives remain opposed to the rule 
because they feel a pilot's quality and type of flying experience 
should be weighted more heavily than the number of flight hours.
---------------------------------------------------------------------------
    \26\ An Airline Transport Pilot (ATP) Certificate is the highest 
level of pilot certification. Pilots certified as ATP are authorized to 
act as pilot-in-command of an aircraft in commercial airline service. 
Additional eligibility requirements are contained in 14 CFR 61.153.
---------------------------------------------------------------------------
    FAA's delayed rulemaking is a particular concern because, under the 
terms of the Act, the requirement that all pilots possess ATP 
certificates will automatically take effect if FAA cannot issue a final 
rule by August 2013. If this happens, air carriers would not be allowed 
the flexibility provided in FAA's proposed rule. As a result, air 
carriers may not have adequate time to make necessary adjustments to 
their pilot training and qualification programs to meet the new 
requirements by the Act's deadline.
    Crew Training. FAA is more than 18 months overdue on issuing a 
final rule revising pilot training requirements, due in part to 
significant industry opposition to the rule. FAA's current proposed 
rule (issued in May 2011) is an important safety initiative that will 
require pilot training programs to incorporate flight simulators and 
enhance pilots' abilities to work together during emergencies, as well 
as how to recognize and recover from stalls.
    With advancements in pilot training on the horizon, it is important 
that FAA enhance its oversight practices. For example, under the new 
rule, carriers will be required to provide remedial training for pilots 
with performance deficiencies. However, it will be difficult for FAA to 
gauge the effectiveness of this training unless it corrects weaknesses 
we reported in December 2011.\27\ Specifically, we reported that FAA 
was not tracking poorly performing pilots due to inadequate guidance 
for its inspectors on how to gather data on pilot performance. 
Currently, FAA guidance requires inspectors to compare pilot 
proficiency checks that they have performed against those conducted by 
the carriers' check airmen.\28\ However, we questioned the viability of 
this requirement since nearly all pilot proficiency checks are 
conducted by check airmen, not FAA inspectors. As a result, FAA 
inspectors may not have sufficient data to make a meaningful 
comparison.
---------------------------------------------------------------------------
    \27\ New Approaches Are Needed To Strengthen FAA Oversight of Air 
Carrier Training Programs and Pilot Performance (OIG Report No. AV-
2012-027), December 20, 2011.
    \28\ Check airmen are pilots employed by air carriers who evaluate 
a pilot's proficiency during examinations.
---------------------------------------------------------------------------
    Pilot Mentoring. FAA is also more than 20 months overdue in meeting 
a mandated timeline to issue a proposed rule requiring air carriers to 
establish pilot mentoring, leadership, and professional development 
committees to improve pilot performance. The delay is due in part to 
setbacks in developing an appropriate balance between the costs and 
benefits of these programs.
    While FAA intends to issue a proposed rule that would reinforce 
safe flying practices, air carriers are reluctant to allocate resources 
to implement these new safety programs without a final rule and FAA 
guidance. As we reported in January 2013,\29\ seven of nine carriers we 
visited did not have formal mentoring programs, and none had 
professional development programs for their pilots.
---------------------------------------------------------------------------
    \29\ FAA and Industry Are Advancing the Airline Safety Act, But 
Challenges Remain to Achieve Its Full Measure (OIG Report No. AV-2013-
037), January 31, 2013.
---------------------------------------------------------------------------
    Pilot Records Database. FAA achieved an early milestone to begin 
developing the electronic database for pilot screening by October 2010. 
Additionally, in July 2011, an advisory committee provided FAA with 
recommendations on the database's design and functionality. However, 
the Act did not establish a milestone for completion and FAA has yet to 
make long-term implementation decisions. To achieve the goal of 
enhancing the screening process of newly hired pilots, FAA must 
overcome three key challenges:

  <bullet> First, FAA must determine the level of detail that should be 
        captured from air carrier pilot training records, such as 
        recurrent flight training data. The Act stipulates that 
        comments and evaluations made by check airmen be included in 
        the database; however, industry is highly protective of these 
        data and opposes their inclusion. FAA must also address how to 
        include historical air carrier pilot training records into its 
        new system.

  <bullet> Second, the Agency will need to develop a strategy to 
        transition to the new database while ensuring air carriers 
        receive all available data in the interim. Since database 
        implementation is years away, we are concerned whether air 
        carriers can currently obtain all relevant information on 
        pilots before they are hired.

  <bullet> Finally, FAA identified multiple challenges for accessing 
        records from the National Driver Register (NDR)\30\ and 
        incorporating them into the database. For example, FAA must 
        decide how to ensure data reliability of pilot records and 
        resolve conflicting data retention policies for the database 
        versus NDR data sources.
---------------------------------------------------------------------------
    \30\ NDR is a central information system that allows States to 
electronically exchange information on licensed drivers through a 
computerized network.

    Safety Management Systems. FAA did not meet an August 2012 deadline 
for issuing a final rule to require that all Part 121 air carriers 
implement Safety Management Systems (SMS). SMS, which is currently 
voluntary, provides air carriers with a comprehensive process for 
managing safety risks and integrating safety activities into normal, 
day-to-day operations. Specifically, SMS provides operators with 
business processes and management tools to examine data from everyday 
operations, isolate trends that may be precursors to incidents and 
accidents, and develop and carry out appropriate risk mitigation 
strategies.
    Since 2007, FAA has taken steps to assist air carriers in 
developing these systems through a pilot program designed to promote 
voluntary air carrier adoption of SMS and develop implementation 
strategies. As of January 2013, 95 percent of all Part 121 air carriers 
(80 of 84) are participating in the pilot program.
    When fully implemented across all carriers, SMS has the potential 
to significantly advance safety. However, there is industry concern 
that the SMS rule will not be scalable for air carriers of varying size 
and operations, making it more costly and difficult for smaller 
carriers to integrate into their operations. In addition, FAA's 
proposed rule (issued in November 2010) does not address concerns from 
air carriers and NTSB about public disclosure of SMS-collected data. 
Most of these concerns focus on whether the data can be used in 
litigation. NTSB is also concerned that air carrier employees may be 
discouraged from providing important safety information due to a lack 
of SMS data protection.
    Code Sharing. The 2009 Colgan accident raised important questions 
about code sharing--when a mainline air carrier contracts with a 
smaller regional carrier to provide flights to its hub airports--
including how closely the mainline carriers monitor the operations of 
their regional counterparts. FAA's 2009 Call to Action plan for airline 
safety encouraged mainline and regional carriers to collaborate on code 
share safety programs and mentoring. Yet, FAA does not have procedures 
to advance the Agency's commitment to ensure an equivalent level of 
safety between mainline air carriers and their code share partners.
    In February 2013, we reported that while FAA sponsors biannual 
information sharing events across the industry, it has not taken steps 
to encourage mainline carriers to share safety information and best 
practices with their code share partners.\31\ As a result, some safety 
programs developed internally between code sharing partners are more 
robust than others. For example, one major carrier meets with its code 
share partners on a monthly basis to discuss safety practices, while 
other carriers we reviewed only met quarterly with their code share 
partners. Further, because FAA does not review domestic code share 
arrangements, the Agency has not assessed whether certain aspects of 
these agreements, such as financial incentives based on performance, 
could have unintended safety consequences.
---------------------------------------------------------------------------
    \31\ Growth of Code Sharing Warrants Increased Attention (OIG 
Report No. AV-2013-045), February 14, 2013.
---------------------------------------------------------------------------
Conclusion
    With an increasingly complex air system--one that relies on rapidly 
evolving technologies, specialized services, and expanding 
partnerships--maintaining a safe and viable NAS is a challenging 
mission. While FAA has taken noteworthy action to address safety 
concerns raised by Congress, our office, NTSB, and others, we have 
noted that further opportunities remain to mitigate safety risks. These 
include improving collection and analysis of air traffic safety data, 
establishing an effective risk-based approach for overseeing repair 
stations and manufacturers, and fully addressing provisions of the 
Airline Safety and FAA Extension Act of 2010 and the FAA Modernization 
and Reform Act of 2012. We will continue our work with FAA and the 
Department to ensure intended air safety improvements are realized.
    This concludes my statement. I would be happy to address any 
questions from the Chairman or Members of the Committee at this time.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: OIG analysis of FAA-reported data.

    The Chairman. Thank you very much, sir.
    We will proceed to questions, based upon the order of 
arrival.
    And so, the first one, Administrator Huerta, is to you. 
You've got to cut $627 million from the FAA budget for the 
remaining 6 months of this fiscal year. Initial cuts include 
closing of more than 100 contracted air traffic control towers 
and the elimination of midnight shifts at 60 other air traffic 
towers. The agency will also have to furlough its employees for 
11 days, starting April 21. In addition, the FAA recently 
provided information indicating that they need to make cuts of 
$486 million to the operations account, $142 million from the 
facilities and equipment account--that's NextGen. NextGen 
programs are getting cut by about $3 million, but furloughs 
will have an even greater impact on that program because 
hundreds of subject-matter experts, including air traffic 
controllers, will have to forego their work in this area to 
return to their core activities, if I'm correct on that.
    So, my question to you, sir, is, How will the sequestration 
cuts and furloughs affect critical safety activity, such as 
oversight of airline operations, of the implementation of 
NextGen, and the certification activities of the agency, or any 
other concerns you may have?
    Mr. Huerta. Mr. Chairman, two principles have guided us as 
we have looked at the impact of the sequester in the current 
Fiscal Year. As you pointed out, we have to identify cuts 
totaling $637 million in the remaining 6 months of the year. As 
an operating agency, 70 percent of our operations budget is 
people, 84 percent of our people are in the field, in the 
facilities that actually deal with the flying public.
    Sequester, as you know, is designed to be a blunt 
instrument, and we have limited flexibility, in terms of how we 
can implement it. We have to apply it by program, project, and 
activity within the various accounts within the FAA's budget.
    Our overriding principle is, first and foremost, to 
maintain the highest levels of safety; and, second, to minimize 
its impact on the maximum number of passengers. Our approach 
has been to focus, first, in contractual areas and out-of-
pocket expenses. We have had tremendous cost reductions in such 
things as travel, training, and information technology 
services. In addition, we're also focusing on how we can look 
at our contract base to see if there are cuts that we can take 
that would enable us to maintain the safety of the system 
while, at the same time, preserving essential people-related 
services. Nonetheless, we have also been forced to look at 
reductions in service at facilities that have lower levels of 
activity.
    When we looked at air traffic control towers, what we 
focused on were towers that had less than 150,000 annual 
operations and 10,000 commercial operations. I should point out 
that we have thousands of public-use airports that operate in 
the country every day in a non-towered capacity, including 
several thousand public-use airports. It is not unsafe, but the 
rules of how such a facility operates are different. In order 
to maintain the highest levels of safety, what you sacrifice is 
efficiency.
    In addition to focusing on these lower-activity facilities 
that are covered by contracts, we have to look for other cuts. 
Given the large percentage of our budget that is made up of 
payroll expenses, the only way we can get to the number we need 
to cut is to focus on reducing our payroll expense, and that's 
what brings us to the furlough.
    The furlough affects all of our personnel across the FAA, 
except those that are exempted by statute, which is our Airport 
Improvement Program. Air traffic controllers, technicians that 
maintain aviation equipment, and aviation safety inspectors are 
all subject to the furlough.
    The impacts on large facilities will be a reduction of 
about 10 percent in available hours to operate at those 
facilities.
    The Chairman. Could you say that again, please, sir?
    Mr. Huerta. A reduction of about 10 percent of available 
controller hours. That's 1 furlough day pay for every 2-week 
pay period. Those instructions have been provided to the 
facilities to build facility schedules, based on availability 
of controller hours.
    We would expect that schedule reductions will result in 
significant delays in the larger facilities. The actual impact 
is very specific to the airport in question. It depends on the 
airport's configuration, how it is staffed, and what its 
traffic count looks like. But, you've heard me say, in the 
past, that large hub airports could expect delays of up to 90 
minutes in peak travel periods.
    We are faced with a series of bad choices, but the way the 
sequester law is designed, we have limited flexibility in 
moving funds between accounts.
    You asked about the impacts on NextGen. In order to 
preserve hours for the core operation we have pulled back 
individuals that work in collaborative workgroups to plan for 
the implementations of new technology back to their home 
facilities. We need them to be available to work traffic and to 
provide needed safety oversight. What that means is, a lot of 
the operational testing that we do to implement new 
technologies is something that gets delayed as a result.
    These are all difficult decisions that we need to make, so 
we are hopeful that we will be able to resolve the sequester as 
we go into Fiscal Year 2014, or even later this year. We would 
like to be able to recover some of the lost ground that is the 
result of sequestration. Aviation, as you know, contributes 
$1.3 trillion to our national economy, so we need to do 
everything that we can to support it.
    The Chairman. But, if things get better, as you say, you're 
still constrained by a budget previously passed, are you not?
    Mr. Huerta. For Fiscal Year 2013, our budget is effectively 
the continuing resolution amount, which is the fiscal 2012 
level, minus the amount of the sequester. The President has put 
forward a proposed budget for 2014 that, if adopted, would 
provide adequate resources to maintain the operations of the 
FAA and the needed investments in NextGen. But, we have to see 
how the----
    The Chairman. As they were last year?
    Mr. Huerta. I'm sorry?
    The Chairman. As they were in the last fiscal year?
    Mr. Huerta. Yes.
    The Chairman. OK.
    Oh, I'm way over my time. I apologize.
    To you, Senator Thune.
    Senator Thune. You're the Chairman. Do you want to keep 
going?
    The Chairman. No. No.
    [Laughter.]
    Senator Thune. OK. All right, thank you, Mr. Chairman.
    I'd like to, if I could, get a response to a question 
having to do with the Colgan 3407 accident that happened 4 
years ago. Congress directed the FAA to conduct several 
rulemakings to improve airline safety; among them was the pilot 
qualifications rule. The bill we passed required the FAA to 
issue a rule within 3 years to increase pilot-experience hours 
to a minimum of 1,500 hours. The law allowed the FAA to give 
credit toward this minimum-hours requirement to those with 
relevant academic training. Without the final rule, the 1,500-
hour requirement will go into effect without the equivalences 
included in the law, and that is not what Congress intended.
    And my question is, Will the FAA publish a final rule 
before the August 1, 2013 deadline with such equivalences?
    Mr. Huerta. Yes.
    Senator Thune. Good.
    I'd like to follow up on these budget issues and 
sequestration issues, which I think that the Chairman touched 
on several levels. But, there have been a number of questions 
that have been posed, by myself and other members of this 
committee, requesting more detailed support for FAA's claims on 
its sequester reductions. And those requests for information 
have, at best, been answered with what I would characterize as 
incomplete responses. And so, my question Mr. Administrator, 
is, how can you expect Congress and the public to trust the 
soundness of your decisions when you don't offer up concrete 
details to back up claims regarding the impact of sequestration 
on the National Airspace System?
    Mr. Huerta. Senator Thune, the sequester law requires that 
we provide a detailed report. We do intend to provide that 
report once we've completed our work on the implementation.
    However, I will say that, as I indicated in my opening 
statement and in response to Chairman Rockefeller's question, 
our focus has been to maintain aviation services and to 
minimize impact on the maximum number of travelers.
    Much has been made about: Can't the FAA reduce its contract 
expenditures? Well, at the direction of this committee and with 
the support of industry, we have contracted out a large number 
of service operations that represent greater partnership with 
the private sector to carry out the needs of the aviation 
system. For example, our largest contract, close to $250 
million, is FAA's telecommunications infrastructure system. 
That is the communication system that allows all air traffic 
facilities to communicate with one another. That function was 
previously performed by Federal employees; that's now done by 
contractors.
    Our second largest contract was as a result of the 
privatization of flight service station activities. These are 
essential services that give pilots briefings on weather and 
flight conditions that enable them to have important 
information before they take a flight.
    And our third largest contract area, as I mentioned, is 
contract towers.
    We have achieved savings in areas--36 million dollars, this 
year, for IT. We've reduced our travel budget by 30 percent. We 
have completely eliminated training for an air traffic control 
support during the summer months. That saves us money this 
year. The decision may create a staffing problem for us in the 
years ahead. But, we have to figure out how to manage through 
that.
    Even with all of this, because our budget is primarily 
driven by people, and people providing services, we have no 
choice but to look at furloughs of our employees.
    As we reduce hours of employees that are available to 
perform essential services, our primary and overriding focus is 
going to be on safety. And so, in order to maintain the safety 
of the operation, it will become more inefficient in high-
traffic periods. It's just the way the numbers work. We are a 
very people-heavy organization, and an organization that is 
focused on providing essential safety-related services to the 
traveling public. To maintain safety, we have to run a less 
efficient operation.
    Senator Thune. Well, let me ask you if you would consider, 
or are you considering, making use of existing reprogramming 
and transfer authorities, when it comes to reducing the impacts 
of sequestration on air traffic control functions?
    Mr. Huerta. Yes. We have an existing authority, as you 
mentioned, in order to transfer up to 2 percent within a 
particular type of funding to fund essential services. And we 
have taken full advantage of that flexibility in order to get 
our furlough impact on our critical safety functions down to 11 
days. And it would be my hope to buy back more of those 
furlough days as we see how we--how the system plays itself out 
and how we're able to manage and find savings on a continuous 
basis. This is not a one-shot deal; we're managing this on a 
weekly basis. And our efforts are, again, How do we minimize 
the impact on the maximum number of travelers?
    Senator Thune. What does the FAA plan to do in FY14 when it 
comes to the proposed contract tower closures this year? For 
instance, would the FAA continue those closures next year, or 
utilize the flexibility it has to manage where those budget 
reductions come from?
    Mr. Huerta. The President's budget, which has been put 
forward for Fiscal Year 2014, assumes that the sequester has 
been resolved. If the President's budget is adopted by the 
Congress, we would have adequate funding for a contract-tower 
program.
    Senator Thune. How about if that budget is not adopted?
    Mr. Huerta. Then it depends on what the appropriators 
provide to us.
    Senator Thune. But, you would use that flexibility, in a 
future year, if the appropriators give you that flexibility.
    Mr. Huerta. If, in a future year, appropriators provided 
budgetary flexibility, we would have to see how it's allocated, 
what it looks like and what flexibilities we actually have to 
move money around. Whatever Congress provides to us, we will 
work within it.
    Senator Ayotte. My time has expired, Mr. Chairman. Thank 
you.
    The Chairman. Thank you very much.
    Senator Blunt.

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Thank you, Chairman.
    Mr. Huerta, you mentioned that you had worked to find 
enough flexibility so that essential employees would have fewer 
furloughed days. Is that right?
    Mr. Huerta. Not exactly, sir. What the Sequester Act 
provides for us, and what our Appropriations Act provides, is 
funding flexibility to move 2 percent of available 
appropriations across accounts.
    Senator Blunt. Right.
    Mr. Huerta. In doing that, what we did was balance out 
accounts within the FAA with the focus on maximizing the 
availability of air traffic controllers and aviation safety----
    Senator Blunt. So, are there some people at the FAA that 
will have more furlough days than 11?
    Mr. Huerta. No.
    Senator Blunt. So, there was no priority for essential 
employees, just a priority for all employees, if you could 
achieve it.
    Mr. Huerta. Actually, what we were trying to do was get 
down to 11 for the critical safety-related functions. Without 
moving money around, the number of days would actually have a 
higher number.
    Senator Blunt. Right. But, you're telling me nobody is 
going to be furloughed more than 11 days.
    Mr. Huerta. That is correct.
    Senator Blunt. Right. So, it was all functions, not just--
it helped with the critical functions, since your view, at this 
point----
    Mr. Huerta. Sure.
    Senator Blunt.--is, you treat everybody equally.
    Mr. Huerta. Yes. There is an overriding principle of 
fairness----
    Senator Blunt. Right.
    Mr. Huerta.--that we have to look at, as well.
    Senator Blunt. Well, now, there's no overriding principle 
of fairness if it's a bad weather day. You have a list of 
employees who have to show up, as a priority.
    Mr. Huerta. Sure. And----
    Senator Blunt. There's no overriding principle of fairness 
that day.
    Mr. Huerta. Let's take a bad weather day. One of the things 
that we have looked at is, How do we significantly reduce what 
we spend on overtime? That's a very costly way to staff 
facilities. What we're preserving overtime for is exactly those 
sorts of situations--bad weather days.
    Senator Blunt. All right. Well, what I'm going to do is--
I've got a piece of legislation that I've offered as an 
amendment to the CR, and I'll offer it again, which does 
prioritize the employees--and you have a lot of them--that are 
essential safety employees. I think President Obama, in April 
2011, sent a directive out, ``If there's a government shutdown, 
here are the employees that have to show up.'' President 
Clinton did the same thing when there was a government 
shutdown, in 1995. And you might--I ask--I'm going to ask you 
just to look at that and see if it's something that you would 
be able to look at and maybe even be supportive of, because it 
just essentially does allow some priority for essential 
employees. My view is that the law will probably stand. And we 
can not have a sequester if we just appropriate money below 
that number, or if we appropriate money above the number, then 
I'd like to see what we could do to make this more workable.
    On towers--have you got--had safety reports on the towers 
that you've closed?
    Mr. Huerta. Yes, we have.
    Senator Blunt. Could I get a copy of those?
    Mr. Huerta. What we've done, in looking at the tower 
closures is, we have considered whether there are safety 
impacts----
    Senator Blunt. I'm going to run out of time. Is that a yes 
or a no? Can I get a copy of those?
    Mr. Huerta. We can provide you a response for the record.
    [The information referred to follows:]

    The FAA developed a national safety case to determine what needed 
to be done to convert Towered airports into non-Towered airports and 
captured those standards into a Safety Risk Management Document (SRMD). 
That process identified approximately 20 mitigations that would have to 
be applied at each airport. That airport-by-airport information was 
captured as part of the SRMD and could be made available to the 
Senator.

    Senator Blunt. And, Mr. Dillingham, on towers that affect 
civil aviation, most of those towers also have a combination of 
general aviation and commercial. How important is it to have 
that visual sense of the ground?
    Dr. Dillingham. The opinion varies, but--but, the majority 
of people that we've talked to are very concerned that their 
tower will be closed, and that we're not--we're not at the 
point where remote operations are as safe--or appear to be as 
safe as if you had that vision on the ground. Because the 
weather can be one way at that airport, but if you're a long 
ways away and you don't have the appropriate weather equipment, 
you won't be able to advise the pilot, and it--the situation is 
reduced, as such.
    Senator Blunt. But, I think we also--you're looking to 
figure out, on commercial aviation, how you can have another 
tower handling takeoffs and landings in a commercial site that 
you would--the tower would be closed in. Is that right, Mr. 
Huerta?
    Mr. Huerta. You would use what's called the TRACON, 
Terminal Radar Approach Control. There are three levels of 
facilities: the tower on the airport, the TRACON, which 
provides approach control, and a center which provides high 
altitude traffic separation. And the TRACON would control 
traffic approaching a non-towered airport.
    Senator Blunt. And what you wouldn't have there would be 
the visual sense of the field. But, with some safe--some 
standards--and what I want to be sure we do here is, if some of 
these airports continue to have commercial travel----
    Mr. Huerta. Sure.
    Senator Blunt.--that don't have a tower, I want that to be 
as safe as it can possibly be, but I don't want us to lead 
people to believe that it's less safe than it is by saying a 
tower would be better but we could do it another way.
    Mr. Huerta. We're not doing anything that is not safe, but 
what it does change is how the airport operates. In general, 
what it means is that there is greater separation between 
flights that are operating in a non-towered environment in 
order to provide a safe operation, but, as I said, it is less 
efficient.
    Senator Blunt. And my last question would be, You will 
direct your staff to get the tower safety reports to me and 
anybody else who has asked for them as quickly as you can?
    Mr. Huerta. We will provide you a response for the record.
    Senator Blunt. OK, thank you.
    The Chairman. You got your yes.
    Senator Blunt. I usually stop at ``yes.''
    The Chairman. Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman.
    Administrator Huerta, I truly appreciate your willingness 
to become FAA Administrator.
    [Laughter.]
    Senator Cantwell. And it would have been enough of a 
commitment to be FAA Administrator under the implementation of 
NextGen. That, in and of itself, would have been a herculean 
task. To take on this task in the midst of sequestration, in 
addition, is just another twist and turn. And you have gained a 
reputation in this town for being a straight shooter. My 
interactions with you, you've always been very information-
rich. And so, I was hoping I could follow on with what some of 
my colleagues were talking about, at least in this first round, 
about this tower issue. Because----
    Mr. Huerta. Sure.
    Senator Cantwell.--first of all, the Department of 
Transportation, with so many protected programs, it seems to me 
that the FAA is getting a disproportionate share of the impact. 
Is that a accurate assessment?
    Mr. Huerta. That is correct. The way the sequester law is 
written, it exempts about three-quarters of the budget of the 
Department of Transportation; essentially, all the grant 
programs, which are primarily the Federal Highway 
Administration, Federal Transit Administration. It also exempts 
our airport improvement program, which is about $3.35 billion. 
Therefore, the impact does fall disproportionately on the 
operating parts of DOT, and notably the FAA.
    Senator Cantwell. And unlike, you know, some of the floor 
activity, we had to do more surgical approaches with various 
aspects of the budget. The Moran amendment, which might have 
helped in this area, wasn't brought up. So, you've been having 
to deal with this in a very blunt way. And so, I have a couple 
of questions about that.
    On this tower issue, I think I've mentioned both to you--
and I did in my statement, earlier--about both Paine Field, in 
the middle of a big commercial aviation manufacturer, and Felts 
Field, in Spokane, which is in the same proximity of the 
Spokane Airport, and Fairchild Air Force Base. So, they may 
have gotten beat out by some California cities in suing the 
Federal Government over proposed closures, but they are going 
to be close behind or join that case, because they feel very 
strongly about this. You and I have had a chance to talk about 
this issue as it relates to your analysis. But, I have a 
question: prior to the agency's decision, and then revoking it 
and then saying it'll be implemented in June, was it the FAA's 
intention to remove the equipment from these towers?
    Mr. Huerta. No. We're working through all of those 
decisions on a case-by-case basis. In some instances, local 
airports and sponsors have asked if they could retain 
equipment. In some instances, there is an interrelationship 
between, for example, communications equipment in the tower and 
how it relates to the communication equipment at the airport. 
So, we're working through those with individual airport 
sponsors.
    Senator Cantwell. Well, wouldn't that be very devastating, 
to have this equipment removed? Because then if either the 
sequester issue was resolved or a community response was 
activated, how would you deal with this loss of equipment? So, 
I think we need a clear answer----
    Mr. Huerta. Sure.
    Senator Cantwell.--about equipment, as well. We hope the 
answer is that the equipment stays.
    Mr. Huerta. For the most part, the equipment stays. But, 
there are certain limited circumstances where we might come to 
a different conclusion, and we can talk about those specific 
facilities.
    Senator Cantwell. Well, I think, as my colleagues have 
mentioned, this is a very important issue. When a community of 
a significant size says they're going to sue over this issue, I 
take it very seriously.
    And I hope that, Mr. Chairman, we can resolve this issue, 
either on the floor or some instance, because I think--while 
the public understands tightening of the belt, I don't know 
that they understand that the FAA, within the Department of 
Transportation, is taking a very direct hit on this. And I 
think that it has various communities in my State concerned 
about it.
    Mr. Guzzetti mentioned that part of the safety culture and 
regime that we have to establish is implementing the mandates 
of Congress. And so, obviously, we did, in a major piece of 
safety legislation, ask for various rules on qualification of 
pilots and training and mentoring and database issues and, you 
know, a whole sort of other things. Mr. Dillingham mentioned 
this issue of runway incursions and getting the right data.
    So, is the sequestration going to impact us getting those 
rules?
    Mr. Huerta. Well, the rules have different schedules. I was 
already asked about the issue of pilot qualifications, and I 
said that we would make the August deadline, and we will.
    Another rule that is an extremely high priority for us is 
the rule related to crewmember training. You'll recall, at my 
confirmation hearing last year, I committed to completing that 
rule by October of this year. We are on track, and we will 
complete that rule by October of this year.
    Senator Cantwell. Will the sequestration affect any of the 
rulemaking?
    Mr. Huerta. In other rulemakings, I would expect to see 
delays. But it depends on the availability of hours I have for 
people in the rulemaking office and across the agency to do the 
needed work in a timely fashion. If I have fewer hours 
available to me, it does affect the full scope of everything 
the FAA does.
    Senator Cantwell. Well, as Mr. Guzzetti said, it's 
important to get these mandates fulfilled.
    So, anyway, Mr. Chairman, I think we need to keep looking 
at this issue. I know my time is expired, but it's important to 
understand what isn't going to get done during sequestration as 
these important rules that we mandated--we want to see them 
implemented.
    I didn't even mention the cargo, you know, issue. You know, 
we've implemented rules, but people who are flying in our skies 
want to know that those who are flying cargo planes also meet 
the same kind of standards as other pilots for fatigue and 
operation.
    So, thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Cantwell.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    Administrator Huerta, I wanted to ask you again, also--I 
know you've been asked about the tower closure issue, but 
there's something that I'm trying--I'm struggling with, in 
terms of your criteria of which towers were closed. And let me 
give you an example, in my own state:
    Warfield, in Nashua, New Hampshire, that tower was slated 
for closure; now it has been extended to June.
    Mr. Huerta. Correct.
    Senator Ayotte. We also have an airport, in Lebanon, New 
Hampshire, that has a contract tower--is operated in a contract 
tower. And it is my understanding that Lebanon has less traffic 
operations than Nashua. Can you explain to me why one, and not 
the other, and what--how you distinguish between certain 
towers, why one was closed and why was--why one wasn't?
    I will also add, just as a sort of overlay to all this, 
Lebanon happens to be an airport that receives about 2.3 
million in essential air subsidies every year, despite being 
only 67 or--76 miles, so about an hour and 10 minutes away from 
our much more--larger airport, the Manchester Regional--Boston 
Regional Airport, in Manchester, New Hampshire. And so, can you 
help me understand, What's the distinction? Why close Nashua's 
tower? I certainly don't want you to close Lebanon's, too, but 
it seems a little arbitrary to me.
    Mr. Huerta. We have two categories of contract towers. We 
have the Federal Contract Tower Program and then we have the 
Federal Cost Share Contract Tower Program. If Lebanon is in the 
Federal Cost Share Contract Tower Program, they have funding 
that extends through the Fiscal Year, and we would need to make 
a decision at that point. I will need to get back to you as to 
whether Lebanon falls into that category.
    [The information referred to follows:]

    The Nashua, NH FAA Contract Tower (FCT) was identified for 
defunding since it did not have 150K total operations or 10K commercial 
operations in FY2012. The Lebanon, NH FCT was not considered since it 
had more than 10K commercial operations in FY2012. DOD/DHS identified 
no impacts associated with the defunding of this FCT. Neither of these 
FCTs are part of the Cost Share program.

    Mr. Huerta. With respect to Nashua, though, like all the 
other 148 contract towers, it was a tower that fell below the 
150,000 annual operations and 10,000 commercial operations.
    Senator Ayotte. Do you have operations that fall below the 
standard that you just identified that are not contract towers, 
but actually run the--controlling is done by FAA employees?
    Mr. Huerta. We do.
    Senator Ayotte. So, in fact, I think, the initial list 
proposed for closure would have had about 238 towers, under 
that standard. Is that right?
    Mr. Huerta. That would be correct.
    Senator Ayotte. So, why was the decision made to close all 
the contracting towers, versus the towers that had the FAA 
employees that perhaps could have gone on to do other work?
    Mr. Huerta. It's a question of timing. We would treat all 
towers having similar operations the same way. The contract 
towers enable us to achieve savings because of the contractual 
nature in the current fiscal year. It takes longer to close an 
FAA-staffed tower.
    Senator Ayotte. How much does it cost to run--do the--in 
terms of the FAA-employed tower versus the contract tower, what 
is more expensive, in terms of operations?
    Mr. Huerta. I think, in general, they are comparable, but 
they depend on how the facility is specifically staffed. Every 
tower is staffed with positions up--set up differently.
    Senator Ayotte. OK. I would ask, for the record, for a more 
detailed analysis of what the----
    Mr. Huerta. Sure.
    Senator Ayotte.--cost differential is between those.
    [The information referred to follows:]

    The DOT Inspector General stated in a November 2012 Report (AV-
2013-009) that the average contract tower costs about $1.5 million less 
to operate than a comparable FAA tower.

    Senator Ayotte. And is--was Essential Air Services exempted 
from the sequestration?
    Mr. Huerta. We don't administer Essential Air Services at 
the FAA.
    Senator Ayotte. So, DOT administers it?
    Mr. Huerta. DOT administers it. It's in the FAA's budget, 
but it's administered by the Department.
    Senator Ayotte. So, you don't know whether or not that was 
exempt from sequestration?
    Mr. Huerta. I do not.
    Senator Ayotte. OK. I would appreciate an answer to that, 
because there is over--of course, as I understand it, in 
looking how much is in Essential Air Services, that's a pretty 
substantial amount of funding on an annual basis, particularly 
when we're looking at--in fact, we're $218 million on the 
books, to serve 117 communities for Essential Air Services, and 
yet we're looking for $45 million to $50 million to keep the 
contract towers open, isn't that right?
    Mr. Huerta. Yes.
    Senator Ayotte. OK. Appreciate your getting back to me on 
that. And also, the answer on why Lebanon versus----
    Mr. Huerta. Sure.
    Senator Ayotte.--Nashua, and the cost differential.
    Do you expect that we'll have to pay damages in the suits--
the lawsuits from these communities?
    Mr. Huerta. I can't really comment on the outcome of 
pending litigation.
    Senator Ayotte. And if, hypothetically, we were to pay 
damages for breach of contract under these communities, it 
could potentially cost us more than the closures, depending on 
the level of the damages.
    Mr. Huerta. As I said, I can't really comment on pending 
litigation.
    Senator Ayotte. OK. Well, I appreciate your being here 
today, and I look forward to the follow-up answers.
    And thank you all for being here.
    The Chairman. Thank you, Senator.
    Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. We, of course, are trying to get results, 
Mr. Administrator. Would you consider cost-sharing with the 
local governments on these contract towers?
    Mr. Huerta. Senator Nelson, about 50 communities have made 
proposals to pick up the costs associated with the Contract 
Tower Program. In discussions with those communities, we're 
willing to look at whatever proposal a community wants to make.
    Senator Nelson. But, your problem is one of dollars.
    Mr. Huerta. My problem is one of dollars. In the----
    Senator Nelson. Just don't have the dollars.
    Mr. Huerta.--current fiscal environment, I have to find the 
same amount of savings.
    Senator Nelson. So, the proposals that you have in front of 
you on cost sharing, you have not rejected.
    Mr. Huerta. The proposals that have been made, for the most 
part, are to pick up the cost of the operating tower, as 
opposed to a cost-share scenario. The local communities have 
asked if we would be willing to negotiate an orderly transition 
so that there wouldn't be a gap in service. They asked if they 
could somehow put together a proposal that would enable them to 
secure local funding, would we arrange a handoff that would 
ensure no interruption in air traffic control services? Those 
discussions had a lot to do with our decision to delay closure 
until June 15 to allow ample opportunity for communities to 
consider options such as those.
    Senator Nelson. By you delaying until June, are you still 
going to be able to save the money that you have to under the 
sequester?
    Mr. Huerta. It does reduce our savings by about $8 million.
    Senator Nelson. As you well know, there are airports and 
then there are airports. And some of these airports come from a 
wealthy community with a fairly sizable tax base, and then 
others do not. Is that something that you would consider with 
regard to cost sharing?
    Mr. Huerta. We will consider what a community puts forward, 
but it comes back to the question of the total number of 
savings that I need to achieve. I think that the other thing we 
have to consider is treating communities equitably as we look 
at the full scope of impacts resulting from sequester.
    Senator Nelson. Well, you don't give me a lot to report 
back to my 14 airports. They are very grateful, by the way, 
that some of them that were going to be closed in April are not 
going to be closed until June. And so, we'll continue to work 
on this. And unfortunately, I think most of us think that this 
sequester's not going to go away until the new fiscal year, so 
we are facing a problem--as we would say in Florida, ``a 
problema.''
    Madam Chairman, I want to ask you--you've got a pilot study 
going on, at the Orlando Airport, on runway status lights so 
that if, suddenly, an airplane gets onto an active runway that 
also has an inbound flight, that the lights change color. It's 
to alert the inbound aircraft. Has this proved to be a useful 
tool for pilots?
    Ms. Hersman. The NTSB has made runway safety and surface 
operations a priority. It's on our most-wanted list. But, the 
specific study you have mentioned is being handled by the FAA. 
We do think runway status lights can help prevent runway 
incursions. And I'll defer to the Administrator to address it.
    Senator Nelson. OK. Well, while you're still talking, let 
me just ask you, Since you're the head of safety, what do you 
think about the closure of the contract towers?
    Ms. Hersman. The FAA is faced with many difficult 
decisions, as all of us are, as our budgets are impacted. The 
NTSB has not looked at the safety of towered versus non-towered 
airports, specifically.
    But, the reason we enjoy such a good safety record in 
aviation is because of the redundancies, the multiple layers of 
safety. One of the things that we do know is, when you 
eliminate those layers, you can introduce risk into the 
environment. We have investigated accidents that occurred with 
commercial service at non-towered airports. There are safety 
benefits in the aviation system, and those redundancies are 
important.
    Senator Nelson. Runway status lights?
    Mr. Huerta. Senator Nelson, yes, runway status lights do 
show great promise. We have a number of studies around the 
country. It is a difficult program to implement, because they 
have to be carefully sequenced with construction programs at 
the airport. As the Chairman mentioned, runway incursions are 
an area of high priority, not just for the NTSB, but also for 
the FAA. We have a number of technologies that we're testing. 
They do show great promise for reducing runway incursions.
    The Chairman. Senator Pryor.

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman. And thank you for 
your leadership and concern about these issues.
    I want to thank our panel for being here today. I know that 
you've been asked quite a bit about the contract tower program, 
but let me follow up just a couple of questions there.
    What--and if this has been asked already, I apologize, Mr. 
Huerta--but, what communication is the FAA currently having 
with the contract towers selected for closing? Are you talking 
to them at all?
    Mr. Huerta. We've had a lot of discussions when we made the 
initial announcement, and we've had individual discussions with 
specific communities about how they would like to move forward. 
A number of communities--around 50 or so--have spoken with us 
very directly about our willingness to work with them on a 
handoff of responsibility for funding. That is something that 
we've been taking quite seriously, because if a community does 
want to step up and cover the cost of funding their tower, we 
very much want to work with them in that regard.
    Senator Pryor. OK. But, have you talked to all the 
communities that have been impacted?
    Mr. Huerta. Well, we've had a number of conference calls 
with the association that represents all the contract towers, 
and we have provided regular communication to all the 
communities.
    Senator Pryor. All right. Let me ask about your criteria 
and the things you consider when you do this. We have one 
example in Arkansas, Texarkana, Arkansas, which straddles the 
line between Texas and Arkansas. And that airport has a limited 
line of sight. And did you all take that into consideration 
when you made the decision about how important the tower is to 
that particular airport?
    Mr. Huerta. In addition to the criteria mentioned, such as 
the number of operations, number of commercial operations, how 
they serve or benefit an adjacent hub airport, how they might 
relate in serving broader interstate objectives, we are looking 
at the facility itself. How it actually operates within the 
framework of overall day-to-day operations.
    It is important to point out that every one of these 
towers, except one, is closed for a significant portion of 
every day. So, they have existing rules of how to operate in a 
non-towered capacity. Therefore, when they convert to 24-hour 
non-towered operations, they simply revert to those established 
rules.
    Yes, it does have impacts on efficiency, as I've talked 
about, but there are close to 5,000 public-use airports in the 
country that operate every day in a non-towered capacity. The 
important thing is making sure that you have the procedures in 
place to operate in a safe fashion.
    Senator Pryor. OK. Well, you mentioned one of the factors 
you considered was whether they have commercial flights, et 
cetera.
    Mr. Huerta. Sure.
    Senator Pryor. This particular airport, in Texarkana, also 
handles 5,000 military transits a year. You didn't mention the 
military in your statement. And this runway 04 has the only ILS 
back-course approach within range of several military training 
bases. So, did you take military usage of the Texarkana Airport 
into account?
    Mr. Huerta. We consulted with the Defense Department, and 
we did accept every one of the priority contract towers that 
they felt needed to be kept open.
    Senator Pryor. OK. We have a similar situation at the 
Fayetteville, Arkansas, Airport. The Little Rock Air Force Base 
is, I don't know, 150 or so nautical miles from there, and the 
Little Rock Air Force Base is a C-130 training base. They like 
to land in Fayetteville, because it's a little more urban; it's 
in a hillier, mountainous environment, and it does have a 
shorter runway. So, did you consult with the Air Force before 
you made that decision, on Fayetteville?
    Mr. Huerta. We consulted with the Air Force to identify 
their priority towers, nationwide, and we accepted every one 
that they identified.
    Senator Pryor. OK. Have you shared the criteria that you've 
used with the airports? And the reason I ask is because the 
City of Fayetteville has told me that they've been unable to 
get your criteria that you used. And, in fact, they've 
indicated that you really haven't shared much information with 
them at all.
    Mr. Huerta. 150,000 flight operations, 10,000 commercial 
operations, that's the first cut; below that threshold. Second, 
do they serve a function that supports a large hub airport. 
Third, are there national security or national defense 
considerations that we determined, in consultation with the 
Department of Defense and the Department of Homeland Security, 
should be considered. One thing that we did not consider is 
impact on a local community. We did look at impacts that exist 
far beyond a local community.
    Senator Pryor. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator.
    And now, Senator McCaskill----

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. Thank you very much, Mr. Chairman. And--
--
    The Chairman.--who has returned----
    Senator McCaskill. Beg your pardon?
    The Chairman.--from a conversation, giving advice to the 
White House. Am I right? I'm impressed.
    Senator McCaskill. No. I was not----
    The Chairman. No?
    Senator McCaskill.--giving advice to the White House. I 
was----
    The Chairman. I thought you----
    Senator McCaskill. I was yelling at someone.
    [Laughter.]
    The Chairman. OK. Well, that's the same thing.
    [Laughter.]
    Senator McCaskill. And I came back to yell at poor Mr. 
Huerta, now.
    [Laughter.]
    Senator McCaskill. I just got warmed up.
    First, thank you all for being here. I appreciate it very 
much.
    I have a thing about rules in the government, and that is, 
they only work if they're respected. And if the rationale for a 
rule is specious or arbitrary, it not only is frustrating for 
people who are impacted by the rule, it undermines every other 
rule that is promulgated by the government.
    Which brings me to the rule on personal electronic devices 
on airplanes. It appears to me to not be grounded in any kind 
of data or evidence whatsoever. And so, I would first ask you, 
Mr. Huerta--I have searched, I have asked, I have interviewed 
many, many experts. My staff has. Is there some scientific data 
that is hiding from my staff that would indicate a Kindle being 
on during takeoff could have any possibility whatsoever of 
interfering with the electronics of an airplane?
    Mr. Huerta. The question has more to do with--first of all, 
let me back up.
    This is a matter that is of great personal interest to me. 
One of the things that I have asked our staff for, through an 
aviation rulemaking committee, is to look into the nature of 
these rules. Are there things that we could do to change them 
in the future?
    The rules that currently govern the use of portable 
electronic devices have been around, as you mentioned, for a 
very long time. The current rulemaking framework is set up such 
that any airline can conduct tests to determine that there is 
no interference. If that is determined, then they would be free 
to adopt a program for portable electronic----
    Senator McCaskill. And I'm----
    Mr. Huerta.--devices.
    Senator McCaskill.--aware of all that. It's, as you know, 
very impractical, for each individual airline to take on the 
cost of testing each individual instrument and making some 
certification to you on each individual interest--instrument by 
each individual airline.
    Let me ask it this way. Is the rule supposed to apply to 
general aviation?
    Mr. Huerta. That's a good question. The rule, as it's 
currently designed, focuses on commercial aviation. I don't 
know. I'll have to get back to you with that.
    [The information referred to follows:]

    Regulations for PED use apply to general aviation (see part 14 CFR 
Sec. 91.21) with one major difference. In general aviation, the 
operator of the aircraft (who is also the pilot) can allow PED use if 
the pilot has determined that it will not interfere with the 
communication and navigation systems on the aircraft. For all other 
operations, the airline (part 119 certificate holder, termed ``the 
operator'') must make this determination. In general aviation, the 
pilot is concerned with the individual aircraft. Responsibility for the 
control of PED use as well as any impact the PED may have is placed on 
the pilot. In an airline, the air carrier must take responsibility 
because the public is placing its trust in the airline to ensure 
passenger safety during flight.

    Senator McCaskill. Well, I will tell you that it is not 
followed in general aviation. People are not told to turn off 
their electronic devices. Because everyone who flies those 
airplanes knows that they're not a risk.
    Let me tell you this story. This happened many, many times 
as I was on a lot of airplanes, the last 2 years. A woman who 
clearly was flying for the first time. We were going out to the 
runway, and almost tearfully, she grabbed the flight attendant 
as she went by and said, ``Oh, my God, I have left my cell 
phone on, and it's in the overhead.'' She was very upset. And 
the flight attendant, of course, said what I've heard flight 
attendants say a million times, ``Don't worry about it. Stay 
seated and in your seatbelt.'' Right? So, she knew that phone 
was on, up in the overhead, and we were taking off. She was 
crying in her seat, because she was sure she was going to bring 
down that airplane.
    And, as you well know, there are dozens of people that 
inadvertently leave their phones on during takeoff and landing, 
or leave on something else during takeoff and landing. The 
pilots are using iPads right now. These electromagnetic signals 
do not stack. There's not any difference, scientifically, 
between one iPad in the cockpit and 400 in the airplane. And 
your people are still telling us that, even if the ARC makes a 
rule recommendation, that they're still going to recommend 
``not during takeoff and landing,'' even if it's just for a few 
minutes.
    In your rule, you actually say that it's about distraction 
and missing significant safety announcements and personal 
injury. I've never had a flight attendant say, ``Put down your 
copy of `War and Peace,' '' which would be a much bigger 
personal injury and just as much of a distraction as reading 
`War and Peace' on a Kindle, except a Kindle would be a lot 
safer.
    So, this is a great example of a rule that really is 
arbitrary, at this point, and I am anxious for someone to 
document to me why there is any reason that the flying public 
should be made to be feel insecure about someone next to them 
who hasn't turned it off quickly enough. I don't think you 
realize the tension that's on an airplane around this. I mean, 
the flight attendants get tense. The people who don't turn them 
off--somebody sitting next to you, they haven't turned them 
off, they get worried; they think they're going to crash.
    I just feel really strongly that this is a great example of 
a rule that needs to go away. And so, I would ask you if there 
is scientific data that is going to support continuing this 
rule in any way beyond the ARC's recommendation, which I 
understand is going to come in July. And, by the way, I would 
like you to make that process open. They're closed now. There's 
no reason. Their consideration should not be closed; they 
should be open. If we're not going to be able to have a new 
rule by Christmas, I would really like something in writing 
from you on the record as to what the problem would be around 
that.
    Mr. Huerta. Certainly. As you said, the ARC will complete 
its rule during the summer. The reason that we convened the 
rulemaking committee was to look at precisely the question that 
you're talking about. The ARC is made up of all of the 
interests, not just those that are in support, but also those 
that have operational concerns about how any changes would be 
implemented. And I'm very much looking forward to the findings, 
and we will act on them.
    [The information referred to follows:]

    The Portable Electronic Device Aviation Rulemaking Committee (PED 
ARC), which was convened to review current policies and procedures, is 
completing its review and will submit its recommendations to the FAA by 
July 31, 2013.
    The major impediment to allowing unlimited use of PEDs in flight by 
December 2013, if this is an ARC recommendation, is that all existing 
technical guidance for demonstrating acceptable use of portable 
electronic devices in flight (i.e., non-interference with key systems) 
requires aircraft operators to perform aircraft tests and evaluations. 
This guidance, prepared by technical committees of experts from 
aircraft manufacturers, airlines, and avionics manufacturers, requires 
detailed airplane tests and evaluations to ensure safety of the 
operation. Most airlines, with a number of different airplane models in 
their fleets, would have difficulty completing these tests and 
evaluations to allow unlimited use of PEDs for the entire flight, 
including take-off and landing, by December 2013. We would expect ARC 
recommendations for streamlined testing and analysis of critical 
aircraft systems that can be done by the airline, to allow expanded use 
of PEDs.

    Senator McCaskill. And when you look into the GA question 
that I asked, if you would also look into whether or not there 
is an announcement made on Air Force One that all devices must 
be turned off.
    Mr. Huerta. Certainly.
    [The information referred to follows:]

    Air Force One is owned and operated by the Department of Defense 
(DOD). DOD has authority to approve its own operations.

    Senator McCaskill. Because if it's safe enough for the 
President of the United States, it's safe enough for the flying 
public.
    Thank you, Mr. Chairman.
    The Chairman. Senator McCaskill, I don't care what the 
White House said to you or you said to them. This has been a 
treasured 5 minutes.
    [Laughter.]
    Senator McCaskill. He's a good guy. He's working hard, but 
I want that rule changed.
    The Chairman. You--more than any human being on the face of 
the Earth, you want this rule changed.
    [Laughter.]
    The Chairman. And I think she may have a point. I don't 
know anything about it, but I'd like to ask Chairwoman Hersman:
    We're terrific at putting in rules and regulations and just 
leaving them, because they're sort of the safe thing to do when 
you start out. I have heard the same thing, that pilots are 
using iPhones, or whatever--iPads--in the aviation cockpit. 
I've heard people who argue, exactly like she does, and I sort 
of return to my, ``Oh, no, this is what we do in aviation.'' 
And Senator McCaskill is sort of moving me on this subject. And 
I think it's good that she is, because it drastically affects 
so many people.
    Now, you could say, ``Well, what if everybody was using it? 
Would that make a difference?'' And I don't know the answer to 
that. But, I think it's a fair question.
    Excuse me, Senator Coats, I interrupted your turn.
    I think it's a fair question. I think she deserves an 
answer.
    And, Chairwoman Hersman, I think, to the extent that you 
have views on this, I'd like to know what they are. Because if 
it sounds like a safety rule--I don't need to know now, because 
I've interrupted Senator Coats--but, we do have a practice of 
making rules and regulations, and sort of sticking by them. No 
matter if the technology or the facts, or human nature, 
whatever it is, takes us to quite another place. I think it's a 
fair question to raise, would have tremendous significance to 
an awful lot of people. And if there is any danger in it, I 
don't think she would want to touch it--Senator McCaskill--any 
more than I would. But, if it allows people to get a lot more 
work done or a lot more accomplished in their own trip, then I 
think it's worth taking a look.
    Let me just ask you--and, again, I apologize to the good 
Senator--is there a way to find out, conclusively, if it 
interferes with flight? The process, the carrying out of 
flight? Does that exist?
    Either one.
    Ms. Hersman. In our accident or incident investigations, we 
have never identified a personal electronic device in the cabin 
affecting the safety of flight. But, we have identified 
situations where the cockpit crew have been distracted by their 
devices. In fact, we just had a----
    The Chairman. Well, that's like distracting the pilot.
    Ms. Hersman.--helicopter EMS accident, where we had a 
texting helicopter pilot.
    The Chairman. Yes.
    Ms. Hersman. We have identified portable electronic 
devices, in the cockpit, being a distraction, but have not 
identified safety issues with their use in the cabin.
    The Chairman. But, there's a huge difference there, because 
the pilot's flying an airplane.
    Mr. Huerta. He's flying the plane.
    Ms. Hersman. Absolutely.
    The Chairman. Senator----
    Ms. Hersman. Absolutely.
    The Chairman. OK.
    Well, I'd like to pursue it, but I can't, because Senator 
Coats is a very dear friend of mine, and he has a chance to be 
heard.

                 STATEMENT OF HON. DAN COATS, 
                   U.S. SENATOR FROM INDIANA

    Senator Coats. Well, thank you, Mr. Chairman.
    I'd be--this is an interesting topic, and I'd be willing to 
yield some of my time if you want to consume more.
    But, I am--I'm anxious to hear what the results of the 
study are, because I have--you know, we now have to carry two 
electronic devices, one for official use and one for personal 
use. And several times, I've found my--one of them in my 
briefcase, still turned on, when I'm on an airplane. I had--I 
didn't break into tears, but I was a little concerned that 
maybe I was interfering with somebody's communications.
    It's comforting to hear that there are no incidences of 
interference from the passengers, but--whether it's us texting 
when we drive or pilots texting while they're flying, that is a 
concern. Now I've got to worry, not only about the person in 
front of me shutting off their device, and me shutting off my 
device, I have to worry about the pilot shutting off his 
device. So, hopefully you can get us that answer, sooner rather 
than later.
    I want to ask you a question, Administrator Huerta. First 
of all, let me commend the FAA, the way you handled the process 
in reconsidering the exemption for cargo carriers for pilot 
flight time, duty, and rest regulations. I guess--it's my 
understanding there was some errors that may have been made in 
developing the cost-benefit justification, but the FAA did do 
the right thing, and did its due diligence to make sure that it 
got it right. So, I think we commend you for that, taking that 
action.
    But, along those lines, as you know, the pilot training 
regulations passed in the 2010 legislation--and some executive 
orders were issued by the President--both President Clinton and 
President Obama--clarifying that the agency specifically must 
adopt a regulation--I'm quoting now--``only upon a reasoned 
determination that its benefits justify the costs.''
    So, my question is this. Has FAA conducted that study on 
increased pilot training and experience requirements? And, if 
so, what did you learn?
    Mr. Huerta. That is still an ongoing rulemaking. Part of 
the work that we do, with every rule, is the development of a 
cost-benefit analysis. That is work that we've had underway for 
a while.
    It is our expectation--and I've committed to this--that we 
will complete that rule by October of this year, and make it 
available for everyone to see at that time.
    Senator Coats. OK, thank you.
    Talk to me a little bit about the relationship, in hiring 
pilots, between flight hours and proficiency. Is there 
flexibility there? I mean, it a--just a hard line, in terms of, 
``You're going to fly this kind of plane, you've got to have 
this many hours, no matter how proficient you might have been 
in the testing, in the procedures, in the knowledge, et 
cetera''?
    Mr. Huerta. That is also the subject of an ongoing 
rulemaking. Congress called upon us to develop a new pilot 
qualification rule by August of this year. The provisions of 
law under which that rule is developed become self-executing on 
August 1. Unless we promulgate a rule, then 1,500 hours becomes 
the required number of flight hours of experience that a pilot 
has to have to pilot a commercial aircraft.
    Now, the rule that we are currently looking at considers 
things such as military experience, that can count toward 
meeting of the hours requirement. And that rule will be 
completed before August 1.
    Senator Coats. And would you concede, though, that it's 
possible that--two candidates; one could have 1,500 hours and 
really not be proficient, and another could have 1,200 hours 
and be very proficient. How do you adjust for that kind of 
thing, particularly at a time when some people are saying we 
may have shortage in hiring qualified pilots?
    Mr. Huerta. That is certainly a possibility, but becoming a 
pilot requires more than just experience. That's where the 
training becomes important, that's where the rules that we've 
promulgated relating to flight duty and rest become important. 
How does--all--how does an individual conduct themselves in all 
aspects of carrying out their job, to ensure that they're 
proficient and are maintaining the highest levels of safety?
    Senator Coats. But, the 1,500 is a bottom--minimal 
requirement, regardless----
    Mr. Huerta. It's----
    Senator Coats.--of how that person has performed in every 
other category.
    Mr. Huerta. As the law was passed by Congress, unless we 
complete our rulemaking and that rulemaking provides for things 
that can serve as credit against the 1,500 hours, then, on 
August 1, 1,500 hours becomes self-executing.
    Senator Coats. I see. So, that's possible, that your 
rulemaking would allow some flexibility for that.
    Mr. Huerta. That is correct.
    Senator Coats. Thank you.
    Time's expired, Mr. Chairman.
    The Chairman. Thank you, Senator Coats.
    Senator Thune has a question.
    Senator Thune. Thank you, Mr. Chairman.
    And I want to wrap up here, pretty quickly, but first want 
to drill down on a couple of these budget questions.
    I also want to say to the Senator from Missouri's proposal, 
that I will lend bipartisan support to her request that we 
revisit this issue of banning the use of hand-held devices on 
airplanes.
    And, at a minimum, I was telling you, Mr. Chairman, that, 
in my part of the country, we de-ice a lot, and, when the door 
closes, even if you're going to the de-icing pad, they tell you 
that you have to shut these devices down. And it just seems 
like that these ``rules for rules' sake'' sometimes really go 
beyond what's even practical, let alone safe.
    So, let me, if I might, just ask the question. Mr. 
Administrator, I mentioned, earlier in a question about the 
transfer authority that you have, allowing for 2 percent 
transfers between activities. That does not require advance 
permission----
    Mr. Huerta. That's correct.
    Senator Thune.--correct? OK. So, in the rest of this year, 
fiscal 2013 and FY-2014, would you utilize that 2 percent 
transfer authority to protect airspace users from furloughs and 
tower closures?
    Mr. Huerta. That doesn't provide for enough resources to 
protect us from furloughs and tower closures.
    Senator Thune. In addition to that 2 percent transfer 
authority, would you request permission to reprogram funding to 
protect airspace users from tower closures and furloughs, as 
soon as possible? That's also something that you can ask for.
    Mr. Huerta. We can ask the Appropriations Committee for 
reprogramming authority. That also would not get us there 
completely.
    Senator Thune. OK. You have, in your budget within the 
operations account $179 million for travel, $134 million for 
supplies, and $541 million for consultants. And I guess my 
question is, since those two things don't get you there, are 
these areas in which you would be willing to find some savings 
to offset the sequester cuts so that the towers don't have to 
close?
    Mr. Huerta. We've reduced travel by 30 percent by 
eliminating all but operational travel. For example, a radar 
technician needing to travel to a site to repair a radar that 
might go out, or travel associated with an aviation inspector 
needing to inspect a manufacturer of avionics or some other 
aviation equipment would be the type of travel that is 
permitted.
    The $500 million that you talk about with respect to 
consultant contracts, that is a budgetary category that takes 
account of everything which is a non-construction contract. The 
largest single contract in that category is the services 
contract that I previously mentioned, which is FAA's 
telecommunications infrastructure, the communication network 
that a private company provides for use at all the FAA 
facilities. That accounts for about half of the amount.
    The next largest contract is for the services for flight 
service stations. Those are services that are provided to 
pilots.
    The third largest contract is for the contract towers that 
have generated so much concern. Of the amount you mentioned, 
that is actually what you would call ``traditional consultant 
services,'' is around $20 million. And yes, we have gotten rid 
of the vast majority of that.
    Senator Thune. Well, as you know, there's a bill up here 
that's got substantial bipartisan support--I think, 29 
bipartisan cosponsors on that particular issue. And it seems, 
to me at least, when you look at the FAA budget, and you break 
it down, and you look at the personnel accounts, which is about 
70 percent, you still have about 30 percent of your budget that 
is in these other categories. And I certainly would hope that 
you would give careful scrutiny and scrub those areas of the 
budget to see what might be done to prevent something from 
happening that many people up here certainly are concerned 
about, as well as people all across the country.
    So, thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman.
    And, Administrator Huerta, could we add to this list, too, 
What is the impact on NextGen implementation from 
sequestration? If you have a general idea, you can tell me 
now--if you want to get back to us--but, what will the impact 
on that be?
    Mr. Huerta. I'll provide you a general sense of what we're 
seeing this year, and then, for the record, provide a more 
detailed response.
    [The information referred to follows:]

    President Obama has proposed a workable solution to our Nation's 
budget challenge and the FAA's 2014 budget request of $15.6 billion is 
part of that. This budget request supports our critical safety 
programs, modernizes our aviation infrastructure, and strikes a balance 
between maintaining current infrastructure while deploying key NextGen 
programs to support the growth and changes in aviation. It does all 
this at funding levels that are $351 million lower than FY 2012. This 
is a 2.2 percent decrease, which is part of the President's effort to 
reduce the deficit.
    If the President's Budget is not adopted, FAA will have to consider 
all of the severe cost-saving measures debated this year, including 
employee furloughs, which in turn could have an impact on the 
development and implementation of NextGen. In addition, given the 
limited number of days employees can be furloughed, reductions in force 
will also be considered for all segments of FAA's workforce.

    Mr. Huerta. Within the current year, the principal impact 
we will see is related to the need to bring operational 
personnel back to their home facilities to work on day-to-day 
operations. What that means is that we're pulling individuals 
off of what we call collaborative workgroups. These are 
workgroups that we set up with FAA employees to work with 
contractors and to work with our engineering and planning 
staffs that are deploying NextGen. Their job is to actually 
work through the details of how is the system going to handle 
live traffic.
    This is an extremely important aspect of what we do. In the 
past, the agency hadn't done as much of this. That has gotten 
the FAA into trouble on large programs. For example, a few 
years ago, there was a program called DRAM, which is the 
modernization of our en route platform. Once we adopted these 
collaborative workgroups, we found that we had a much more 
seamless transition to new technology. So, the need to pull 
back resources and personnel from these activities will delay 
the implementation of some of these new technologies.
    Senator Cantwell. Aren't----
    Mr. Huerta. We're viewing that----
    Senator Cantwell. Aren't there some competitiveness issues 
with us getting NextGen implemented?
    Mr. Huerta. Well, where it affects us right now is in our 
program called the Optimization of Airspace Procedures. That's 
the deployment of performance-based navigation that has the 
ability to reduce fuel burn, reduce costs, reduce emissions and 
noise impacts in local communities. We have a number of these 
procedures around the country. You have probably one of the 
best known up there in Seattle, an initiative called Greener 
Skies.
    It does slow down the deployment of those procedures, for 
two reasons. One is, we don't have the people that can work 
through the operational details so that we're able to deploy 
them between now and the end of the fiscal year. The second 
reason that developing and maintaining procedures, in and of 
itself, is an expenditure: it involves paying for contractors, 
for design, for publication and training.
    Senator Cantwell. So, I'd love to get more details----
    Mr. Huerta. Sure.
    Senator Cantwell.--I mean, a written response, so that we 
could share that with our colleagues, about what the impact on 
that is.
    I'd like to turn--so, what is the--what are the mechanisms 
the FAA is going to use to resolve the adverse conditions on 
the 787 issue? And how will you--I mean, is that something the 
Secretary does as an official final decision, or how do you 
decide about ETOP issues, all of that? Could you give us some 
idea?
    Mr. Huerta. Sure. What Boeing presented to us last month 
was a certification plan. The certification plan had several 
components to it, but it essentially resulted in a redesign of 
the battery systems within the airplane, and a containment 
system to provide another layer of safety. We asked for certain 
thresholds to be met, in order to maintain the highest levels 
of safety. Once the certification plan was approved by us last 
month, Boeing embarked on a series of tests that we required, 
about 20 distinct tests, to prove that the system would operate 
as designed.
    Boeing has completed the testing, and has provided a very 
extensive set of documents to the FAA. Those documents are 
currently under review. That review will result in us making a 
final determination as to whether the aircraft can return to 
flight.
    Coincident with that review was a review where we went back 
and looked at our original determination relating to ETOPS 
flight. The question there is, when the airplane was grounded, 
it was certified for ETOPS of 180 minutes. So, the question for 
us was, Would we return it to service at that level? That 
review is a concurrent review that is ongoing. When we make our 
final determination with respect to return to flight, we will 
also address that question.
    Senator Cantwell. So, is this something the Secretary 
decides, or the FAA decides, or----
    Mr. Huerta. This is a determination and a recommendation 
that's made by all technical experts. It was my decision to 
ground the fleet, and I would be the one making the 
recommendation, going forward.
    Senator Cantwell. I see my time is expired, Mr. Chairman.
    The Chairman. Actually, so is mine.
    Senator Cantwell. Oh.
    The Chairman. The--I've got a cybersecurity thing that I 
have to be at. And what you can do, Senator Cantwell, is to 
close out this hearing and continue your line of questioning, 
because they can't move.
    [Laughter.]
    The Chairman. Would you like to do that?
    Senator Cantwell. I----
    Mr. Huerta. That's fine.
    The Chairman. I think you would.
    [Laughter.]
    Senator Cantwell. Well, there are many issues, Mr. 
Chairman, that we could continue to go over, but--I've asked my 
questions for today, but--I don't know whether the Ranking 
Member wants to stay. And I'm happy to stay, if that's the----
    The Chairman. Oh, my schedule just changed.
    Senator Cantwell.--if that's----
    The Chairman. So, you go right ahead.
    Senator Cantwell. And continue and ask questions, Mr. 
Chairman? Or----
    The Chairman. Probably not. I mean, I--you don't want to 
get me started on general aviation, do you? But, you go ahead.
    Senator Cantwell. OK.
    Well, the only other question I had was for Mr. Dillingham 
about the process for--with composites. We were very involved 
with composite manufacturing and getting the FAA Center of 
Excellence established, which was a program to help 
collaboration between research institutions, the FAA, and 
manufacturers identify issues. And I think you did a report, on 
that certification process, in which you think that that worked 
well. Is that----
    Dr. Dillingham. Yes, that's what----
    Senator Cantwell.--the model for what we should be doing? 
Is that what----
    Dr. Dillingham. We looked in depth at the certification of 
the composite aspect of the Dreamliner 787. And, in all cases, 
we found that FAA did an excellent job. It could be a model 
for, you know, future situations, such as Attlee does. Clearly, 
composites are going to be an ever-increasing part of aviation 
manufacture, as it has been for decades now; it will continue 
to grow.
    Senator Cantwell. And, Mr. Secretary, in all the balancing 
of these issues--NextGen, the towers, sequestrations, battery 
issues, all of that--how do you prioritize these rulemakings 
that Mr. Guzzetti was talking about being so essential? Do you 
prioritize them in a ranking?
    Mr. Chairman, having oversight of the Coast Guard Committee 
for a while, and then being challenged with the implementation 
of the--what was then called Deepwater Acquisition program, we 
got to a point where so many members had so many interests in 
these various priorities--and I could go into this issue of the 
helicopter and medical issue.
    But, do you prioritize these rulemakings within the agency 
so that we can give members some idea of their prioritization?
    Mr. Huerta. We go through a regular process of identifying 
what the deadlines are for rulemakings, given available 
resources. Every rulemaking requires a level of technical 
expertise associated with developing and ultimately 
promulgating and implementing a rule. Those actions rely on 
staff that are available or contractors that are available to 
perform the needed cost-benefit analysis that Senator Coats 
asked about. It's marrying the technical expertise that we have 
with the timetables that have been developed, the complexity of 
the rule, and then evaluates the benefit that the rule will 
enable us to achieve as a result of its implementation. That's 
a regular process that we do go through.
    Senator Cantwell. Well, it would be, I think, nice for the 
larger aviation community to have a sense of the prioritization 
of those rules. I mean, I'm sure some of it can be 
simultaneously, but----
    Mr. Huerta. Sure.
    Senator Cantwell.--in the context of people being able to 
weigh in on that prioritization, so we just have a little more 
definition about what's coming next, and when. And I know----
    Mr. Huerta. Sure.
    Senator Cantwell.--that you commented today, which was 
great, on the actual pilot rules that had to be implemented, 
and their timeframe. But, since we just went through this 
entire list of things that you're responsible for in a 
shrinking budget, I think part of our challenge is to 
communicate what--exactly what that means from a timeframe to 
our constituents. So----
    Mr. Huerta. Sure.
    Senator Cantwell.--I would appreciate that.
    [The information referred to follows:]

FAA Priority Rules for 2013
1.  Pilot Certification and Qualification Requirements (Final Rule)--
        This rule amends the eligibility and qualification requirement 
        for pilots engaged in Part 121 air carrier operations and 
        modifies requirements for an airline transport pilot 
        certificate (ATP). Addresses requirements of PL 111-216, the 
        Airline Safety and Federal Aviation Administration Extension 
        Act of 2010, which also has a self-enacting provision requiring 
        ATP that will go into effect August 2, 2013.
2.  Air Ambulance and Commercial Helicopter Operations (Final Rule)--
        The rule addresses 13 NTSB recommendations and the causes of 
        over 150 helicopter air ambulance and commercial helicopter 
        accidents that occurred between 1991 and 2010 in which over 250 
        people died. Addresses requirements of FAA Reauthorization.
3.  Safety Management Systems (SMS) for Part 121 Certificate Holders 
        (Final Rule)--This rule would require 14 CFR Part 121 
        certificate holders to establish a safety management system. It 
        responds to requirements of PL 111-216, The Airline Safety and 
        Federal Aviation Administration Extension Act of 2010. 
        Qualifications, Service and Use of Crewmembers and Aircraft 
        Dispatchers--N&O (Final Rule) - This rule will amend training 
        programs by requiring training in areas that are critical to 
        safety. Addresses requirements of L 111-216, The Airline Safety 
        and Federal Aviation Administration Extension Act of 2010.
4.  Small UAS (NPRM)--The notice proposes specific rules for the 
        operation of Small Unmanned Aircraft Systems (sUAS) in the 
        National Airspace System (NAS). Currently, public and civil 
        aircraft (commercial and for hire only) operations must be 
        approved on a case-by-case basis to operate in the NAS. 
        Addresses requirements of FAA reauthorization.
5.  Drug and Alcohol Testing for Foreign Repair Stations (ANPRM)--This 
        proposed rule would require controlled substance testing of 
        some employees working in foreign repair stations. Addresses 
        requirements of FAA reauthorization.
6.  Supercooled Large Droplet Icing Conditions (Final Rule)--This 
        action addresses safety concerns about the adequacy of icing 
        certification standards. It would address two NTSB safety 
        recommendations.
7.  Airport SMS (SNPRM)--This proposal would require certain 
        certificate holders under 14 CFR part 139 to establish a safety 
        management system (SMS) for its entire airfield environment 
        (movement and non-movement areas) to improve safety at airports 
        hosting air carrier operations.
8.  Flight Simulation Training Device Qualifications and Standards 
        (NPRM)--This proposal would modify the flight simulation 
        training device qualifications requirements to improve 
        evaluation and testing methods for extended envelope training 
        tasks. This rulemaking will support the training tasks required 
        in the training rulemaking.

    Senator Cantwell. Mr. Chairman, thank you very much.
    The Chairman. All right.
    I'm going to defer on general aviation, although I did, in 
the briefing, read their statistics, as compared to legacy 
aviation, and I was stunned by the difference with respect to 
safety deaths, the rest of it.
    This was an important hearing. I don't think that we 
totally connected, the way I would have liked.
    And, Mr. Administrator, I think we really do want to find 
out--I'm pretty sure I speak for Senator Thune on this--that--
what sequestration actually does. And what we got was a series 
of things, as opposed to a prioritized laundry list of 
sacrifices, which, in the end--I mean, in other words, we 
could--I come out of this hearing with the feeling we can do 
it, we can make it, somehow. And I'm not sure if I'm coming out 
with the right feeling, if sequestration sticks around. And--
but, I don't say that to elicit a response; I simply say that 
to--it's difficult, on a subject like this, to make it 
resonate, and particularly when it affects so many people, 
potentially, and it's such a large problem.
    But, anyway, we've worked at it, and grinding away is part 
of the deal in the U.S. Congress. And we have done that. And I 
thank all of you very much.
    And this hearing is adjourned.
    [Whereupon, at 4:30 p.m., the hearing was adjourned.]
                            A P P E N D I X

            Prepared Statement of Hon. Frank R. Lautenberg, 
                      U.S. Senator from New Jersey
    Mr. Chairman, the past few years have been the safest in history 
for America's aviation system. Although industry fatality rates are at 
all-time lows, the Federal Aviation Administration (FAA) has recently 
had to address several high profile safety incidents, reminding us that 
we must remain vigilant and never let safety take a back seat.
    One major threat to aviation safety is sequestration. Because of 
the sequester's cuts, the FAA will furlough air traffic controllers and 
limit hours or close down service at some towers, including at Newark 
Liberty, Atlantic City, and Trenton-Mercer Airports in New Jersey. 
These furloughs and closings will harm local communities, affect 
working families, and strain a system that already suffers from too 
many delays.
    The FAA predicts that due to budget cuts, passengers at major 
airports-such as Newark Liberty--could experience delays of up to 90 
minutes during peak hours. I opposed the bill that created 
sequestration because I was concerned about these types of damaging 
consequences. And we are now seeing them in every program. Whether from 
cuts to Head Start, medical research, or our aviation system, 
sequestration is bad for Americans.
    While the FAA works to cope with sequestration's cuts, the agency 
must also continue its critical safety missions without interruption. 
For example, understanding and fixing the lithium ion batteries on 
Boeing 787s must be a top priority. We must continue to be thorough in 
this investigation and analysis to ensure that this risk is eliminated, 
and that in the future we catch these kinds of problems before the 
planes are in the skies.
    And we must also act quickly to implement all of the 
recommendations from the ``Airline Safety Act'' that Congress passed in 
response to the Colgan Air crash four years ago. The FAA has made 
significant progress in implementing the new law. However, more work 
needs to be done to complete all safety requirements and ensure the 
traveling public knows pilots are always well-trained and well-rested. 
Tragically, the Colgan crash showed us these are matters of life and 
death, and we must take further action to improve the safety of our 
aviation system. We simply can't afford to ignore the lessons from past 
accidents and crashes.
    Mr. Chairman, thank you for calling this hearing on an issue that 
affects all Americans. And I thank our witnesses for testifying about 
how we can continue to ensure the safety of our aviation system as we 
cope with the impacts of sequestration.
                                 ______
                                 
 Prepared Statement of Hon. Amy Klobuchar, U.S. Senator from Minnesota
    Mr. Chairman, thank you for holding this important hearing focusing 
on the safety of our air transportation system.
    I held a hearing in the Judiciary Antitrust Subcommittee reviewing 
the announced merger between U.S. Airlines and American last month. As 
the commercial aviation industry continues to change, safety and the 
protection of passengers is essential.
    Safety in our skies and on our tarmacs is necessary to the flow of 
commerce and to keep the public safe. In fact, 2012's safety 
performance was the best in history for commercial aviation.
    However, we have some serious issues in front of us and more can 
still be done to improve the safety on the ground and in our airspace 
for commercial as well as general aviation.
    With sequestration many agencies are making decisions on where to 
cut, and the FAA is no different. While the FAA has been clear that the 
agency will make certain the aviation system continues to operate 
safely, I am concerned about the long-term impacts of these cuts.
    I have some concerns regarding the FAA's progress on safety rulings 
and decision to close air traffic control towers. I appreciate the 
opportunity to talk to you, Administrator Huerta, as well as all of the 
investigators and overseers about maintaining safe operations from the 
manufacturing process, on the runway and at airports, as well as in the 
air.
                                 ______
                                 
            Prepared Statement of Hon. Charles E. Schumer, 
                       U.S. Senator from New York
    I would like to thank Chairman Rockefeller and Ranking Member Thune 
for holding this important hearing on the Federal Aviation 
Administration's (FAA) progress on safety initiatives. I have worked 
tirelessly with my colleagues on the Commerce Committee and the 
Families of Flight 3407 to ensure that the important reforms the 
Congress mandated in the Airline Safety and FAA Extension Act (PL 111-
216) are implemented I in a timely fashion. Unfortunately, critical 
rulemakings required by this legislation have missed a series of 
deadlines over the past three years. Despite these shortcomings, I was 
recently encouraged to receive a letter from FAA Administrator Huerta 
that committed the agency to completing their work on the Pilot 
Qualifications and Flight Crew Member training rules by August and 
October of this year, respectively.
    However, according to the U.S. Department of Transportation's (DOT) 
April 2013 Significant Rulemakings report, the FAA was delayed by 
nearly thirty days in the submission of the Pilot Qualifications rule 
to the DOT for review. While this delay concerns me and the many 
stakeholders involved in this issue, I remain optimistic that the DOT 
and Office of Management and Budget (OMB) will review, clear, and 
publish this rule by the July 26 deadline outlined in the report. I 
implore the Administrator and his counterparts at DOT and OMB to make a 
steadfast commitment to this schedule.
    In addition, the Flight Crew Member training rule is expected to be 
sent to DOT for review by June 3, 2013. I urge the Administrator to 
assure the Committee that this deadline will also be met in a timely 
fashion. When it comes to aviation safety and making sure the mistakes 
made on Flight 3407 can never be allowed to happen again, these rules 
are the cornerstones of achieving that reform. Therefore, the flying 
public can ill afford any deviation from these deadlines.
    Thank you to Administrator Huerta for his testimony today and I 
again thank the Chair and Ranking Member for their leadership on this 
important issue.
                                 ______
                                 
                                            County of Anoka
                    Office of County Board of Commissioners
                                          Anoka, MN, April 12, 2013
Hon. John D. Rockefeller IV,
U.S. Senate,
Committee on Commerce, Science, and Transportation,
Washington, DC.

Chairman Rockefeller:

    I am writing on behalf of the Anoka County Board of Commissioners 
to request that this letter be submitted for the record in your 
upcoming hearing titled, ``Aviation Safety: FAA's Progress on Key 
Safety Initiatives.'' It is our sincere hope that you will take the 
opportunity afforded by this hearing to discuss with FAA Administrator 
Michael Huerta the negative impact of the planned air traffic control 
tower closures on not only local communities like ours, but also on the 
national interest.
    In a March 5, 2013 letter, the Federal Aviation Administration 
(FAA) advised affected contractors and facilities that the 
administration expects to cease funding air traffic control services on 
a vast majority of the contract air traffic control towers throughout 
the United States. This cessation of funding is necessary for the FAA 
to implement the budget sequestration. The tower at the Anoka County-
Blaine Airport (ANE) is one of 149 towers expected to be closed.
    The Anoka County-Blaine Airport (ANE) is one of six reliever 
airports in the Minneapolis-St. Paul metropolitan area and is a 
reliever airport for Minneapolis-St. Paul International Airport (MSP). 
ANE is the only large reliever airport in the north metro area and its 
closing would be devastating not only to the economic vitality of the 
northern portions of the Minneapolis-St. Paul metropolitan area, but 
also on the national economy. The congestion and flight delays that 
would likely increase at MSP as a result of the loss of a viable 
alternative airport would adversely affect the commercial airline 
industry nationwide.
    In addition to the detrimental effects of the cuts on the 
commercial airline industry, closing the tower at ANE would hurt some 
of Minnesota's largest companies, including several Fortune 500 
companies, like Medtronic and Cargill, and the vendors that serve them. 
As these large companies operate nationwide and worldwide, reduced or 
more costly access to necessary transportation facilities would not 
only affect local and state economies, but also the national economy.
    On a purely local level, the Anoka County-Blaine Airport has a 
significant economic impact. The most recent study of the reliever 
airports in the Minneapolis-St. Paul metropolitan area was completed by 
the Wilder Foundation in 2005. It reported that nearly 110,000 
operations occurred at the Anoka County-Blaine Airport in 2004. Also, 
there were 12 businesses leasing land and reporting income in excess of 
$5 million in non-revenue receipts. It was estimated in that study that 
41,000 visitors arrived in the metro area via ANE and 350 jobs were 
dependent on airport operations. The total economic impact of ANE in 
2004 was estimated at just over $35 million annually.
    Since the study was completed there have been significant 
improvements to the airport. Anoka County invested nearly $20 million 
in runway expansions, an Instrument Landing System, lighting 
improvements and necessary taxiways and ramp areas. A new Fixed Based 
Operation has been constructed by our private partner, Key Air of 
Minnesota, who also invested millions of dollars in a new facility on 
the northwest quadrant of the airport. This business has brought many 
new jobs to the area and the operator reported more than $7 million in 
revenue to the Metropolitan Airports Commission in 2012.
    In addition to the negative economic impact of the tower closures, 
the closures also have significant implications for aviation safety. I 
have attached a photograph of the Anoka County-Blaine Airport and would 
like to note the following points. ANE airfield has two runways that 
are approximately at 90 degrees to each other. They are about the same 
length: one is 5,000 feet; the other is 4,800 feet in length. These two 
runways intersect near their midpoint (see photograph). There is an 
instrument landing system available on the East-West runway, which 
means most jet traffic will land and take off in an east-west direction 
using the instrument landing system. Prop aircraft, however, normally 
take off into the wind and often will choose to use the North-South 
runway. While there are procedures in place that each pilot must 
follow, operating without a control tower to manage the flow is an 
accident waiting to happen.
    In addition, most airports have a sight line from the ends of each 
runway to the others. At ANE, as you can see from the photo, this is 
not the case. From Runway 36-18 you cannot see either end of Runway 9-
27, and of course either end of Runway 9-27 cannot see the beginning of 
Runway 36-18. Also it is doubtful that there is an open line of sight 
between Runways 18-36 and 2-79 for most of the year, compounding this 
issue. Consequently, a jet landing on Runway 2-79 or 9-27 as the case 
may be, depending on the direction of approach, would not be seen by a 
plane attempting to take off from Runway 18-36. The situation could 
arise where a crash would occur at the intersection of these two 
runways.
    As a final point, we would like to note that it does not appear 
that FAA exercised good judgment in determining which airports should 
remain towered and at which airports the towers should close. Of the 
251 contract towers nationwide, ANE ranks number 46 from an operations 
perspective at just under 80,000 operations in 2012. There are 75 
towers scheduled to remain open that have fewer operations than ANE and 
34 of those scheduled to remain open have less than half as many 
operations as ANE. Of the 149 towers slated to close, only 21 had more 
operations in 2012 than ANE.
    This distressing news comes at a time when we should be adding jobs 
and strengthening our economy; not taking jobs away and weakening our 
position for future growth. Consequently, we request that Congress 
reallocate the sequestered cuts to ensure that the tower at ANE and 
many other towers throughout the reliever airport system throughout the 
country remain operational. Please act immediately to help us keep the 
Anoka County-Blaine Airport operating at its peak efficiency.
    Thank you for your consideration.
            Sincerely,
                                          Rhonda Sivarajah,
                                                             Chair,
                                   Anoka County Board of Commissioners.
Attachment: Photograph

    Copies To:

The Honorable John Thune, Ranking Member
U.S. Committee on Commerce, Science, and Transportation
560 Dirksen Senate Office Building
Washington, DC 20510

The Honorable Amy Klobuchar
302 Hart Senate Office Building
Washington, D.C. 20024

The Honorable Al Franken
309 Hart Senate Office Building
Washington, D.C. 20024

The Honorable Michelle Bachman
2417 Rayburn House Office Building
Washington, D.C. 20515

The Honorable Erik Paulsen
127 Cannon House Office Building
Washington, D.C. 20003

Gary Schmidt
Director of Reliever Airports, Metropolitan Airports Commission
                                 ______
                                 
Douglas County Colorado--Office of the County Commissioners
                                    April 12, 2013, Castle Rock, CO
Hon. John D. Rockefeller IV,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Rockefeller,

    I am writing on behalf of the Douglas County Board of Commissioners 
to request that this letter be submitted for the record in your 
upcoming hearing titled, ``Aviation Safety: FAA's Progress on Key 
Safety Initiatives.'' We hope that you will take the opportunity 
afforded by this hearing to seek clarification from FAA Administrator 
Michael Huerta on the planned elimination of overnight shifts at 
certain air traffic control towers, and to share with Administrator 
Huerta the negative impact of this plan.
    On February 22, FAA released a list of 72 air traffic control 
towers at which they would eliminate overnight shifts in response to 
budget cuts imposed by the sequester. Included on that list was 
Centennial Airport (APA) in Arapahoe County, Colorado.
    Since releasing the list in February, FAA has not made available 
any details on the planned cuts. Airports on the list still do not know 
when the cuts will take effect, or even if FAA still plans to move 
forward with the cuts in light of the recent legal action taken against 
the administration regarding its plan to outright close 149 control 
towers. Clarification on this matter would be extremely helpful so that 
all involved parties can develop a plan to mitigate the damage done by 
the elimination of the overnight shift at APA.
    Eliminating the night shift at Centennial Airport would have a 
significant impact on both the local and national economies. APA is the 
second busiest general aviation airport and the 35th busiest U.S. 
airport, producing over $800 million of economic output per year and 
supporting over 10,000 jobs. The airport is also one of the few self-
sustaining general aviation airports in the country. One source of 
revenue for APA comes from international flights, 40 of which land at 
the airport at night in an average year. With the loss of nighttime 
customs services as a result of these cuts, APA would be unable to 
accommodate those flights, costing fixed-base operators at the airport 
between $800,000 and $1.3 million in annual sales. The loss of revenue 
from just this one source alone outweighs the cost savings from 
eliminating the nighttime shift.
    In addition to the direct impact of airport activities on the 
economy, APA is the only reliever airport for Denver International 
Airport (DEN) that has a staffed nighttime control tower. Most airlines 
will not land at an airport without a control tower, meaning planes 
would have to be diverted out of the state of Colorado in the event of 
a problem at DEN. Additionally, if flights that would ordinarily land 
at APA have to land at DEN as a result of the unmanned control tower, 
congestion and flight delays at DEN could very well increase, creating 
an adverse economic impact on airline operations across the country.
    Not only will the elimination of nighttime shifts have a negative 
impact on the economy, it will also create a number of safety concerns. 
Because of Centennial Airport's proximity to Denver International 
Airport, flights taking off from APA sometimes inadvertently enter 
DEN's Class B airspace without contacting the proper air traffic staff 
at DEN. Today, when air traffic controllers at the APA tower observe a 
plane approaching Class B airspace, they radio a warning to the pilot 
to watch his altitude.
    Absent those warnings, planes from APA will likely enter DEN 
airspace fairly regularly, threatening the safety of those planes and 
the numerous commercial flights taking off and landing at DEN.
    APA also serves as a significant hub for air ambulance companies 
and state, local, and Federal law enforcement agencies. Such aircraft 
are necessarily on-call 24/7, and rely on the assistance of air traffic 
controllers to direct traffic flow during stressful emergency missions. 
The loss of such assistance poses a safety risk not only to first 
responders, but also to those people that they are rushing to help.
    It is for these reasons that we strongly urge FAA to reconsider its 
decision to eliminate the overnight shift at Centennial Airport. And 
while we believe that Centennial Airport has a particularly strong 
case, many other airports included on FAA's list have numerous 
compelling reasons why they should continue to be fully funded as well. 
The Douglas County Board of Commissioners respectfully requests that 
Congress and FAA take any and all necessary steps to avoid these 
economically harmful and dangerous cuts.
            Sincerely,
                                              Jack Hilbert,
                                       Douglas County Commissioner,
                                 Board of Douglas County Commissioners.
                                 ______
                                 
                           Douglas County Business Alliance
                                    Castle Rock, CO, April 12, 2013

Hon. John D. Rockefeller IV,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Rockefeller,

    I am writing on behalf of the Douglas County Business Alliance to 
request that this letter be submitted for the record in your upcoming 
hearing titled, ``Aviation Safety: FAA's Progress on Key Safety 
Initiatives.'' We hope that you will take the opportunity afforded by 
this hearing to seek clarification from FAA Administrator Michael 
Huerta on the planned elimination of overnight shifts at certain air 
traffic control towers, and to share with Administrator Huerta the 
negative impact of this plan.
    On February 22, FAA released a list of 72 air traffic control 
towers at which they would eliminate overnight shifts in response to 
budget cuts imposed by the sequester. Included on that list was 
Centennial Airport (APA) in Arapahoe County, Colorado.
    Since releasing the list in February, FAA has not made available 
any details on the planned cuts. Airports on the list still do not know 
when the cuts will take effect, or even if FAA still plans to move 
forward with the cuts in light of the recent legal action taken against 
the administration regarding its plan to outright close 149 control 
towers. Clarification on this matter would be extremely helpful so that 
all involved parties can develop a plan to mitigate the damage done by 
the elimination of the overnight shift at APA.
    Eliminating the night shift at Centennial Airport would have a 
significant impact on both the local and national economies. APA is the 
second busiest general aviation airport and the 35th busiest U.S. 
airport, producing over $800 million of economic output per year and 
supporting over 10,000 jobs. The airport is also one of the few self-
sustaining general aviation airports in the country. One source of 
revenue for APA comes from international flights, 40 of which land at 
the airport at night in an average year. With the loss of nighttime 
customs services as a result of these cuts, APA would be unable to 
accommodate those flights, costing fixed-base operators at the airport 
between $800,000 and $1.3 million in annual sales. The loss of revenue 
from just this one source alone outweighs the cost savings from 
eliminating the nighttime shift.
    In addition to the direct impact of airport activities on the 
economy, APA is the only reliever airport for Denver International 
Airport (DEN) that has a staffed nighttime control tower. Most airlines 
will not land at an airport without a control tower, meaning planes 
would have to be diverted out of the state of Colorado in the event of 
a problem at DEN. Additionally, if flights that would ordinarily land 
at APA have to land at DEN as a result of the unmanned control tower, 
congestion and flight delays at DEN could very well increase, creating 
an adverse economic impact on airline operations across the country.
    Not only will the elimination of nighttime shifts have a negative 
impact on the economy, it will also create a number of safety concerns. 
Because of Centennial Airport's proximity to Denver International 
Airport, flights taking off from APA sometimes inadvertently enter 
DEN's Class B airspace without contacting the proper air traffic staff 
at DEN. Today, when air traffic controllers at the APA tower observe a 
plane approaching Class B airspace, they radio a warning to the pilot 
to watch his altitude. Absent those warnings, planes from APA will 
likely enter DEN airspace fairly regularly, threatening the safety of 
those planes and the numerous commercial flights taking off and landing 
at DEN.
    APA also serves as a significant hub for air ambulance companies 
and state, local, and Federal law enforcement agencies. Such aircraft 
are necessarily on-call 24/7, and rely on the assistance of air traffic 
controllers to direct traffic flow during stressful emergency missions. 
The loss of such assistance poses a safety risk not only to first 
responders, but also to those people that they are rushing to help.
    It is for these reasons that we strongly urge FAA to reconsider its 
decision to eliminate the overnight shift at Centennial Airport. And 
while we believe that Centennial Airport has a particularly strong 
case, many other airports included on FAA's list have numerous 
compelling reasons why they should continue to be fully funded as well. 
The Douglas County Business Alliance respectfully requests that 
Congress and FAA take any and all necessary steps to avoid these 
economically harmful and dangerous cuts.
            Sincerely,
                                              Mary Marchun,
                                      Douglas County Business Alliance.
                                 ______
                                 
            Douglas County, Colorado--Office of the County 
                                              Commissioners
                                    Castle Rock, CO, April 15, 2013

Hon. John D. Rockefeller IV,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Rockefeller:

    As Chair of the National Association of Counties Airports 
Subcommittee, I lend my support to Douglas County's efforts to express 
its concerns about the proposed FAA cuts to air traffic control tower 
shifts across the country, as outlined in the attached letter.
    And, from a national level position, I also ask that you speak 
against these cuts. On a national level, we have the same concerns that 
this will significantly impact the safety of our citizens and will 
result in more adverse economic impacts in the areas targeted. Surely, 
cuts can be found that will not be as far reaching as this.
    Thank you for your consideration of this request.
            Sincerely,
                                           Jack A. Hilbert,
                                                             Chair,
                National Association of Counties Airports Subcommittee.
                                 ______
                                 
              Denver South Economic Development Partnership
                                      Englewood, CO, April 15, 2013

Hon. John D. Rockefeller IV,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Rockefeller,

    The Denver South Economic Development Partnership is an 
organization of government and business leaders committed to the 
economic vitality and sustainability of the South Metro Denver region. 
I am writing today, on behalf of this community, to request that this 
letter be submitted for the record in your upcoming hearing, ``Aviation 
Safety: FAA's Progress on Key Safety Initiatives.'' We hope that you 
will take this opportunity to seek clarification from FAA Administrator 
Michael Huerta on the planned elimination of overnight shifts at 
certain air traffic control towers, and to share with Administrator 
Huerta the negative impact of this plan.
    On February 22, FAA released a list of 72 air traffic control 
towers at which they would eliminate overnight shifts in response to 
budget cuts imposed by the sequester. Included on that list was 
Centennial Airport (APA) in Arapahoe County, Colorado.
    Since releasing the list in February, FAA has not made available 
any details on the planned cuts. Airports on the list do not know when 
the cuts will take effect, or even if FAA still plans to move forward. 
Clarification on this matter would be extremely helpful so that all 
involved parties can develop a plan to mitigate the loss of the 
overnight shift at APA.
    Eliminating the night shift at Centennial Airport would have a 
significant economic impact. APA is the second busiest general aviation 
airport and the 35th busiest U.S. airport, producing over $800 million 
of economic output per year and supporting over 10,000 jobs.
    APA serves many international flights, 40 of which land at the 
airport at night in an average year. Without nighttime customs 
services, as a result of these cuts, APA would be unable to accommodate 
those flights, costing fixed-base operators at the airport between 
$800,000 and $1.3 million in annual sales. The loss of revenue from 
just this one source alone outweighs the cost savings from eliminating 
the nighttime shift.
    In addition to the direct impact of airport activities on the 
economy, APA is the only reliever airport for Denver International 
Airport (DEN) that has a staffed nighttime control tower. Most airlines 
will not land at an airport without a control tower, meaning planes 
would have to be diverted out of the state of Colorado in the event of 
a problem at DEN.
    APA also serves as a significant hub for air ambulance companies 
and state, local, and Federal law enforcement agencies. Such aircraft 
are necessarily on-call 24/7, and rely on the assistance of air traffic 
controllers to direct traffic flow during emergency missions. The loss 
of such assistance poses a safety risk not only to first responders, 
but also to those they are rushing to help.
    It is for these reasons that we respectfully request FAA to 
reconsider its decision to eliminate the overnight shift at Centennial 
Airport.
            Sincerely,
                                           Mike Fitzgerald,
                                                   President & CEO,
                         Denver South Economic Development Partnership.
                                 ______
                                 
                                    Town of Parker Colorado
                                         Parker, CO, April 15, 2013
Hon. John D. Rockefeller IV,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Rockefeller,

    I am writing on behalf of the Town of Parker Town Council to 
request that this letter be submitted for the record in your upcoming 
hearing titled, ``Aviation Safety: FAA's Progress on Key Safety 
Initiatives.'' We hope that you will take the opportunity afforded by 
this hearing to seek clarification from FAA Administrator Michael 
Huerta on the planned elimination of overnight shifts at certain air 
traffic control towers, and to share with Administrator Huerta the 
negative impact of this plan.
    On February 22, FAA released a list of 72 air traffic control 
towers at which they would eliminate overnight shifts in response to 
budget cuts imposed by the sequester. Included on that list was 
Centennial Airport (APA) in Arapahoe County, Colorado.
    Since releasing the list in February, FAA has not made available 
any details on the planned cuts. Airports on the list still do not know 
when the cuts will take effect, or even if FAA still plans to move 
forward with the cuts in light of the recent legal action taken against 
the administration regarding its plan to outright close 149 control 
towers. Clarification on this matter would be extremely helpful so that 
all involved parties can develop a plan to mitigate the damage done by 
the elimination of the overnight shift at APA.
    Eliminating the night shift at Centennial Airport would have a 
significant impact on both the local and national economies. APA is the 
second busiest general aviation airport and the 35th busiest U.S. 
airport, producing over $800 million of economic output per year and 
supporting over 10,000 jobs. The airport is also one of the few self-
sustaining general aviation airports in the country. One source of 
revenue for APA comes from international flights, 40 of which land at 
the airport at night in an average year. With the loss of nighttime 
customs services as a result of these cuts, APA would be unable to 
accommodate those flights, costing fixed-base operators at the airport 
between $800,000 and $1.3 million in annual sales. The loss of revenue 
from just this one source alone outweighs the cost savings from 
eliminating the nighttime shift.
    In addition to the direct impact of airport activities on the 
economy, APA is the only reliever airport for Denver International 
Airport (DEN) that has a staffed nighttime control tower. Most airlines 
will not land at an airport without a control tower, meaning planes 
would have to be diverted out of the state of Colorado in the event of 
a problem at DEN. Additionally, if flights that would ordinarily land 
at APA have to land at DEN as a result of the unmanned control tower, 
congestion and flight delays at DEN could very well increase, creating 
an adverse economic impact on airline operations across the country.
    Not only will the elimination of nighttime shifts have a negative 
impact on the economy, it will also create a number of safety concerns. 
Because of Centennial Airport's proximity to Denver International 
Airport, flights taking off from APA sometimes inadvertently enter 
DEN's Class B airspace without contacting the proper air traffic staff 
at DEN. Today, when air traffic controllers at the APA tower observe a 
plane approaching Class B airspace, they radio a warning to the pilot 
to watch his altitude. Absent those warnings, planes from APA will 
likely enter DEN airspace fairly regularly, threatening the safety of 
those planes and the numerous commercial flights taking off and landing 
at DEN.
    APA also serves as a significant hub for air ambulance companies 
and state, local, and Federal law enforcement agencies. Such aircraft 
are necessarily on-call 24/7, and rely on the assistance of air traffic 
controllers to direct traffic flow during stressful emergency missions. 
The loss of such assistance poses a safety risk not only to first 
responders, but also to those people that they are rushing to help.
    It is for these reasons that we strongly urge FAA to reconsider its 
decision to eliminate the overnight shift at Centennial Airport. And 
while we believe that Centennial Airport has a particularly strong 
case, many other airports included on FAA's list have numerous 
compelling reasons why they should continue to be fully funded as well. 
The Town of Parker Town Council respectfully requests that Congress and 
FAA take any and all necessary steps to avoid these economically 
harmful and dangerous cuts.
            Respectfully,
                                                 Mike Waid,
                                                             Mayor,
                                                        Town of Parker.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                         Hon. Michael P. Huerta
Regarding the Potential Need for Secondary Barriers to Protect the 
        Flight Deck
    Question 1. The fortified flight deck door was mandated on 
commercial aircraft in the aftermath of the attacks on September 2001. 
What actions have been taken to address the residual risks of a flight 
deck breach when the fortified flight deck door is opened in flight?
    Answer. FAA regulations (14 CFR 121.584) require that the cabin be 
secure before the flight deck door can be opened during flight. The FAA 
requires that each air carrier document its door transition procedures 
for compliance with the regulation in its Flight Operations Manual 
(FOM), which it is required to submit to the FAA for approval. The 
FAA's principal operations inspector (POI) for the carrier signs the 
FOM, which is the air carrier's ``binding contract'' with the FAA on 
how it will comply with all applicable regulations.

    Question 2. A number of years ago, the FAA endorsed the concept of 
installed secondary flight deck barriers on aircraft to ICAO and in 
2011 facilitated the publication of guidance on their design and 
performance. Has the FAA encouraged the airlines to use this guidance 
and install these devices? If not, does the FAA have plans to encourage 
the airlines to do so?
    Answer. The FAA worked with RTCA Committee 221, chaired by Boeing 
and United Airlines and comprised of air carrier, manufacturer, and 
labor representatives, to evaluate the viability of effective secondary 
barriers. The group sponsored extensive testing of possible procedures 
and equipment at the Federal Air Marshal Training Center in Atlantic 
City, describing its findings in a report (DO-329) that included 
suggested best practices for use by flight and cabin crewmembers. This 
document is available to operators for use in developing Flight 
Operations Manual (FOM) procedures, as well as to FAA inspectors who 
must review and sign the carrier's FOM. The FAA encourages all 
operators to use these findings in developing procedures.
Safety Rules Related to Pilot Training
    Question 3. Administrator Huerta, I am very concerned about 
potential delays on important safety regulations that the FAA is 
working to finalize regarding pilot qualifications and training. Will 
your agency complete these critical safety rules on time?
    Answer.

  <bullet> The FAA issued the Pilot Certification and Qualification 
        Requirements for Air Carrier Operations notice of proposed 
        rulemaking on February 29, 2012, to address the provisions in 
        Public Law (P.L) 111-216, the Airline Safety and Federal 
        Aviation Administration Extension Act of 2010, that would 
        require all pilots in Part 121 operations have an airline 
        transport pilot certificate. The final rule is in the Executive 
        Branch review process; FAA anticipates the rule will be 
        published by July 31, 2013.

  <bullet> The FAA issued a Supplemental Notice for Proposed Rulemaking 
        for Qualification, Service and Use of Crewmembers and Aircraft 
        Dispatchers May 20, 2011. The comment period ended on September 
        19, 2011.

  <bullet> The FAA expects to publish the final rule in October 2013.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                         Hon. Michael P. Huerta
Impacts of Sequester and the President's FY 2014 Proposed Budget
    Question 1. Administrator Huerta, if the President's FY 2014 budget 
for the FAA is not adopted, should the public expect to see the 
furloughing of FAA staff, closure of some contract and federally 
staffed control towers, the overnight closure of certain air traffic 
control towers, etc. starting October 1, 2013?

    Since agencies are limited in the numbers of days they can furlough 
staff during a fiscal year, if the President's budget is not adopted 
will the FAA have to consider the possibility of having to reduce-in 
force some of its safety personnel?

    Question 1a. If it appears that the FAA may have to revisit the 
potential closure of air traffic control towers this fall, during the 
intervening time, will it conduct an airport-by-airport assessment of 
the safety impacts of closing individual towers? Similarly, has or will 
the FAA undertake any studies into how overnight closure of nearly 150 
air traffic control towers will impact safety or efficiency within the 
broader aviation system?

    Question 1b. Are there safety-related elements of NextGen that are 
getting delayed as a result of sequestration?
    Answer. The Reducing Flight Delays Act of 2013 (P.L. 113-9) 
provided FAA with the budget flexibility needed to end employee 
furloughs across the agency and keep 149 low-activity contract towers 
originally slated for closure in June open for the remainder of Fiscal 
Year 2013. This legislation, however, is not a complete solution to 
sequestration for FAA, much less for the rest of the Federal 
Government. The transfer authority allows us to forestall some of the 
most acute impacts of sequestration to the flying public. Nonetheless, 
we remain obligated to slash $637 million from the FAA's budget by the 
end of the fiscal year. That means that other cost saving measures we 
have implemented (a hiring freeze; contract reductions; suspension of 
bonuses and awards; and reduced spending on overtime, training, travel, 
supplies, and information technology) will continue.
    Without additional Congressional action, on October 1 the FAA will 
again face the prospect of reductions to aviation services to achieve 
the long-term funding reductions called for in the Budget Control Act. 
That is why the FY 2014 President's Budget replaces the across the 
board spending cuts required by sequestration with a balanced approach 
to solving our Nation's budgetary challenges.
    If the President's Budget is not adopted, FAA will have to consider 
all of the severe cost-saving measures debated this year, including 
employee furloughs, closure of low activity air traffic control 
facilities, and reductions to overnight staffing at some control 
towers. In addition, given the limited number of days employees can be 
furloughed, reductions in force will also be considered for all 
segments of FAA's workforce.
    The FAA conducted a safety study of the potential impact of closing 
149 towers. That study identified that approximately 70 towers were 
likely to remain open as a result of local funding and that additional 
evaluation was required at a few facilities to determine the impact of 
their closure on the controlling FAA facility and to mitigate any 
identified impacts. Efficiency impacts were considered out of scope 
from a safety point of view and clearly anticipated as a result of 
withdrawing funds and the potential absence of air traffic control 
services. We would conduct the same type of safety assessment if we 
consider closing facilities in the future.
    Safety will not be compromised by sequestration. NextGen funding 
for the Aviation Safety Information Analysis and Sharing program, which 
provides data for NextGen, has not been impacted.
Rulemaking on Pilot Qualifications
    Question 2. Administrator Huerta, this committee helped pass 
significant safety legislation after the crash of Colgan Air Flight 
3407 aimed at improving the level of safety for our Nation's regional 
airlines.
    The pilot qualifications rule and the pilot training rule are long 
overdue. It was a topic of discussion at your confirmation hearing.
    If the FAA doesn't issue a final rule before August 1, 2013, the 
default is that all pilots, including the first officer, will be 
required to have 1,500 hours of flight experience in order to receive 
the Air Transport Pilot (ATP) certificate that is required to fly 
commercial aircraft.

    The FAA sent the proposed final rule to Secretary LaHood's Office 
on March 19, 2013. When does the Secretary's office have to send the 
final rule OMB to meet the August 1, 2013 deadline?
    Answer. OST passed the rule to the Office of Management and Budget 
(OMB) on April 30, 2013.

    Question 2a. Bottom line is this: will the FAA issue its final rule 
on pilot qualifications before August 1, 2013 and what happens if the 
FAA is late?
    Answer. The FAA expects the Pilot Certification and Qualification 
Requirements for Air Carrier Operations final rule will be published by 
July 31, 2013. If the rule is not published before August 2, 2013, the 
self-enacting provision of P.L 111-216, the Airline Safety and Federal 
Aviation Administration Extension Act of 2010, that requires all pilots 
in Part 121 operations have an airline transport pilot (ATP) 
certificate, including the associated flight experience of 1,500 hours, 
will go into effect.

    Question 2b. If the co-pilot experience requirement ends up being 
1,500 hours, do you expect there to be a pilot shortage as I have heard 
some airlines argue?
    Answer. The FAA specifically sought input in the Pilot 
Certification and Qualification Requirements for Air Carrier Operations 
notice of proposal rulemaking on the effect the ATP requirement would 
have on pilot supply. In the NPRM, the FAA took advantage of the 
relieving option within P.L 11-216, which would permit some pilots to 
obtain the ATP certificate with less than 1,500 hours. The FAA 
determined this proposal may address some of the pilot supply concerns 
expressed by some carriers.

    Question 2c. What preparations is the agency making to implement 
either the default rule or the new pilot qualifications rule?
    Answer. The FAA expects to publish the Pilot Certification and 
Qualification Requirements for Air Carrier Operations final rule before 
August 2, 2013. The final rule is in external executive review. In 
additional to drafting the final rule, the FAA has prepared new and 
updated existing guidance material associated with the final rule.
One Level of Safety Across Major Airlines and Regional Air Carriers
    Question 3. Administrator Huerta, for years the FAA has spoken of 
``one level of safety'' across all airlines, from the large major air 
carriers to their small regional code-share partners.
    It has been over four years since the Colgan airlines crash and I 
am still not convinced that in practice all regional carriers operate 
at the same levels of safety as the major airlines do.

    When you define ``one level of safety'' does it mean the exact same 
level of safety or an equivalent level of safety that regional carriers 
can convince the agency of? Doesn't the flexibility of allowing an 
equivalent level of safety defeat the idea behind ``one''?
    Answer. FAA does not make a distinction between ``major'' and 
``regional'' carriers, as all Part 121 air carriers are required to 
meet the same standards of 14 CFR Part 121. Each carrier holds its own 
air carrier certificate, is required to meet the same regulatory 
standards, and is overseen by the FAA under the same system of 
oversight. The FAA believes that all carriers operating in accordance 
with the regulations meet an appropriate level of safety.

    Question 3a. Do you believe that mainline air carriers are finding 
ways to ensure that their regional code-share partners implement the 
most effective safety practices?
    Answer. In its audit ``Growth of Domestic Airline Code Sharing 
Warrants Increased Attention'', the DOT OIG recommended the FAA publish 
best practices for the sharing of safety information between Part 121 
air carriers in a code share relationship. In our response to the OIG, 
we noted the recommendation would be addressed through the 
implementation of a Safety Management System (SMS). An SMS is a 
comprehensive, process-oriented approach to managing safety throughout 
an organization that includes: an organization-wide safety policy; 
formal methods for identifying hazards, controlling, and continually 
assessing risk; and promotion of a safety culture. SMS stresses not 
only compliance with technical standards but increased emphasis on the 
overall safety performance of the organization. SMS's proactive 
emphasis on hazard identification and mitigation, and on communication 
of safety issues, would provide certificate holders robust tools to 
improve safety. The OIG agreed the implementation of SMS would meet the 
intent of its recommendation. The FAA expects to publish the final rule 
requiring carriers to implement SMS in October 2013.

    Question 3b. In February 2013, the USDOT IG issued a report that 
recommended that the FAA take a closer look at the code-sharing 
agreements between major airlines and their regional partners. The IG 
expressed concern about the potential impact that contractual 
obligations, such as those for on-time performance, may have on the 
safety of a mainline air carrier's code-share partner. Does the FAA 
examine code-sharing agreements to see whether contractual obligations 
may put greater pressure on regional carriers to take risks?
    Answer. The FAA recognizes that financial conditions may adversely 
impact safety and for that reason, the FAA has a process and guidance 
for inspectors on the enhancement of surveillance when an air carrier 
experiences labor unrest, financial distress or changes in the air 
carrier's operations (such as adopting a new code-share agreement). To 
support this process, the FAA asks air carriers to provide to their FAA 
Certificate Management Offices (CMO) their contract performance 
metrics, to include any penalties for failure to meet those metrics. 
This information will be used by the CMO in the development of 
surveillance programs or to modify existing surveillance programs to 
address any risk created by the metrics. However, the FAA will also 
issue a request by Aug 1, 2013 to air carriers not experiencing the 
difficulties outlined above, to provide current contract metrics. We 
will also request future metric changes or new contract metrics be 
provided as they arise. The FAA will use this information in 
development of FY14 surveillance programs. Any changes to that 
information will be reviewed for potential modifications to an air 
carrier's existing surveillance program.
Status of the Pilot Records Database
    Question 4. Administrator Huerta, the USDOT IG's January 2013 
report on Airline Safety Act implementation discusses the delays 
associated with the creation of a pilot records database.
    If you recall, Colgan Air was not aware of a number of failed check 
rides by each of the crew members on Flight 3407 when they were hired. 
The Committee looked to address this by requiring the creation of an 
electronic pilot training record database in the Airline Safety Act.
    The report raised concerns about the FAA's implementation of this 
database regarding the timeline for completion and also for what 
information needs to be included--such as the importance of requiring 
written comments when a pilot fails a check ride.
    Administrator Huerta, can you address the IG's concerns, both in 
regards to a timeline for implementing this database, as well as making 
sure the information it contains is as comprehensive as possible?
    Answer. Our timeline for implementation of the Pilot Records 
Database (PRD) requirement is dependent on completing rulemaking to 
require use of PRD by appropriate operators and the development of an 
information technology (IT) capability to support the database. We are 
planning for a final rule by the end of FY15. For the IT database 
required to support a PRD, assuming no major changes to our functional 
requirements are needed as a result of rulemaking and available funding 
for system development and fielding, we expect to begin deployment of 
the PRD in mid FY17.
    PL 111-216 requires the FAA to capture certain training records and 
pilot evaluator (``check airman'') comments maintained by the air 
carrier. The FAA is continuing to evaluate methods of complying with 
Congressional intent in a manner that is cost beneficial and does not 
create any undue burdens on the airline industry.
Voluntary Safety Actions and Calls-to-Action
    Question 5. Administrator Huerta, your predecessor Administrator 
Babbitt had a voluntary call-to-action for pilots after the Colgan Air 
crash and a voluntary call-to-action for air traffic controllers after 
a number of incidents of unprofessional behavior. Do you think these 
two voluntary calls-to-action were fully successful, partially 
successful, or not successful, and why?
    Answer. We believe our Call to Action for the use of voluntary 
safety actions has been successful. We convened an aviation rulemaking 
committee (ARC) on flight and duty time limitations. Its work led to a 
change in flight duty time and rest regulations. We verified that all 
Part 121 air carriers had methods to identify and better train poor-
performing pilots. We saw a substantial increase in participation in 
both the Aviation Safety Action Program (ASAP) and Flight Operations 
Quality Assurance (FOQA) program. Additionally, all of the major pilot 
labor organizations agreed to develop guidelines on discipline in the 
flight deck, professionalism in the pilot workforce and best practices 
for mentoring.
    We accelerated implementation of a Professional Standards program 
for air traffic controllers modeled on the successful program in the 
airlines which is now fully implemented;
    We conducted studies on air traffic controller and technician 
fatigue and made changes to scheduling practices and established 
Fatigue Risk Management System, and asked an Independent Review Panel 
(IRP) to review the selection, assignment, and training of air traffic 
controllers. The Panel produced a report outlining 49 recommendations 
to the agency. We accepted the report in its entirety and are working 
to implement all 49 recommendations.
Air Medical Safety
    Question 6. Several years ago I worked with both Chairwoman Hersman 
and Mr. Guzzetti on legislation to improve the safety of Helicopter 
Emergency Medical Services (HEMS). My legislation built on several NTSB 
recommendations.
    It took a year with several fatal air medical service accidents for 
the FAA to initiate a rulemaking in 2010. The FAA Modernization and 
Reform bill included a large section piece of my Air Medical Safety 
Improvement and instructed the FAA to complete its rulemaking.
    Regrettably, there have been several air medical crashes over the 
past year. Last week, the NTSB met to determine the probable cause of 
an August 2011 HEMS crash. One of the safety issues identified is the 
need for HEMS pilots to receive flight training in a simulator to train 
in skills that are too risky to perform in a helicopter.
    Administrator Huerta, what is the status of the final rule on the 
air medical service standards and when will the final rule to be 
issued?
    Answer. The Air Ambulance and Commercial Helicopter Operations 
(Final Rule) addresses 13 NTSB recommendations and the causes of over 
150 helicopter air ambulance and commercial helicopter accidents that 
occurred between 1991 and 2010 in which over 250 people died. It 
addresses the requirements of the FAA Reauthorization. The final rule 
is in executive review and we anticipate it will be issued in August 
2013.
Certification Process and Global Supply Chains
    Question 7. Administrator Huerta, transport aircraft manufacturers, 
business jet manufacturers, and general aviation manufacturers 
increasingly design and produce their new products in multiple 
countries. As you know, the supply chains for these new aircraft are 
also increasingly global in nature. It presents a number of challenges 
to regulators. There are a series of bilateral treaties in place which 
helps to the extent that specific instances and situations have been 
identified and addressed. As treaties are products of their time, new 
issues arise that were not envisioned and lead to open questions.
    What, if any, are the differences between how the FAA oversees 
manufacturing facilities and how its European counterpart, EASA, 
oversees manufacturing facilities?
    Answer. The FAA and EASA oversight processes are similar. Both 
oversee manufacturing and quality systems and yield the same results. 
The FAA focuses more oversight at the product level to ensure product/
article conformance to approved design. EASA applies more of a systems 
approach; it issues and oversees its Production Organisation Approvals 
(POAs) based on an organizational production system.

    Question 7a. Administrator Huerta, the EASA-FAA bilateral for 
Technical Implementation Procedures for Airworthiness and Environmental 
Certification, section 1.1.6 states that projects involving a separate 
country of design and country of manufacture are an open question as to 
regulatory jurisdiction, and shall be settled through working 
arrangements by EASA, FAA, and the applicants. When did this topic 
first come up? Why was an agreement not reached during negotiations 
regarding these types of situations?
    Answer. A scenario where the State of Design (SoD) is different 
from the State of Manufacture (SoM) can have many unique aspects 
influenced by industry business arrangements and corresponding 
regulator oversight standards. Bilateral agreements facilitate 
oversight of such arrangements and require that appropriate working 
procedures are established to document the roles and responsibilities 
of each authority, acting as either SoD or SoM. Having the flexibility 
to customize a working arrangement to the particular situation is 
preferred, since all possible scenarios cannot be envisioned when 
establishing the bilateral agreement.
    The issue of splitting SoD and SoM oversight responsibilities has 
been addressed during the evolution of the FAA/EASA Bilateral Aviation 
Safety Agreement (BASA) and its predecessor agreements. We do not have 
a specific date to cite when EASA and FAA resolved to address the SoD/
SoM issues through working arrangements.

    Question 7b. In the case of the new Airbus facility in Mobile, has 
the FAA started discussions with EASA and Airbus as to which regulatory 
regime will be responsible for certifying the production facility and 
the aircraft produced at said facility?

    What type of certifications will be required for Airbus to assemble 
at Mobile? Is it a production certificate?
    Answer. Production and design certification will be handled by EASA 
and the Mobile final assembly line (FAL) will function as an extension 
of the EASA Production Organization Approval (POA). No FAA 
certifications will be required for the facility in Mobile. The FAA may 
be asked to assist Airbus with oversight of the facility under the 
auspices of the FAA/EASA bilateral aviation safety agreement, although 
the FAA has not yet received any such request.

    Question 7c. Will an airworthiness certificate be required for 
every airplane produced?
    Answer. For aircraft destined for American operators, the airplane 
will be ``exported'' from the EASA system to the FAA system, and an 
airworthiness certificate will be issued by FAA. In cases where the 
final airplane is destined for another country, a standard 
airworthiness certificate will be issued by the destination country.

    Question 7d. It is my understanding that Airbus intends for EASA, 
not the FAA, to certify its future manufacturing facility at Mobile? If 
true, is the FAA considering giving up its jurisdiction to a foreign 
regulator in the case of Mobile? And if so, can you explain why?
    Answer. Airbus intends to apply to EASA for an extension of its 
EASA-issued Production Organization Approval (POA), thereby remaining 
under EASA's jurisdiction. The facility in Mobile will act as an 
extension of the existing Airbus POA and, as such, State of Manufacture 
responsibilities lie with EASA as the technical agent for France, the 
State of Design.

    Question 7e. Assuming that the FAA retains its responsibility to 
oversee production at Mobile, what organization within the aircraft 
certification office (AIR) would be responsible for conducting that 
oversight? What impact would this have on resources in the AIR office?
    Answer. The FAA has not received any request from EASA to assist 
with oversight. If the FAA is requested to assist with oversight of the 
Mobile facility, then the geographic manufacturing inspection office 
would be responsible (under the FAA's Central Region Small Airplane 
Directorate).
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                         Hon. Michael P. Huerta
    Question 1. I am committed to investing in our Nation's 
infrastructure and making sure we have the safest airports at all our 
airports, large and small. That is why I have cosponsored the Protect 
Our Skies Act led by Senators Moran and Blumenthal that would keep our 
air traffic control towers open. There are four air traffic control 
towers slated for closure in Minnesota. Two towers are FAA operated at 
Flying Cloud, Eden Prairie while the two towers at Janes Field in Anoka 
County and St. Cloud Regional are contract towers. Anoka County has 
written a letter about why their tower is important to the community 
and I request that it be submitted for the record.
    Administrator Huerta--What do fewer towers mean for aviation safety 
and the economies of local communities? What about those towers at 
airports acting as relievers for large airports like Minneapolis/St. 
Paul? How is the FAA engaging with communities who are desperately 
working to keep their towers and operations open?
    Answer. The Reducing Flight Delays Act of 2013 (P.L. 113-9) 
provided FAA with the budget flexibility needed to end employee 
furloughs across the agency and keep 149 low-activity contract towers 
originally slated for closure in June open for the remainder of Fiscal 
Year 2013. This legislation, however, is not a complete solution to 
sequestration for FAA, much less for the rest of the Federal 
Government. The transfer authority allows us to forestall some of the 
most acute impacts of sequestration to the flying public. Nonetheless, 
we remain obligated to slash $637 million from the FAA's budget by the 
end of the fiscal year. That means that other cost saving measures we 
have implemented (a hiring freeze; contract reductions; and reduced 
spending on overtime, training, travel, supplies, and information 
technology) will continue.
    The FAA conducted a safety study of the potential impact of closing 
149 towers. That study identified that approximately 70 towers were 
likely to remain open as a result of local funding and that additional 
evaluation was required at a few facilities to determine the impact of 
their closure on the controlling FAA facility and to mitigate any 
identified impacts. Efficiency and local economic impacts were 
considered out of scope from a safety point of view and are clearly 
anticipated as a result of withdrawing funds and the potential absence 
of air traffic control services.
    Prior to the enactment of P.L. 113-9, the FAA worked closely with 
communities to enable non-Federal tower operations to continue by 
assisting with arrangements to transfer equipment and other maintenance 
and logistics support to local authorities.

    Question 2. Administrator Huerta--Transitioning our air traffic 
system to NextGen technologies will provide numerous benefits to our 
aviation system increased capacity, fewer delays, greater fuel 
efficiency, and reduced emissions. Additionally, NextGen systems allow 
for increased safety for passengers and aircraft of all types. 
Implementation of NextGen technologies, including approach and 
departure technologies known as RNAV, are of interest to airport 
communities like the Minneapolis/St. Paul metro area. While the goal is 
to make our airports safer it is also important for the FAA and airport 
officials to talk to the public about impacts, including environmental 
impacts.
    Can you talk about the FAA's role when it comes to public outreach 
and the way the FAA involves stakeholders including operators and 
communities? Does this include sharing information about any 
environmental analysis conducted to establish changes in procedures? 
Will you commit to working with the communities surrounding airports, 
such as the Twin Cities metro area?
    Answer. The FAA engages in a multi-dimensional process for such 
activities; these dimensions can be better described as being formal 
and informal processes.
    Formally, FAA is in full compliance with the National Environmental 
Policy Act (NEPA) and other national and local laws and directives that 
require public notification and engagement regarding the notification 
of activities or initiatives and the impacts from such activities or 
initiatives through either the Rulemaking processes or other directed-
venues like public-notice announcements. Another formal venue is our 
collaborative teams formed by our technical staff and specialists, 
local aviation stakeholders including local airport personnel, and 
National Airspace System (NAS) users. These diverse groups come 
together to design and implement new procedures utilizing new 
technologies that make up our NextGen program's portfolio. Examples 
include the on-going Optimization of Airspace and Procedures in the 
Metroplex (OAPM) as well as our 3rd Party Vendor procedures design 
projects.
    The FAA continues to engage these stakeholders so they will provide 
us with valuable input, gain confidence in our path forward and make 
the necessary financial investments for NextGen to succeed. The FAA has 
a long history of working closely with a broad cross section of 
industry partners either directly or through RTCA (a group that 
facilitates expert advice to the agency on technical issues) to build 
consensus and incorporate important recommendations in our NextGen 
planning.
    One example of our partnerships for NextGen is the Greener Skies 
initiative in Seattle, Washington, where we are partnering with Alaska 
Airlines, the Port of Seattle and the Boeing Company. We have created 
new NextGen, satellite-based approaches for all airlines flying into 
Seattle-Tacoma International Airport (SeaTac). These flight tracks are 
shorter, more fuel efficient and environmentally-friendly.
    Informally, the FAA provides information to the public though our 
public websites like http://www.faa.gov/nextgen/. Here, descriptions 
and current statuses of many of our NextGen programs are made 
available, including the NextGen Implementation Plan (NGIP). This plan 
is the FAA's primary outreach document for keeping the aviation 
community, Congress, the flying public and other stakeholders informed 
about NextGen, along with public media news articles and interviews. 
This public outreach is not only conducted by our national leadership 
but also by our regional and local field personnel within the 
communities where they work and live. For example, at the kick-off 
event of every OAPM Study team, public outreach is conducted through 
the local media, who are invited to participate in the kick-off event. 
The FAA participates in these activities at the highest levels and 
engage in an open and frank Q & A session about NextGen with the local 
media. Local interest groups, communities, and the general public have 
the opportunity to also express their views and join in the discussion 
through the regular and official venues already established in their 
areas for matters related to aviation and through their elected 
officials.
    Also, we have an on-going initiative in collaboration with some 
major airports for an interactive display designed to educate 
passengers about the scope and benefits of NextGen. The Dallas/Fort 
Worth (DFW) International Airport interactive kiosk located at Terminal 
C, Gate 17, is designed to educate the public about NextGen and the 
benefits it will create. The NextGen interactive kiosk was jointly 
developed by the FAA and DFW Airport.
    More specifically, in reference to Minneapolis, the FAA has worked 
closely with the Metropolitan Airports Commission (MAC) and their 
citizens-based Noise Oversight Committee (NOC) on the design and 
implementation of NextGen Performance-Based Navigation (PBN) arrival 
and departure procedures. The FAA continues to partner with the MAC and 
NOC, relying on their extensive experience with communities around 
Minneapolis-St Paul International Airport (MSP) on effective ways to 
solicit and address the community's issues related to environmental and 
operational matters. These efforts will continue as we move forward in 
delivering the benefits of NextGen to MSP and the entire Minneapolis 
metropolitan area.
    Lastly, the FAA has joined with industry stakeholders and community 
representatives through the Airport Cooperative Research Program 
(ACRP), led by the Transportation Research Board (TRB), to develop a 
template on ``best practices'' for engaging and informing the aviation 
community/public on the impacts and benefits of the various elements of 
NextGen technologies.
    Our on-going commitment to work with the NextGen stakeholders and 
the communities surrounding airports is represented by the expansive 
and inclusive formal and informal process described in this response. 
In the FAA, we all are part of the communities that we serve, where we 
work and live, and feel that our efforts will bring about positive and 
lasting benefits for all.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Roy Blunt to 
                         Hon. Michael P. Huerta
    Question 1. Mr. Huerta, you've warned air travelers about the 
potential for significant delays due to air traffic reductions 
necessitated by air traffic controller furloughs. Can you explain why 
30-to 40-percent reductions in air traffic at certain airports may 
occur given that the agency's sequestration cut is 10 percent, and the 
agency's controller workforce has grown by approximately 600 
controllers--from 14,537 in 2007 to 15,041 today--while airline 
operations have dropped by 12 percent during this same period?
    Answer. While traffic is down overall, there are some markets where 
traffic has increased. The National Airspace System is truly a system 
of interdependent operations and seemingly small reductions of 
available controllers can significantly affect the operations at a 
particular airport or facility. In addition, we face staffing 
challenges at some of our major facilities and that was compounded by 
the furlough. Each facility operates differently and may have differing 
impacts depending on the specific traffic conditions at that airport. 
Commonly, a small reduction in available certified controllers prevents 
an individual facility from staffing an operational position which, in 
turn, reduces efficiency.
    There were no good options for achieving the savings required by 
sequester. We stopped all hiring and promotions and reduced spending to 
include contracts, training, travel, information technology, and all 
other categories, but that left us significantly short of the savings 
target. The only option remaining was to furlough all employees so we 
targeted eleven furlough days beginning April 21 through the end of the 
year, which would have resulted in one furlough day per pay period. We 
allocated furlough days equally across the whole system. From an 
operational standpoint, that resulted in a reduction of 10 percent of 
the available hours that an employee was available to work.

    Question 2. You and I have spoken multiple times previously, most 
recently last November, about the status of the solicitation for the 
new FAA training facility. Given that the FAA is currently conducting 
training activities at a temporary facility, can you tell me what the 
current timeline is and when you expect a decision to be announced?
    Answer. We anticipate awarding a contract for FAA training services 
in the second or third quarter of Fiscal Year 2014.

    Question 3. On April 1, I asked the head of the Air Traffic Control 
Tower Program at the FAA for the safety mitigation studies that the FAA 
has completed for the five contract towers currently operating in 
Missouri, of which four are slated to be closed. I know Senator Thune 
previously made a similar request for the studies for all domestic 
contract towers to be made available to him as well. When can I expect 
those?
    Answer. The FAA developed a national safety case to determine what 
needed to be done to convert Towered airports into non-Towered airports 
and captured those standards into a Safety Risk Management Document 
(SRMD). That process identified approximately 20 mitigations that would 
have to be applied at each airport. That airport-by-airport information 
was captured as part of the SRMD.

    Question 4. I understand that the safety studies conducted by the 
FAA regarding the effects of closing these towers on airport operations 
were preliminary in nature and that the FAA is currently undertaking 
in-depth safety mitigation studies of all of these towers. Why were the 
contracts for these towers revoked before the official, complete safety 
studies were completed? Where is the FAA in the process of completing 
these in-depth studies?
    Answer. Safety analyses were performed, consistent with the Safety 
Management System used by the Air Traffic Organization (ATO). It is 
important to recognize that changes to the National Airspace System 
(NAS), such as defunding the contract towers, require several steps in 
the safety review process before any change is actually made. A 
decision to move forward with a change does not, by itself, impose any 
change in the NAS, but it does trigger a further assessment of the 
safety issues and risks associated with implementing the change and an 
analysis of the necessary risk mitigation steps. Changes to the NAS are 
not actually made without an approved implementation plan that properly 
manages any safety risks. This is the process that was followed with 
the decision to defund contract towers.
    The FAA developed a national safety case to determine what needed 
to be done to convert Towered airports into non-Towered airports and 
captured those standards into a Safety Risk Management Document (SRMD). 
That process identified approximately 20 mitigations that would have to 
be applied at each airport. That airport-by-airport information was 
captured as part of the SRMD.

    Question 5. As a bi-product of pushing back the closing dates for 
the Contract Towers at airports, the FAA has had to find new off-sets 
to comply with the sequester. Where did the FAA cut commensurate 
spending to comply with the sequester?
    Answer. With the enactment of P.L. 133-9 (Reducing Flight Delays 
Act of 2013), the FAA was allowed to transfer $253 million from 
accounts previously exempted from sequestration. This infusion of funds 
allowed the agency to cancel a scheduled 11 day furlough for all 
employees and keep the 149 low activity contract towers originally 
slated for closure in June open for the remainder of Fiscal Year 2013.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Kelly Ayotte to 
                         Hon. Michael P. Huerta
    Question 1. In the hearing, I asked you to clarify the FAA's 
decision to close the contract tower in Nashua, New Hampshire, and to 
keep open the contract tower in Lebanon, New Hampshire. Since both 
towers are non-cost share, contract towers and since Lebanon has less 
traffic than Nashua, explain the FAA's decision to close the tower at 
Nashua and to keep open the tower at Lebanon. What is the distinction?
    Answer. The Nashua, NH FAA Contract Tower (FCT) was identified for 
defunding since it did not have 150K total operations or 10K commercial 
operations in FY 2012. The Lebanon, NH FCT was not considered since it 
had more than 10K commercial operations in FY 2012.

    Question 2. Is the Essential Air Service (EAS) program subject to 
sequestration? If so, has any portion of EAS been cut pursuant to 
sequestration? How much?
    Answer. The EAS program is subject to a sequester of approximately 
5 percent, however, the funding mechanisms in place for the program 
provide the Department with sufficient authority to cover the Fiscal 
Year 2013 requirements. For this reason, we do not believe, at this 
time, that EAS will experience a shortfall due to sequestration.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Barbara Boxer to 
                       Hon. Deborah A.P. Hersman
    Question. The NTSB has investigated several crashes of planes that 
were operating under contracts with Federal agencies, including the 
Department of Defense and the U.S. Forest Service (for firefighting). 
What recommendations has the NTSB made to improve the clarity, 
consistency and effectiveness of aircraft that are under contract for 
public use? What steps should the FAA and/or other agencies be taking 
to prevent future tragedies?
    Answer. The NTSB has been on record for years calling for clear 
lines of oversight and regulation for these special operations to 
ensure the safety of the operators and the public. In 2011, the NTSB 
held a forum to discuss public aircraft, their use and oversight.
    Many of the FAA regulations do not apply to aircraft operating 
under public aircraft operations. However, several government agencies 
contract with private companies for services as public aircraft, but 
require FAA certification as part of the contract. In the FAA's current 
guidance, any aircraft or airman certified by the FAA is subject to the 
FAA's normal surveillance activities regardless of whether operating 
under civil or public operations.
    In a recent investigation of an accident involving a Department of 
Defense (DOD) contractor, the flight operations were governed by the 
military requirements when it operated as specified in its contract, 
but in the same contract, was also required to use aircraft with a 
valid FAA airworthiness certificate. The operator met the requirements 
of the contract with an FAA Special Airworthiness Certificate--
Experimental. FAA regulations governing Experimental certificates 
state:

        ``Experimental certificates are issued for the following 
        purposes: (a) Research and development. Testing new aircraft 
        design concepts, new aircraft equipment, new aircraft 
        installations, new aircraft operating techniques, or new uses 
        for aircraft.
        (b) Showing compliance with regulations. Conducting flight 
        tests and other operations to show compliance with the 
        airworthiness regulations including flights to show compliance 
        for issuance of type and supplemental type certificates, 
        flights to substantiate major design changes, and flights to 
        show compliance with the function and reliability requirements 
        of the regulations.
        (c) Crew training. Training of the applicant's flight crews.
        (d) Exhibition. Exhibiting the aircraft's flight capabilities, 
        performance, or unusual characteristics at air shows, motion 
        picture, television, and similar productions, and the 
        maintenance of exhibition flight proficiency, including (for 
        persons exhibiting aircraft) flying to and from such air shows 
        and productions.
        (e) Air racing. Participating in air races, including (for such 
        participants) practicing for such air races and flying to and 
        from racing events.
        (f) Market surveys. Use of aircraft for purposes of conducting 
        market surveys, sales demonstrations, and customer crew 
        training only as provided in Sec. 21.195.''

    These regulations also prohibit the use of an aircraft with an 
experimental certificate to carry persons or property ``for 
compensation or hire.'' Therefore, flights under the provisions of the 
contract were conducted as public aircraft operations.
    The NTSB has recommended that the FAA:

        Take appropriate actions to clarify FAA authority over public 
        aircraft, as well as identify and document where such oversight 
        responsibilities reside in the absence of FAA authority. (A-10-
        150)

    Also, the NTSB has asked the FAA to:

        Develop and implement a surveillance program specifically for 
        14 CFR Part 135 operators with aircraft that can operate both 
        as public aircraft and as civil aircraft to maintain continual 
        oversight ensuring compliance with 14 CFR Part 135 
        requirements. (A-10-149)

    We believe if these recommendations are implemented and if the FAA 
exercises its current oversight authority, public aircraft operations 
will be safer.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                       Hon. Deborah A.P. Hersman
    Question 1. In the last five years, how many aviation accidents 
have occurred at or around airports with air traffic controllers and at 
airport without air traffic controllers on duty (non-towered airports)?
    Answer. According to the Bureau of Transportation Statistics, in 
2011 (latest available information) there were over 19,000 civil-use 
airports in the United States. Of that number, approximately 510 have 
at least part-time air traffic control (ATC) towers. In the data the 
NTSB does collect about aviation accidents, we do not track the number 
of accidents occurring at towered airports versus non-towered airports. 
The causes of many of our accidents are operational and mechanical and 
we continue to see these types of accidents. For this reason, we have 
Improve General Aviation Safety on our Most Wanted List: http://
www.ntsb.gov/safety/mwl.html. Also, most recently, we issued six Safety 
Alerts to the general aviation community--pilots and mechanics--in 
hopes preventing those accidents we see too often.

    Question 2. Based on the aviation accidents that the National 
Transportation Safety Board has investigated during your chairmanship, 
do you think non-towered airports pose an elevated risk for incidents?
    Answer. We have no evidence that there is a higher rate of 
accidents and incidents at non-towered airports. However, the aviation 
system is complex with multiple layers of safety, and control towers 
are another layer of safety in the system.

    Question 3. Does the NTSB consider the air traffic control tower 
status during investigations, whether as a contributing factor to the 
cause or the efficiency and quality of the response?
    Answer. When investigating any accident or incident where air 
traffic control services are involved, we always evaluate the role of 
ATC in both its primary role of traffic separation and its support role 
of improving safety by providing other weather and advisory services to 
pilots. We note both positive and negative aspects, and document any 
areas that are exemplary or need improvement.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Maria Cantwell to 
                       Hon. Deborah A.P. Hersman
General Aviation Safety
    Question. Chairwoman Hersman, in your testimony you said that 
general aviation fatality rates have shown little movement in recent 
years despite of efforts to improve safety.
    You cite several leading causes that continue to cause most of the 
accidents. These are loss of control, engine failure, flying in 
conditions that are beyond the pilot or aircraft's abilities and 
collision with terrain. What can be done beyond the improved safety 
alerts?
    Answer. General aviation (GA) is a recreational activity that 
relies on the pilot community to make good decisions before, during, 
and after flight. Over the past 10 years, the accident rate for GA has 
averaged 6.7 accidents per 100,000 flight hours, which in 2012 equated 
to 1,470 accidents. Because of this stubborn average, in June 2011, the 
National Transportation Safety Board (NTSB) added Improve General 
Aviation Safety to its Most Wanted List (MWL), and we renewed our 
commitment to this issue by also including it on our 2013 MWL. We 
believe that our focus on the topic has increased awareness of the 
safety issues related to being a pilot or mechanic in GA.
    Additionally, in June 2012, the NTSB conducted a 2-day forum, 
``General Aviation Safety: Climbing to the Next Level,'' that focused 
on key safety issues such as pilot training and performance; pilot 
access to and use of weather-related information; and aircraft design, 
maintenance, and certification. Panelists included representatives from 
industry, government, academia, and professional associations. The 
forum was well attended and received considerable media coverage. In 
addition, throughout the year, staff educated general aviation pilots 
through briefings and seminars.
    To increase educational efforts, the NTSB will be producing videos 
for our website to accompany and enhance the GA safety alerts. We will 
also distribute them to type clubs and flight schools.
    In early April, we met with various Federal agencies, academia, and 
appropriate organizations to determine what additional information NTSB 
staff can collect during accident investigations that would assist in 
the development of safety improvements by not just the NTSB but outside 
entities as well. Finally, we plan to work with outside organizations 
such as the Aircraft Owners and Pilots Association and Embry-Riddle 
Aeronautical University as they develop training aids for general 
aviation pilots.
    We welcome the opportunity to work with policymakers, like you, to 
find additional ways to sharpen the focus on improving GA safety--an 
area in which we see the same accidents over and over. Through 
education, I believe we can make a positive difference in the rate and 
number of accidents and fatalities in recreational flying.
                                 ______
                                 
 Response to Written Questions Provided by Hon. Frank R. Lautenberg to 
                       Hon. Deborah A.P. Hersman
    Question 1. During the FAA's initial certification of the 787 
aircraft, Boeing claimed that its batteries would emit smoke less than 
once in every 10 million hours of flight. However, the 787 fleet 
experienced two batteries emitting smoke in less than just 100,000 
hours of flight.
    Given the disparity between the predicted smoke events and the 
actual events, did the FAA certification process work as intended to 
mitigate the risk of equipment malfunction?
    Answer. The ongoing NTSB investigation is examining the 
certification process for the lithium ion battery used in the 787. The 
certification process acknowledges that equipment malfunctions can 
occur and, as a result, requires the development of a design safety 
assessment for all equipment on the aircraft to understand and mitigate 
the risks of equipment malfunction. As part of the safety assessment 
process, the manufacturer takes steps to identify foreseeable failures 
and analyze their safety effect on the passengers, crew, and aircraft. 
Evaluating this information as part of the design certification process 
allows the Federal Aviation Administration (FAA) to ensure that the 
manufacturer incorporates sufficient design features, warning 
indications, and/or flight crew procedures to effectively mitigate the 
risks such failures pose to the aircraft and those on board. 
Correspondingly, the design safety assessment is a critical step in the 
certification process.
    As part of the certification process of the 787-8 Electrical Power 
System, Boeing performed a design safety assessment of the main and 
auxiliary power unit (APU) lithium-ion battery to determine the 
potential hazards that battery failures could introduce to the airplane 
and its occupants and to demonstrate that the risk associated with 
these failures was sufficiently mitigated. Boeing anticipated that the 
combined group of failures that could result in battery venting with 
smoke could occur less than once in every 10 million flight hours. 
However, within about 58,000 flight hours, the 787-8 fleet experienced 
two (one main and one APU) battery failures that resulted in smoke 
emission from the battery. Based on testimony provided at the National 
Transportation Safety Board's (NTSB) April 2013 investigative hearing 
on Boeing 787 battery design and certification, the testing and 
analysis performed as part of the certification process did not 
accurately predict how often a single cell would vent, resulting in the 
emission of smoke and electrolyte, or that the venting of a single cell 
could propagate to the other seven cells inside the battery case, 
causing the release of smoke and electrolyte from the battery.
    Although the probability of this battery failure condition was not 
accurately assessed as part of the certification process, neither the 
Japan Airlines battery fire incident at Boston Logan International 
Airport, Boston, Massachusetts, or the All Nippon Airways battery smoke 
incident at Takamatsu, Japan, resulted in injury to the passengers or 
crew or significant damage to the airplane. In the Japan Airlines 
battery fire incident, smoke entered the cabin of the airplane after 
the airplane's only electrical power source, the APU, shut down in 
response to the battery failure, as it was designed to do. This event 
was after all passengers and crew had disembarked the plane. The 
cleaning personnel on the airplane at the time the smoke began to enter 
the cabin quickly exited without harm.
    According to information released by the Japan Transport Safety 
Board regarding the circumstances of the All Nippon Airways battery 
smoke incident, passengers reported odor but not smoke in the main 
cabin during the incident flight. The airplane did not lose electrical 
power during the incident, thereby allowing the ventilation system in 
the forward electrical equipment bay to function as designed to exhaust 
smoke released from the battery outside the airplane.
    Although the impact of the battery smoke emissions in these 
incidents was minimal, given the importance of probability analyses to 
the accuracy of design safety assessments used in the FAA's 
certification process, the NTSB believes that the underlying factors 
driving the inaccuracy of the failure predictions must be identified to 
ensure that safety risks in future certification programs are 
accurately defined and understood.

    Question 2. What steps should be taken to improve the FAA 
certification process to prevent this type of incident from happening 
again?
    Answer. As part of its investigation, the NTSB is examining a 
number of factors affecting the accuracy of Boeing's probability 
assessment for a battery venting with smoke. The NTSB investigation is 
also examining the methods, data, and expertise used in the 
certification process to determine that the battery met all applicable 
FAA safety requirements, in particular the nine Special Conditions 
defined by the FAA in 25-359-SC, which are attached.
    Based on its findings to date, the NTSB believes that examination 
of these factors is the first step needed to support the development of 
useful improvements to the FAA certification process. The NTSB will 
look for vulnerabilities in the underlying processes used to evaluate 
and approve airplane systems and equipment certified under Special 
Conditions, as well as potential implementation shortcomings that may 
be unique to the 787 APU and main lithium-ion battery system 
certification program. The NTSB will make safety recommendations, as 
warranted, aimed at preventing similar incidents or accidents in the 
future, and I will share these recommendations with you when they are 
issued.
                               Attachment

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
     Response to Written Questions Submitted by Hon. Dan Coats to 
                       Hon. Deborah A.P. Hersman
    Question 1. Chairman Hersman: Watching the 787 investigation from 
the outside, it seems there are four distinct investigations going on, 
at the JTSB, the NTSB, the FAA, and Boeing. Since there hasn't been an 
accident, who has cognizance and authority over the outcome of these 
investigations?
    Answer. Senator Coats, the National Transportation Safety Board 
(NTSB) is responsible for the investigation of the January 7 JAL 
battery fire that occurred at Boston's Logan International airport. 
Fire on board an aircraft is a safety of flight issue, and as such, the 
NTSB is reviewing the certification and testing of the battery, the 
manufacturing process used for the battery, and other issues relevant 
to the battery fire. The NTSB issued an interim factual report on March 
7, containing initial factual information about the battery 
examination. We hope to complete our final report in the next 6 months 
and issue recommendations to keep this type of fire on board an 
aircraft from happening again.
    In accordance with international agreements, the JTSB is conducting 
an investigation in to the January 16 ANA battery event. The FAA is 
conducting separate certification reviews, and Boeing is leading its 
own independent review. They are the best entities to respond to 
questions about their on-going reviews and investigations. I can tell 
you, however, that the JTSB, FAA, and Boeing are all parties to our 
limited battery fire investigation, and the parties are working 
together to provide factual information related to the January 7 fire, 
and their participation will result in a more complete final report.

    Question 2. Chairman Hersman: As you know Congress passed 
legislation in 2010 that enacted regulations making it tougher to 
become an airline pilot. Specifically, the bill required the FAA to 
draft and enact a number of regulations with regards to the experience 
a pilot must have before they can be hired to engage in airline (Part 
121) flying. At the core of the proposed regulations is that all 
airline pilots--captains and first officers--must have an Airline 
Transport Pilot Certificate by August of 2013. The ATP certificate 
comes with a new eligibility requirement of between 750 and 1,500 hours 
of total flight time (the ``1,500 hour rule''), with 750 hours applying 
to military pilots and 1,500 hours applying to most civilian pilots. 
For civilian-trained pilots, this represents about a 700-hour increase 
over current airline hiring minimums. I'm not an expert in this area, 
but I imagine that given a choice an airline will hire pilots who show 
proficiency, rather than a specific number of hours.
    By forcing airlines to look for such high hours, do you reduce the 
pool of candidates to such a degree that it has an unintended, negative 
safety consequence?
    Answer. The NTSB has focused our recommendations on crew 
proficiency on specific procedures and training, needed regulations, 
and needed guidance to crews and operators rather than flight hour 
minimums. For greater insight on these issues, I have attached NTSB 
comments to the recent NPRM the FAA issued on the topic.

    Question 2a. How would you characterize the impact this potential 
rule has on the pool of qualified applicants available to commercial 
airlines?
    Answer. It would be difficult to determine the impact of this 
potential rule on the pool of qualified applicants. The NTSB has 
consistently advocated that qualification as an airline flight 
crewmember should be based on knowledge, skills, professionalism, and 
proficiency.

    Question 3. Chairman Hersman: In your written testimony you stated 
``industry changes--including two pilot cockpits and the advent of 
regional carriers had resulted in opportunities for pilots to upgrade 
to captain without having accumulated significant experience as a first 
officer in a Part 121 operation.''
    In your tenure as Chairman, what correlation have you seen between 
low hours and accidents at regional and mainline carriers?
    Answer. In several of our investigations, the NTSB has seen airline 
pilots with various levels of flight hours who make mistakes. As a 
result, the NTSB has issued recommendations that we believe will 
improve the knowledge, skills, professionalism, and proficiency of 
flight crew.

    Question 3a. Can you please share with us the specific accidents at 
Part 121 carriers that occurred as a result of pilots upgrading to 
captain without accumulating experience in Part 121 operations?
    Answer. Unfortunately, we have not yet conducted a more in depth 
search of all our aviation investigations in which pilot training was a 
leading or contributing factor.

    Question 4. Chairman Hersman: As you may know Purdue University's 
College of Technology has a very highly regarded flight training 
program. Universities like Purdue are producing competent pilots, who 
are flying in Part 121 environments, who will have about 400-500 hours 
upon graduation. How will these pilots bridge the gap between their 
current training and the hour expectations of the anticipated rule?
    Answer. The NTSB believes that a combination of focused academic 
training and structured flight training can benefit aspiring pilots. 
The FAA's recent NPRM does not address how to define, conduct oversight 
of, and apply this academic credit. We believe these issues must be 
addressed to fully evaluate how academic class time can be treated as 
training.

    Question 4a. Has any thought been given to pilots who entered 
flight training assured that they would be eligible for hire upon 
graduation, who will now have to go and spend years outside of the 
structured training environment?
    Answer. As stated previously, the NTSB believes that appropriate 
knowledge, skills, professionalism, and proficiency are attributes a 
new pilot should have.

    Question 4b. Is there a danger that they will lose some of their 
knowledge and training during this period of time?
    Answer. Programs should increase and enhance pilots' knowledge, 
skills, proficiency, and professionalism.

    Question 4c. There is, already, an enormous cost burden on future 
pilots. Will this rule put the cost of training out of reach for 
aspiring pilots?
    Answer. The NTSB does not conduct cost-benefit analysis, but 
through our investigations, awareness of industry training technology, 
standards, and initiatives, we know that flight training devices and 
simulators, if used appropriately, may decrease the cost of training 
and provide a structured training environment for the development of 
airmanship skills, honing procedures, and learning how to address 
abnormalities and emergencies.
    In addition, during a May 2010, forum on pilot professionalism in 
aviation, ab initio training, which allows prospective pilots selected 
by an airline to participate in training ranging from basic ground to 
flight training to develop the pilot's line qualifications, was 
discussed. Ab intitio is practiced in other countries. This approach to 
training lessens the cost to the pilot and exposes them to the airlines 
culture and the multi-crew concept from the very beginning of their 
career.
    Last, we know of accredited university gateway programs that 
provide pilots with a career path through mentoring and training from 
the university level to the airlines. Although we have not conducted 
analyses of the costs of these approaches, or the cost of additional 
hours of experience, we believe there exist innovative and technically 
competent ways to address this issue at the industry level.
                                 ______
                                 
                       National Transportation Safety Board
                                     Washington, DC, April 30, 2012
Office of the Chairman,
Docket Operations, M-30,
U.S. Department of Transportation,
Washington, DC.

Attention: Rules Docket No. FAA-2010-0100

Dear Sir or Madam:

    The National Transportation Safety Board (NTSB) has reviewed the 
Federal Aviation Administration's (FAA) notice of proposed rulemaking 
(NPRM) titled ``Pilot Certification and Qualification Requirements for 
Air Carrier Operations,'' which was published at 77 Federal Register 
(FR) 12374 on February 29, 2012. The notice proposes to create new 
certification requirements for pilots in air carrier operations, 
including requiring that first officers in 14 Code of Federal 
Regulations (CFR) Part 121 operations hold an airline transport pilot 
(ATP) certificate and type rating for the aircraft to be flown; 
allowing pilots with an aviation degree or military pilot experience 
but fewer than 1,500 hours total time as a pilot to obtain an ATP 
certificate with restricted privileges; and requiring at least 1,000 
flight hours in air carrier operations to serve as pilot-in command 
(PIC) in Part 121 air carrier operations. The notice also proposes to 
modify the requirements for obtaining an ATP certificate with an 
airplane category multiengine class rating or type rating to require 50 
hours of multiengine flight experience and completion of a new FAA-
approved ATP certificate training program that would include academic 
training and training in a flight simulation training device. According 
to the NPRM, these changes would help to ensure that pilots entering an 
air carrier environment have the training and aeronautical experience 
necessary to adapt to a complex, multicrew environment in a variety of 
operating conditions.\1\
---------------------------------------------------------------------------
    \1\ According to the NPRM, the PIC requirements would affect pilots 
operating under Part 121, as well as those operating under Part 135 and 
Part 91, subpart K. In addition, the proposed ATP certification 
training program would affect certificate holders under Parts 121, 135, 
141, or 142 if they offer the program.
---------------------------------------------------------------------------
    The NPRM cites the 2009 Colgan Air accident near Buffalo, New York, 
as an event that focused public, congressional, and industry attention 
on flight crew experience requirements and training for conducting Part 
121 air carrier operations. In February 2010, the FAA published an 
advance notice of proposed rulemaking (ANPRM), titled ``New Pilot 
Certification Requirements for Air Carrier Operations'' (75 FR 6164, 
February 8, 2010) that sought input on current Part 121 eligibility, 
training, and qualification requirements for seconds-in-command 
(SICs).\2\ The current NPRM is based on comments in response to the 
ANPRM, input received from an aviation rulemaking committee established 
in July 2010, and statutory requirements for modifying ATP 
certification outlined in the Airline Safety and Federal Aviation 
Administration Extension Act of 2010 (Public Law 111-216).
---------------------------------------------------------------------------
    \2\ On April 8, 2010, the NTSB submitted comments on the ANPRM; 
citing the increasing complexity of the operating environment and the 
airplanes that are flown today, the NTSB indicated general support for 
the proposed changes in requirements for eligibility, training, and 
qualifications for air carrier pilots operating under Part 121. The 
NTSB's comments also identified the need to ensure these changes would 
apply to all revenue air carrier operations, including those conducted 
under Part 135. Finally, the NTSB acknowledged that the FAA must 
provide the personnel required to support oversight of the changes 
discussed in the ANPRM.
---------------------------------------------------------------------------
    Adding to that foundation, the NPRM states that the FAA conducted a 
study of 61 NTSB investigation reports from Fiscal Year (FY) 2001 
through FY 20 10 (31 Part 121 accidents and 30 Part 135 air carrier 
accidents, with 107 fatalities, 28 serious injuries, and 44 minor 
injuries). The study showed that the accidents examined involved pilot 
deficiencies in aircraft handling, including stall and upset 
recognition and recovery, high altitude training, active pilot 
monitoring skills, effective crew resource management (CRM), stabilized 
approaches, operations in icing conditions, and hypoxia training. The 
NPRM asserts that the changes to air carrier pilot qualification would 
address, in part, 21 NTSB safety recommendations in the following 
areas:

------------------------------------------------------------------------
            Safety Issue                       Recommendations
------------------------------------------------------------------------
Training flight crews to respond to  A-96-120, A-04-62, A-07-3, and A-09-
 sudden, unusual, or unexpected       113
 aircraft upsets
------------------------------------------------------------------------
Developing and conducting stall      A-1 0-22 and -23
 recovery training and providing
 stickpusher familiarization
 training for pilots of stickpusher-
 equipped aircraft
------------------------------------------------------------------------
Training in high altitude            A-07-1 and -2
 operations
------------------------------------------------------------------------
Training and guidance for rudder     A-02-2
 use in transport-category aircraft
------------------------------------------------------------------------
Airport situational awareness        A-07-44
------------------------------------------------------------------------
Stabilized approach concept          A-01-69 and A-08-18
------------------------------------------------------------------------
Landing performance calculations     A-07-59 and A-08-41
------------------------------------------------------------------------
CRM training                         A-03-52
------------------------------------------------------------------------
Pilot monitoring duties              A-10-10
------------------------------------------------------------------------
Requirements for flight crewmember   A-1 0-15
 academic training regarding
 leadership and professionalism
------------------------------------------------------------------------
Training in icing conditions         A-07-14
------------------------------------------------------------------------
Hypoxia awareness training           A-00-110
------------------------------------------------------------------------
Training in landing and taking off   A-10-110 and -111
 in crosswinds with gusts
------------------------------------------------------------------------

    The NTSB is generally supportive of the proposed rule as it relates 
to many of the issues previously identified in our safety 
recommendations. Specific comments on several areas of the NPRM follow.
Academic Credit To Reduce Flight Experience Requirements
    Although the NTSB has not made recommendations for flight hour 
m1rumums for air carrier pilots (instead focusing its recommendations 
on specific procedures and training, needed regulations, and needed 
guidance to crews and operators), we stated in our comments on the 
ANPRM that:

        Ensuring a high level of knowledge, skills, and professionalism 
        for flight crewmembers is essential, but total flight hours or 
        an airline transport pilot certificate does not necessarily 
        equate to the level of knowledge, skills, and professionalism 
        required for consistently safe flight operations.

    The comments went on to state that, ``the NTSB recognizes the value 
of academic training for air carrier pilots, but the NTSB also believes 
that academic training is not a substitute for practical experience.''
    An important tenet in the recent NPRM is the concept that, ``in 
certain circumstances, the combination of focused academic training and 
structured flight training can substitute for actual flight 
experience'' (p. 12379). The NTSB concurs with the FAA's 
acknowledgement that there may be multiple pathways to becoming a 
qualified air carrier pilot. However, there remain unresolved issues 
for how academic credit should be applied, including student 
performance within an accredited academic program and the type of 
degree conferred. These issues are not addressed in the NPRM and 
require more evaluation before this proposal is implemented. It is 
essential that the content and rigor involved in academic training be 
clearly defined and, most importantly, appropriate resources allocated 
to conduct evaluation and oversight of these alternative methods of 
qualification.
ATP Certification Training Program
    The NPRM discusses the establishment of an FAA-approved ATP 
certificate training program for a multiengine class ATP or type 
rating. The proposed training program outlined under section 61.154 
would include 24 hours of classroom training and 16 hours of simulator 
training (8 in a full flight simulator of at least Level C standards) 
and is intended to provide pilots with the core knowledge and 
understanding in areas critical to operating high performance aircraft 
in a complex and high altitude environment. The training would be 
provided by an authorized training provider and would be required to be 
completed before a pilot would be eligible to take the ATP knowledge 
test. Issued as part of the NPRM, draft Advisory Circular (AC) 61-ATP, 
``Airline Transport Pilot Certification Training Program for Airplane 
Category Multiengine Class Rating or Type Rating,'' contains an outline 
of the curriculum topics and objectives for both the classroom and 
simulator training making up this training program. The AC is intended 
for use by training providers when developing the program and by the 
FAA when reviewing and approving the programs.
    Many of the topics contained in the draft AC address issues from 
NTSB safety recommendations; in fact, the FAA notes that most of the 21 
recommendations cited in the NPRM are addressed, in part, by the 
proposed amendments and advisory material. Although the NTSB concurs 
with the FAA's assessment that, in most cases, the topics addressed 
will serve to partially satisfy the action requested in existing 
recommendations, the amount of specificity provided in the proposed 
rule and AC does not allow a comprehensive review of the degree to 
which the FAA's proposed actions would satisfY the intent of the NTSB's 
recommendations. In some instances, neither document provides evidence 
that a recommendation topic is addressed.\3\
---------------------------------------------------------------------------
    \3\ Many of the recommendations cited in the NPRM contain explicit 
requirements for procedural change or apply more broadly to other 
operational areas in the industry. For example, although Safety 
Recommendation A-07-44 identifies the need for specific callouts to be 
used during ground operations when entering a runway before takeoff, 
the training outlined in the NPRM and AC only specifies that 
situational awareness on the ground be covered as a topic area. In 
addition, Safety Recommendation A-08-18 identifies the need for 
specific action regarding go-around callouts, but neither the NPRM nor 
the AC contains any clearly identifiable reference to go-arounds. 
Finally, Safety Recommendation A-10-23 identifies the need for 
stickpusher familiarization training for pilots of stickpusher-equipped 
aircraft, but neither the NPRM nor the AC specifically outlines 
stickpusher familiarization.
---------------------------------------------------------------------------
    The NTSB notes that recent safety recommendations in this area have 
focused on attempts to improve crew response to in-flight emergencies, 
including task prioritization and training.\4\ While AC 61-ATP does 
include a classroom training objective named ``differences between 
emergency and non-normal checklist procedures and checklists,'' the 
guidance on emergency procedures should be made more explicit to 
incorporate the issues identified in these NTSB recommendations. CRM is 
another topic relevant to previous NTSB recommendations and outlined in 
AC 61-ATP. However, the list of proposed topics in the AC does not 
explicitly refer to the importance of first officer assertiveness, 
which is an issue addressed in Safety Recommendation A-11-39.\5\ This 
recommendation is not cited in the NPRM, but the NTSB believes that it 
is within the scope of the draft advisory material and suggests 
amending the AC to include information consistent with Safety 
Recommendation A-11-39 to help support this important aspect of CRM.
---------------------------------------------------------------------------
    \4\ For example, Safety Recommendation A-09-22 asks the FAA to 
``require principal operations inspectors to review their operators' 
pilot guidance and training on task allocation and workload management 
during emergency situations to verify that they state that, to the 
extent practicable, the pilot running the checklists should not engage 
in additional nonessential operational tasks, such as radio 
communications.'' Safety Recommendations A-09-24 and -25, respectively, 
ask the FAA to ``establish best practices for conducting both single 
and multiple emergency and abnormal situations training'' and ``. . . 
require that these best practices be incorporated into all operators' 
approved training programs.''
    \5\ Safety Recommendation A-11-39 asks the FAA to ``require that 
role-playing or simulator-based exercises that teach first officers to 
assertively voice their concerns and that teach captains to develop a 
leadership style that supports first officer assertiveness be included 
as part of the already required crew resource management training for 
14 Code of Federal Regulations Part 121, 135, and 91 subpart K 
pilots.''
---------------------------------------------------------------------------
    The NTSB is encouraged that the NPRM proposes to centralize the 
process for approving ATP certification training programs. 
Specifically, the NPRM states that only authorized training providers 
can administer the training required under section 61.154. These 
providers can be certificate holders providing training and operating 
under Parts 141, 142, 121, or 135, and each provider must receive 
approval of their ATP certification training program by the FAA Air 
Transportation Division (AFS-200). The NTSB notes that, theoretically, 
centralization should help to ensure standardization of these programs, 
but suggests that additional guidance documentation with more specific 
and robust detail about the content of the proposed training is 
necessary to provide a solid foundation on which the FAA can evaluate 
the program content (and to assist training providers to develop 
courses likely to receive FAA approval). For example, additional 
detail, such as cross-referencing material from draft AC 120-STALL, 
would be appropriate in the discussion of stall training in AC 61-ATP. 
In addition, the FAA will need to provide the appropriate oversight 
resources to these programs-not only in their initial approval but also 
to conduct ongoing oversight to demonstrate that the content delivered 
is consistent with the approved program. The rigor with which these 
programs are implemented and overseen will determine their ultimate 
influence on improving safety in air carrier operations.
Pilot-in-Command Requirements for Air Carrier Operations
    The NPRM proposes primarily experience-based requirements for new 
PICs in air carrier operations. However, the NTSB has previously issued 
safety recommendations addressing the need for a specific leadership 
training course for upgrading captains.\6\ Although the NPRM cites 
Safety Recommendation A-10-15 \7\ and describes it as applicable to 
leadership and professionalism training, it addresses only the latter 
topic. The NPRM does not mention Safety Recommendations A-10-13 and -
14, which were issued with -15, but the NTSB believes that a leadership 
training course for upgrading captains is within the scope of the 
proposed rulemaking and that section 121.436 should be amended to 
include a specific requirement for such a course.
---------------------------------------------------------------------------
    \6\ Safety Recommendation A-10-13 asks the FAA to ``issue an 
advisory circular with guidance on leadership training for upgrading 
captains at 14 Code of Federal Regulations Part 121, 135, and 91K 
operators, including methods and techniques for effective leadership; 
professional standards of conduct; strategies for briefing and 
debriefing; reinforcement and correction skills; and other knowledge, 
skills, and abilities that are critical for air carrier operations.'' 
Safety Recommendation A-10-14 asks the FAA to, ``require all 14 Code of 
Federal Regulations Part 121, 135, and 91K operators to provide a 
specific course on leadership training to their upgrading captains that 
is consistent with the advisory circular requested in Safety 
Recommendation A-10-13.''
    \7\ Safety Recommendation A-10-15 asks the FAA to ``develop, and 
distribute to all pilots, multimedia guidance materials on 
professionalism in aircraft operations that contain standards of 
performance for professionalism; best practices for sterile cockpit 
adherence; techniques for assessing and correcting pilot deviations; 
examples and scenarios; and a detailed review of accidents involving 
breakdowns in sterile cockpit and other procedures, including this 
accident Obtain the input of operators and air carrier and general 
aviation pilot groups in the development and distribution of these 
guidance materials.''
---------------------------------------------------------------------------
    In addition to the requirements already outlined in section 
121.434, the NTSB has recommended that Part 135 pilots who need a type 
rating for the aircraft they fly be required to have a minimum level of 
initial operating experience.\8\ Given the applicability of the NPRM to 
Part 135 pilots who are engaged in air carrier operations, the NTSB 
believes it would be appropriate to incorporate similar experience 
requirements for these pilots as exist for Part 121 pilots.
---------------------------------------------------------------------------
    \8\ Specifically, Safety Recommendation A-10-57 asks the FAA to 
''require that pilots who fly in 14 Code of Federal Regulations (CFR) 
Part 135 operations in aircraft that require a type rating gain a 
minimum level of initial operating experience, similar to that 
specified in 14 CFR 121.434, taking into consideration the unique 
characteristics of Part 135 operations.'' Safety Recommendation A-10-58 
asks the FAA to ''require that pilots who fly in 14 Code of Federal 
Regulations (CFR) Part 135 operations in an aircraft that requires a 
type rating gain a minimum level of flight time in that aircraft type, 
similar to that described in 14 CFR 121.434, taking into consideration 
the unique characteristics of Part 135 operations, to obtain 
consolidation of knowledge and skills.''
---------------------------------------------------------------------------
    The NTSB supports the use of simulators in training environments 
and notes that the training program outlined in the NPRM specifies that 
training on topics such as low energy states/stalls and upset recovery 
techniques will be conducted in a Level C or higher full-flight 
simulator. Simulators, regardless of their fidelity, are dependent on 
their physical limits of motion, as well as the efficacy of the 
available computer programs (which are often limited in issues of upset 
training because of the lack of flight test data at the extreme areas 
of the flight envelope). Simulators are not always adequate in 
portraying upsets and stalls and may inadvertently introduce negative 
training. Consistent with Safety Recommendation A-04-62,\9\ the FAA 
should allow flexibility in determining what level of simulation or 
automation is appropriate for specific training.
---------------------------------------------------------------------------
    \9\ Safety Recommendation A-04-62 asks the FAA to ``. . . evaluate 
issues concerning the level of automation appropriate to teaching upset 
training and develop and disseminate guidance that will promote 
standardization and minimize the danger of inappropriate simulator 
training.''
---------------------------------------------------------------------------
Summary Observations
    This NPRM addresses many training issues applicable to becoming an 
air carrier pilot, including some critical issues demonstrated in 
recent accident history to be responsible for accidents. The NTSB is 
encouraged that its recommendations were considered in the development 
of this proposed rule, especially as the issue areas relate to the core 
content to be provided to new entrant pilots through the ATP 
certification training program. However, the intent of our 
recommendations in this area is for all pilots to receive training in 
these topics. Therefore, it is important that air carriers provide 
equally robust training in these topic areas for their current air 
carrier pilots on a recurrent basis.
    The NTSB appreciates the opportunity to comment on this NPRM.
            Sincerely,
                                      Deborah A.P. Hersman,
                                                          Chairman.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                      Gerald L. Dillingham, Ph.D.
    Question 1. In September 2011, the GAO released a report entitled 
``Status of FAA's Actions to Oversee the Safety of Composite 
Airplanes''. Did the GAO find that FAA followed its certification 
process in assessing the Boeing 787 airplane's composite fuselage and 
wings against applicable FAA airworthiness standards?
    Answer. GAO found that FAA followed its certification process in 
assessing the Boeing 787 airplane's composite fuselage and wings 
against applicable FAA airworthiness standards.\1\ FAA applied five 
special conditions when it found that its airworthiness standards were 
not adequate to ensure that the composite structures would comply with 
existing safety levels. These special conditions, which relate to novel 
features of the airplane's composite fuselage and wings, require Boeing 
to take additional steps to demonstrate the 787's structures meet 
current performance standards.
---------------------------------------------------------------------------
    \1\ GAO, Aviation Safety: Status of FAA's Actions to Oversee the 
Safety of Composite Airplanes, GAO-11-849 (Washington, D.C.: September 
21, 2011).
---------------------------------------------------------------------------
    FAA evaluated technical issues related to the composite feature, 
identified regulatory standards that may not be adequate, consulted 
with technical and scientific experts, and documented Boeing's 
position. FAA documented its evaluation of the airplane's design issues 
and gaps in the regulatory standards. We also found sufficient evidence 
that in developing each of the special conditions, FAA involved 
technical specialists and, in some cases, relied on research done at 
its technical research center. In addition, we found that, consistent 
with FAA policy, FAA adequately documented the implications of the 
composite features on safety, why the existing airworthiness standards 
were not adequate, and how the special conditions would enable the 787 
airplane to meet the current level of safety.

    Question 2. FAA applied five special conditions when it found that 
its existing airworthiness standards were not adequate to ensure that 
the composite structures would comply with existing safety levels. Did 
the GAO find that the FAA followed its processes which included 
monitoring Boeing's compliance with these special conditions?
    Answer. On the basis of our review of FAA's documentation and 
discussion with FAA officials about its activities in developing the 
five special conditions, we found that FAA followed the special 
conditions process.\2\ Specifically, we found that FAA followed its 
process by documenting the technical issues related to the design of 
the composite fuselage and wings, determining the special conditions 
and equivalent level of safety finding, obtaining public comments on 
draft special conditions, and monitoring Boeing's compliance with those 
conditions.
---------------------------------------------------------------------------
    \2\ FAA also developed five means of compliance issues papers that 
described how Boeing would demonstrate compliance of the 787's 
composite fuselage and wings with regulatory standards.
---------------------------------------------------------------------------
    We found that FAA tracked the status of the deliverables Boeing 
provided in order to determine that the manufacturer complied with the 
special conditions and was demonstrating that it could meet safety 
levels. We found that FAA tracked the dates each deliverable was 
received and approved. For most deliverables, FAA staff, rather than a 
designee, was responsible for approving the deliverable, especially for 
more significant tests and documents. Although FAA desginees were the 
responsible officials for witnessing the certification tests, Boeing 
representatives invited FAA staff to observe the tests as well, and FAA 
staff attended many of them. Boeing tested full-scale structures, such 
as a portion of the wing span, the horizontal stabilizer, and the 
fuselage. Some of these tests were conducted to simulate how certain 
composite structures would perform in a crash. One such test, which FAA 
technical staff monitored, involved vertically dropping a section of a 
composite fuselage from a height and at a rate that FAA required. The 
test validated the analytical model used to assess the behavior of the 
787 fuselage for all the design conditions required under the special 
conditions.
    The scope of our review was limited to the special conditions 
applied to the design of the 787 composite airplane's wings and 
fuselage. We focused on the special conditions and equivalent safety 
level finding because we were interested in determining whether FAA 
followed it process for developing them and the information was 
publicly available. We did not conduct a comprehensive review of all of 
the airworthiness standards that affect the composite fuselage or wings 
nor did we make an assessment of whether FAA should have created 
special conditions for the composite features in addition to those 
identified by FAA. We did not review the formulation, testing, or 
certification of any other special conditions, nor did we evaluate the 
inspection process for the production of aircraft post-certification.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Dan Coats to 
                      Gerald L. Dillingham, Ph.D.
    Question. Dr. Dillingham, you have a strong research-based 
background in the area of pilot training metrics. Based on your 
previous research, do you think that a pilot shortage would play out 
unevenly across the country, impacting smaller and more remote 
communities the hardest?
    Answer. Our previous research in this area, from 2011, highlighted 
various industry concerns about a potential pilot shortage but found 
the existing evidence mixed as to whether a shortage was occurring or 
might occur in the future. Further, our research did not explicitly 
address how or whether a potential pilot shortage might differently 
impact various markets across the country.
    Nonetheless, we reported in 2011 that regional airlines told us 
they were expecting legislative changes to pilot requirements and rest 
rules to impact their ability to hire qualified entry-level pilots. In 
particular, the new rules will require pilots to have adequate rest 
between shifts, and have more flying hours before they can become 
qualified to work as commercial pilots, thus increasing the cost and 
time it takes for people be enter this occupation. Labor economics 
literature suggests that, if an employer cannot find adequate labor at 
the wage and working conditions it is offering, the employer can change 
those conditions to attract more workers. At this time, it is unknown 
whether regional airlines serving smaller and more remote communities 
will respond to any difficulties finding appropriately trained pilots--
if those problems develop--by offering higher pay, or assistance with 
training costs in order to attract their desired workforce. Such 
activities will raise costs for these carriers, who are then likely to 
pass some or most of those costs on to passengers in the form of higher 
fares. It follows then, that because higher fares will likely lead to 
some curtailment in demand, any developing shortage of pilots may be 
somewhat mitigated by a reduction in the level of aviation service. 
Whether that dynamic would play out differently across different sized 
communities is unknown at this time.
    Looked at more broadly however, many factors, beyond the 
availability of pilots, affect the services that airlines choose to 
provide. For example, high and volatile fuel prices, lack of demand 
resulting from difficult economic conditions, changes in fleet 
composition, among other factors can all affect whether airlines choose 
to serve various communities. These factors may play a more important 
role in how services to these markets are impacted than the possible 
impacts of a potential pilot shortage.
    We have work currently underway to revisit these issues in light of 
continued industry concerns and reports about a pilot shortage, and the 
impending implementation of pilot rest rules and new pilot 
requirements.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                          Jeffrey B. Guzzetti
Challenges to FAA Finalizing Rulemaking Required Under the Airline 
        Safety Act
    Question 1. Mr. Guzzetti, the IG's January 2013 status report on 
the implementation of the Airline Safety Act says, ``FAA faces 
significant challenges to fully implement the Act, such as meeting 
timelines for rulemaking efforts while balancing competing interests of 
stakeholders involved with controversial safety measures.''
    For example, FAA is experiencing lengthy delays and considerable 
industry opposition in issuing and finalizing rules that will enhance 
pilot qualification standards, revise crew training requirements, and 
establish mentoring and professionalism programs.''
    What can the FAA do to overcome these hurdles and issue final rules 
for pilot qualification standards, crew training requirements, and 
mentoring and professionalism programs that reflect the intent of the 
authorizing legislation?
    Answer. It is important for FAA to do all they can to expedite 
these rulemaking efforts.
    The success of FAA's efforts to issue final rules on pilot 
qualification standards, crew training requirements, and mentoring and 
professionalism depends on the Agency's ability to work with air 
carriers, industry associations, and other agencies to resolve their 
concerns, if possible, in a timely manner.
    However, we note that rulemaking activities are complex, require 
extensive public notification and comment periods, and can encounter 
significant industry opposition. For example, FAA encountered 
significant industry pushback due to the increase in flight hours the 
Act mandates for pilots. Similarly, industry is concerned that the 
proposed crew training rule imposes overly prescriptive training hours 
rather than basing pilot training on skills most needed to safely 
perform flight operations. Finally, FAA has encountered a lengthy delay 
in issuing a proposed rule establishing mentoring and leadership 
programs, due in part to challenges in developing the appropriate 
balance between the costs and benefits of these programs.
    To overcome these challenges, FAA will need to work with the 
various stakeholders to address these issues without losing the intent 
of the legislation.
Code-Sharing Between Mainline and Regional Carriers
    Question 2. Mr. Guzzetti, do you believe that mainline air carriers 
are finding ways to ensure that their regional code-share partners 
implement the most effective safety practices?
    Answer. We found that mainline carriers have begun implementing 
safety information sharing practices with their code-sharing partners. 
However, the amount, type, and frequency of shared information vary 
greatly.
    We are concerned that FAA has not provided guidance to the industry 
on how to implement safety information-sharing programs or outlined its 
expectations for sharing best practices on code share partnerships. In 
our recent audit report regarding FAA's role in domestic airline code 
sharing, we issued a recommendation to FAA to provide this guidance.
    FAA responded to our recommendation by stating that it intends to 
require each Part 121 air carrier to implement a safety management 
system (SMS). SMS is a comprehensive, process-oriented approach to 
managing safety that includes an organization-wide safety policy; 
formal methods for identifying hazards, controlling, and continually 
assessing risk; and promotion of a safety culture. FAA believes that a 
tailored SMS program within each airline will be an effective method 
for safety information sharing. FAA projects that the SMS rule will be 
issued this September, but it is uncertain when it will be fully 
implemented. Notwithstanding the expected benefits of SMS, we believe 
that continued FAA oversight is needed to ensure mainline carriers are 
working with their regional partners and implementing the most 
effective safety practices.

    Question 3. In your February 14th report on code-sharing, you 
recommended that the Office of the Secretary and the FAA takes a closer 
look at the code-sharing agreements between major airlines and their 
regional partners for the potential impact that requirements for 
contractual obligation such as on-time performance may have on safety.
    Can you explain the concerns that your office may have, and what 
your investigation uncovered in terms of DOT and FAA having awareness 
of what actually is written into these code share agreements?
    Answer. We found that DOT's Office of the Secretary (OST) and FAA 
do not review most domestic code share agreements. Therefore, DOT and 
FAA have a limited awareness of what is contained in these agreements, 
despite the fact that the increased use of code share agreements 
between U.S. air carriers has changed the aviation landscape.
    OST is required to assess potential economic impacts on competition 
for domestic code share agreements only between two major carriers. 
However, because just 20 percent of active Part 121 carriers are 
considered ``major,'' the number of agreements that OST is required to 
review is limited. OST does not voluntarily review other ``non-major'' 
agreements because it believes that agreements between major carriers 
are the only ones with the potential to adversely impact the market. 
However, the addition or cancellation of code share agreements between 
major carriers and non-major carriers may affect competition and 
consumer access in smaller markets. For example, after its merger with 
Northwest Airlines, Delta Air Lines announced that it was suspending 
its Delta Connection service to 24 smaller markets as the carrier 
sought to adjust service to these markets. As we noted in our February 
2013 report, OST may be missing competitive and economic impacts on 
smaller markets.
    FAA--the safety regulator--is not required by law to review any 
domestic code share agreements and does not voluntarily do so. FAA 
considers domestic code share agreements to be purely financial 
arrangements and relies on its oversight of individual carriers to 
ensure the safe operation of passenger flights. Even so, in its 2009 
Call to Action on Aviation Safety and Pilot Training, the FAA committed 
to work with DOT ``to develop the authority to review agreements 
between air carriers and their regional partners.'' Despite this 
commitment, FAA did not pursue this effort. Our work shows that FAA can 
and should take a more active role. Specifically, we found that FAA 
does not review performance metrics contained in code share agreements 
to ensure they do not have an adverse impact on safety. These metrics, 
such as incentives for on time performance, may have unintended safety 
implications. As a result, FAA must take a more active role in 
reviewing these agreements.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                          Jeffrey B. Guzzetti
    Question. Following the Colgan Air crash outside Buffalo, New York, 
Congress required the FAA to increase pilot qualifications so that 
first officers have a minimum of 1,500 hours of flight time. The final 
rule on pilot qualifications is substantially overdue. What impacts 
will there be on pilots, and passengers, if the FAA does not complete 
the rule quickly?
    Answer. Without FAA's final rule, air carrier pilots will have to 
meet the more stringent qualification requirements of the Act that will 
automatically take effect on August 1, 2013. This means that air 
carriers will have to remove any pilot from their duties if they do not 
hold a valid Airline Transport Pilot (ATP) certificate; which requires 
a minimum of 1,500 hours of flight time. We do not know, and neither 
does FAA, how many pilots this would affect, or the impact on flight 
cancellations. Our recent audit report regarding FAA's progress on the 
Act addresses this, and cites our recommendation that FAA determine how 
many pilots do not meet the heightened qualification standards required 
by the Act, and assess the data for the potential impact on FAA and air 
carrier operations.
    Through a rulemaking, FAA has the opportunity to provide 
flexibility on the pilot flight hour and advanced certificate 
prerequisites. For example, the proposed rule enables FAA to allow 
pilots with a 4-year aviation degree or military flight experience to 
obtain the new, restricted ATP for Co-Pilots/Second-In-Command as an 
alternative to the 1,500 hour requirement.
    FAA's delayed rulemaking is a particular concern because air 
carriers may not have adequate time to make necessary adjustments to 
their pilot training and qualification programs to meet the new 
requirements by the Act's deadline. As we have stated, the impact on 
passengers is uncertain, and is an important watch item for this 
Committee.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                          Jeffrey B. Guzzetti
    Question. I am committed to investing in our Nation's 
infrastructure and making sure we have the safest airports at all our 
airports, large and small. That is why I have cosponsored the Protect 
Our Skies Act led by Senators Moran and Blumenthal that would keep our 
air traffic control towers open. There are four air traffic control 
towers slated for closure in Minnesota. Two towers are FAA operated at 
Flying Cloud, Eden Prairie while the two towers at Janes Field in Anoka 
County and St. Cloud Regional are contract towers. Anoka County has 
written a letter about why their tower is important to the community 
and I request that it be submitted for the record. Can you talk about 
the need for more air traffic controllers to address fatigue and 
improve safety?
    Answer. Air traffic controllers are an important component to the 
safe operation of air traffic in the air and on the ground. As such, 
ensuring a well-rested, alert controller workforce is critical to the 
safe and efficient operation of the National Airspace System (NAS).
    FAA currently has more than 15,000 controllers to guide pilots 
through the NAS. In response to a number of incidents of sleeping or 
unresponsive controllers in 2011, FAA has taken action to mitigate the 
impact of fatigue on controllers by revising its scheduling policies. 
For example, the Agency increased the minimum rest periods between 
shifts and increased the number of controllers assigned to midnight 
shifts.
    At this time, FAA is still determining how many controllers it 
needs. We believe it is critical that FAA establish proper staffing 
levels for each of its air traffic control facilities to ensure it has 
the appropriate number of controllers at the appropriate location.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
